<html>
<title> - CONNECTING AMERICA: IMPROVING ACCESS TO INFRASTRUCTURE FOR COMMUNITIES ACROSS THE COUNTRY</title>
<body><pre>[Senate Hearing 115-60]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 115-60
 
                          CONNECTING AMERICA:
                  IMPROVING ACCESS TO INFRASTRUCTURE 
                   FOR COMMUNITIES ACROSS THE COUNTRY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                             
                             
                             
                             
                             
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-592 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                 
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2017....................................     1
Statement of Senator Thune.......................................     1
    Prepared statement...........................................     3
Statement of Senator Nelson......................................     4
    Prepared statement...........................................     5
Statement of Senator Klobuchar...................................    36
Statement of Senator Blunt.......................................    37
Statement of Senator Lee.........................................    43
Statement of Senator Moran.......................................    45
Statement of Senator Hassan......................................    47
Statement of Senator Inhofe......................................    49
Statement of Senator Fischer.....................................    51
Statement of Senator Cortez Masto................................    53
Statement of Senator Capito......................................    55
Statement of Senator Young.......................................    58
Statement of Senator Markey......................................    59
    Letter dated March 1, 2017 to Hon. Donald J. Trump, Hon. 
      Mitch McConnell, and Hon. Paul Ryan from representatives of 
      Next Century Cities........................................    60
    Letter dated March 2, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Jeffrey D. DeBoer, President and Chief 
      Executive Officer, The Real Estate Roundtable..............    63
    Letter dated March 8, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Heather Burnett Gold, President and CEO, Fiber 
      to the Home Council Americas...............................    67
    Letter dated March 9, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Marc H. Morial, President and Chief Financial 
      Officer, National Urban League.............................    68
    Letter dated March 1, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from John Windhausen, Jr., Executive Director, 
      Schools, Health & Libraries Broadband (SHLB) Coalition.....    70
Statement of Senator Duckworth...................................    75
Statement of Senator Johnson.....................................    77
Statement of Senator Blumenthal..................................    80
Statement of Senator Sullivan....................................    82
Statement of Senator Cruz........................................    84

                               Witnesses

Hon. Dennis Daugaard, Governor, South Dakota.....................     7
    Prepared statement...........................................     9
Hon. Carlos M. Braceras, P.E., Secretary-Treasurer, American 
  Association of State Highway and Transportation Officials; 
  Executive Director, Utah Department of Transportation..........    13
    Prepared statement...........................................    15
Shirley Bloomfield, Chief Executive Officer, NTCA-The Rural 
  Broadband Association..........................................    21
    Prepared statement...........................................    23
Hon. Philip Levine, Mayor, City of Miami Beach...................    29
    Prepared statement...........................................    31

                                Appendix

Tom Koxlien, CEO, TeleQuality Communications, Inc. (Rural Health 
  Telecom), prepared statement...................................    89
Response to written questions submitted to Hon. Dennis Daugaard 
  by:
    Hon. Maggie Hassan...........................................    89
    Hon. Catherine Cortez Masto..................................    90
Response to written questions submitted to Hon. Carlos M. 
  Braceras by:
    Hon. Catherine Cortez Masto..................................    91
Response to written questions submitted to Shirley Bloomfield by:
    Hon. Amy Klobuchar...........................................    92
    Hon. Maggie Hassan...........................................    92
    Hon. Catherine Cortez Masto..................................    93
Response to written question submitted to Hon. Philip Levine by:
    Hon. Maggie Hassan...........................................    94


                          CONNECTING AMERICA:



 IMPROVING ACCESS TO INFRASTRUCTURE FOR COMMUNITIES ACROSS THE COUNTRY

                              ----------                              


                        WEDNESDAY, MARCH 1, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
room SD-106, Dirksen Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Blunt, Cruz, 
Fischer, Moran, Sullivan, Heller, Inhofe, Lee, Johnson, Capito, 
Gardner, Young, Nelson, Cantwell, Klobuchar, Blumenthal, 
Markey, Booker, Duckworth, Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning, and welcome to everybody. This 
hearing will get underway.
    Last night, President Trump called for renewal of our 
Nation's infrastructure. Today, we're going to hear from 
leaders representing the infrastructure needs of our 
geographically diverse country, from Miami Beach to Utah, and 
even from my own home state of South Dakota, Governor Dennis 
Daugaard. So I want to thank you all for being here today.
    Though separated by thousands of miles, our communities are 
connected by a vital network of transportation and 
communications infrastructure. Providing this connection for 
people, goods, and information to travel safely and efficiently 
across America is a responsibility shared by all levels of 
government, as evidenced by our panel today.
    Most recently, through the work of this committee and 
others, Congress reauthorized Federal surface transportation 
programs in the Fixing America's Surface Transportation, or 
FAST Act, the $305 billion, five-year bill enacted to improve 
our Nation's infrastructure, increase safety, and enhance 
economic growth.
    The first long-term transportation bill in a decade, the 
FAST Act provided needed certainty and was a big step in the 
right direction, but our Nation's infrastructure is too 
important to American competitiveness not to remain a critical 
focus of this committee.
    For example, without a robust and efficient transportation 
sector, rural states like mine would be unable to get their 
goods to market. In 2015, South Dakota alone saw $65 billion in 
freight flows traveling to and from the state. The majority of 
that freight volume is made up of agricultural products, which 
help to feed Americans in places like Miami and Salt Lake City, 
and countless places in between.
    Commerce does not end at our state lines, or even our 
national borders. In fact, in a recent letter to President 
Trump, over 200 agriculture producers and related businesses 
highlighted this point, stating, and I quote, ``Infrastructure 
that supports rural communities and links them to global 
markets has helped make the U.S. the unquestioned leader in 
agriculture production.''
    More broadly, a more efficient transportation network 
boosts the competitiveness of nearly every sector of our 
economy. Unfortunately, what used to be the best transportation 
infrastructure system in the world is now falling behind, 
unable to keep pace with the growing demands of our economy.
    Similarly, while the U.S. is a global leader in broadband 
innovation and investment, millions of Americans still do not 
have access to the Internet, most of them in rural communities. 
Our digital networks have primarily been built by companies 
using private capital, $1.5 trillion of private sector 
investment over the last 20 years. Yet, in many parts of our 
country, it is simply not economical to build broadband 
systems, leaving some communities behind. The Federal 
Government and many states have stepped in to address this 
funding gap, augmenting private capital with limited, but 
crucial, government support.
    To continue bridging this digital divide, we need to 
examine existing programs to determine how best to improve 
their efficacy. And we need to explore new ways to reduce the 
cost of broadband, like reducing regulatory obstacles to 
deployment.
    For example, the MOBILE NOW Act, which Ranking Member 
Nelson and I introduced and this committee approved earlier 
this year, would make broadband deployment more affordable by 
streamlining the red tape broadband providers face and by 
helping to make more wireless spectrum available for mobile 
broadband services. Enacting this legislation would be a great 
down payment toward ensuring that all Americans can benefit 
from the digital economy.
    Fortunately, improving our infrastructure, for 
transportation and information, is an area where bipartisan 
agreement and cooperation among different levels of government 
can oftentimes be found. Of course, as we work to achieve our 
shared goals, we need to ensure that we are fully exploring 
funding options and being responsible stewards of Federal 
funds.
    In transportation, as reaffirmed with the passage of the 
FAST Act, states and local governments receive an allocated 
share of Federal funding through formulas. This funding model 
has been widely considered appropriate and equitable for the 
states, as evidenced by the Senate's strong vote of 83 to 16.
    Outside of the direct funding model, infrastructure 
investment takes a variety of forms. Some of the more recently 
discussed, yet not necessarily new, approaches include bonds, 
tax credits, and credit assistance programs.
    Compared to rural areas, high-population density urban 
areas may be conducive to a more diverse range of financing 
options, including public-private partnerships, or so-called 
P3s. In some cases, P3s can enhance capital efficiency by 
transferring greater responsibility to private entities in 
exchange for access to some sort of revenue, such as tolls, 
fees, or availability payments.
    Despite ongoing interest, however, P3s currently account 
for only a small share of highway projects, partly because many 
projects do not make financial sense for private sector 
investment. Even with these limitations, in an era of scarce 
dollars, such financing tools should be considered a valuable 
supplement, but not a substitute, for traditional 
infrastructure investment.
    We should be focused on what works for different areas of 
the country, not locked-in to a particular approach. This 
includes supporting existing authorized programs that work. And 
that is not to say that the existing Federal funding system 
can't be improved or to suggest that more funding is always the 
answer.
    In some instances, transportation providers and shippers 
have been saddled with unnecessary regulations and paperwork 
requirements that burden operations and inhibit capital 
investment. In other cases, a web of permitting processes 
unnecessarily slows project delivery and adds costs to project 
construction. Eliminating unnecessary hurdles, while 
maintaining an emphasis on safety improvements, can lead to a 
better use of both public and private dollars.
    I want to thank all of our witnesses for being here today. 
I look forward to hearing your testimony. And I'm going to turn 
now to our Ranking Member, Senator Nelson, for his opening 
statement.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Good morning. Last night, President Trump called for renewal of our 
Nation's infrastructure.
    Today, we will hear from leaders representing the infrastructure 
needs of our geographically diverse country, from Miami Beach to Utah, 
and even from my home state of South Dakota, Governor Dennis Daugaard. 
Thank you all for being here today.
    Though separated by thousands of miles, our communities are 
connected by a vital network of transportation and communications 
infrastructure. Providing this connection for people, goods, and 
information to travel safely and efficiently across America is a 
responsibility shared by all levels of government, as evidenced by our 
panel today.
    Most recently, through the work of this Committee and others, 
Congress reauthorized Federal surface transportation programs in the 
Fixing America's Surface Transportation--or FAST Act--the $305 billion, 
five-year bill enacted to improve our Nation's infrastructure, increase 
safety, and enhance economic growth. The first long-term transportation 
bill in a decade, the FAST Act provided needed certainty and was a big 
step in the right direction, but our Nation's infrastructure is too 
important to American competitiveness not to remain a critical focus of 
this Committee.
    For example, without a robust and efficient transportation sector, 
rural states like mine would be unable to get their goods to market. In 
2015, South Dakota alone saw $65 billion in freight flows traveling to 
and from the state. The majority of that freight volume is made up of 
agricultural products, which help to feed Americans in places like 
Miami and Salt Lake City, and countless places in between. Commerce 
does not end at our state lines, or even our national borders.
    In fact, in a recent letter to President Trump, over 200 
agriculture producers and related businesses highlighted this point, 
stating, ``Infrastructure that supports rural communities and links 
them to global markets has helped make the U.S. the unquestioned leader 
in agricultural production.''
    More broadly, a more efficient transportation network boosts the 
competitiveness of nearly every sector of our economy.
    Unfortunately, what used to be the best transportation 
infrastructure system in the world is now falling behind, unable to 
keep pace with the growing demands of our economy.
    Similarly, while the U.S. is a global leader in broadband 
innovation and investment, millions of Americans still do not have 
access to the Internet, most of them in rural communities. Our digital 
networks have primarily been built by companies using private capital--
$1.5 trillion dollars of private sector investment over the last twenty 
years. Yet, in many parts of the country it is simply not economical to 
build broadband systems, leaving some communities behind. The Federal 
Government and many states have stepped in to address this funding gap, 
augmenting private capital with limited, but crucial, government 
support.
    To continue bridging this digital divide, we need to examine 
existing programs to determine how best to improve their efficacy. And 
we need to explore new ways to reduce the cost of broadband, like 
reducing regulatory obstacles to deployment.
    For example, the MOBILE NOW Act, which Ranking Member Nelson and I 
introduced and this Committee approved earlier this year, would make 
broadband deployment more affordable by streamlining the red tape 
broadband providers face and by helping to make more wireless spectrum 
available for mobile broadband services. Enacting this legislation 
would be a great down payment toward ensuring all Americans can benefit 
from the digital economy.
    Fortunately, improving our infrastructure--for transportation and 
information--is an area where bipartisan agreement and cooperation 
among different levels of government can oftentimes be found. Of 
course, as we work to achieve our shared goals, we need to ensure that 
we are fully exploring funding options and being responsible stewards 
of Federal funds.
    In transportation, as reaffirmed with the passage of the FAST Act, 
states and local governments receive an allocated share of Federal 
funding through formulas. This funding model has been widely considered 
appropriate and equitable for the states, as evidenced by the Senate's 
strong vote of 83 to 16.
    Outside of the direct funding model, infrastructure investment 
takes a variety of forms. Some of the more recently discussed, yet not 
necessarily new, approaches include bonds, tax credits, and credit 
assistance programs.
    Compared to rural areas, high population density urban areas may be 
conducive to a more diverse range of financing options, including 
public-private partnerships, so-called P3s. In some cases, P3s can 
enhance capital efficiency by transferring greater responsibility to 
private entities in exchange for access to some sort of revenue, such 
as tolls, fees, or availability payments.
    Despite ongoing interest, however, P3s currently account for only a 
small share of highway projects, partly because many projects do not 
make financial sense for private sector investment. Even with these 
limitations, in an era of scarce dollars, such financing tools should 
be considered a valuable supplement--but not a substitute--for 
traditional infrastructure investment.
    We should be focused on what works for different areas of the 
country, not locked-in to a particular approach. This includes 
supporting existing authorized programs that work.
    That is not to say that the existing Federal funding system can't 
be improved--or to suggest that more funding is always the answer.
    In some instances, transportation providers and shippers have been 
saddled with unnecessary regulations and paperwork requirements that 
burden operations and inhibit capital investment. In other cases, a web 
of permitting processes unnecessarily slows project delivery and adds 
costs to project construction. Eliminating unnecessary hurdles, while 
maintaining an emphasis on safety improvements, can lead to a better 
use of both public and private dollars.
    Thank you to all of the witnesses for being here today. I look 
forward to hearing your testimony. I will now turn to Ranking Member 
Nelson for his opening statement.

    The Chairman. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. I, too, welcome you, and I think each of 
you can give us an important perspective from your state as to 
the infrastructure needs. The Chairman has laid out 
appropriately the needs. It was emphasized by the President 
last night. The President, as candidate, said that he wanted a 
trillion dollar infrastructure program. A bunch of us in the 
Senate took him at his word, and a month ago introduced a 
trillion dollar infrastructure bill.
    You come to a state like mine, we are growing at 1,000 
people a day, 365,000 a year, net. You can imagine the strain 
on the existing infrastructure, the roads and bridges. You can 
imagine that in the Nation, we have 56,000 miles of roads that 
need to be rehabbed.
    In Florida alone, there are 200 bridges that, according to 
the State Department of Transportation, are structurally 
deficient. We have vast areas of Florida, unbelievably to 
outsiders, that are rural. We need rural broadband. A lot of it 
can be financed through the private sector, given the 
appropriate tax incentives.
    Public-private partnerships are helpful, but in a growth 
state like mine, with the deficiencies in the roads and bridges 
all over the country, you can't do that all with a public-
private partnership. You can't toll enough roads to solve our 
problems. And, oh, by the way, you'll get resistance from our 
citizen drivers to those toll roads. So we've got to be serious 
about an infrastructure plan.
    Now, uniquely in this committee, we also handle 
telecommunications, and so a portion of the infrastructure 
monies are going to need to go to the Nation's aging 9-1-1 
infrastructure to the Next Generation 9-1-1, and it's a 
national imperative to keep our citizens safe.
    So this is what we're going to face. Most people would 
agree we need a Federal infrastructure plan. How are we going 
to pay for it? And that's where it begins to get a little 
sensitive.
    So let us hear from you. Thank you all for coming. Thank 
you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    I'd like to thank all of the witnesses for being here today.
    Our road, waterway, rail and broadband networks connect communities 
and help drive our economy.
    But if we aren't vigilant, those networks can quickly decline.
    We have seen the impacts of this decline throughout the country--

  <bullet> Whether its congestion on our highways,

  <bullet> bottlenecks at our ports and on our rail lines,

  <bullet> the intensifying impacts of climate change, or

  <bullet> aging infrastructure that threatens our ability to get 
        people to work.

    The numbers aren't looking good.
    The American Society of Civil Engineers graded our infrastructure 
at a D+.
    The Road Builders found that there are 56,000 structurally 
deficient bridges nationwide, including more than 200 in Florida.
    The bad news doesn't end there.
    As we will hear from Mayor Levine, climate change is undermining 
existing infrastructure in our cities already.
    The main arteries of commerce--roads and pipes--are failing and 
rising seas, nuisance flooding, and saltwater intrusion accelerate the 
damage.
    Not to mention the need to factor in climate change projections 
when planning the infrastructure of the future.
    Rain-related flooding events in Southeast Florida have increased by 
33 percent and tide-related flooding has increased by a whopping 400 
percent.
    Let me tell you, this is not good for business.
    In 2015 alone, the Miami area experienced a record 18 tidal 
flooding events.
    To address this economic and environmental crisis, Miami Beach, 
under Mayor Levine's leadership, has launched a $400 million effort to 
raise sidewalks, install pumps, and rebuild roads at a higher level.
    But we need to take action at the Federal level.
    It requires a strong, dedicated commitment from the Federal 
Government to keep these networks in tip top shape and make sure they 
are safe and ready for the future.
    It also requires funding.
    Local governments cannot be expected to face this challenge alone.
    Federal agencies provide essential tools to help communities plan 
infrastructure that is built to last.
    While loans and financing can be helpful, they are just tools.
    And these tools are useless, if you don't first have significant 
funding.
    That's why my colleagues and I put out a blueprint for how we can 
invest in the President's call for a trillion dollars in infrastructure 
investment.
    One area where this funding is critical is to build the projects 
that our going to prepare our states for the future--
    Like the resilience initiatives discussed by Mayor Levine, 
repairing the Herbert Hoover Dike in Florida, or building new rail 
lines.
    And it is essential that any investment in new infrastructure 
ensure that the project is designed to withstand future climactic 
conditions.
    Further, we also need to address our broadband infrastructure.
    That is why the Democratic Blueprint included $20 billion to help 
the Nation expand access to essential high-speed broadband services, 
close the digital divide, and push the economy forward.
    Even more significantly, a portion of those monies would be used to 
upgrade the Nation's aging 9-1-1 infrastructure to Next Generation 9-1-
1--a national imperative to keep our citizens safe and enhance public 
safety.
    Federal funding could help support critical projects like these 
across the country.
    These kinds of infrastructure investments have lasting impacts on 
our economy for decades to come.
    I look forward to hearing from the panel on how Federal investments 
can help improve our infrastructure.
    I want to especially thank Mayor Levine from Miami Beach for being 
here today.

    The Chairman. Thank you, Senator Nelson.
    We have, as I said, a great panel before us today, and I 
want to recognize the Senator from Utah, Senator Lee, to 
introduce our Utah panelist.
    Senator Lee.
    Senator Lee. Thank you very much, Mr. Chairman.
    It's great to have my friend Carlos Braceras before the 
Committee today. I've known Carlos Braceras for over 12 years, 
and very honored to have him before the Committee today. He's 
the Director of the Utah Department of Transportation, which 
oversees some 1,600 employees as well as the design, the 
construction, and the maintenance of Utah's 6,000-mile system 
of roads and highways during his long and impressive career at 
Utah.
    Mr. Braceras has established for himself and for our state 
a top-notch reputation for thoughtful planning and creative 
partnerships with local governments and with private 
stakeholders, everyone who might be affected by what they do 
there.
    And as the current Secretary-Treasurer of the American 
Association of State Highway and Transportation Officials, he 
can offer valuable insight into how Congress can minimize 
Federal barriers, barriers that tend to inhibit state and local 
governments from investing in infrastructure to begin with.
    So I look forward to your testimony, Carlos. Thanks for 
being here.
    The Chairman. Thank you, Senator Lee. And I do want to just 
recognize our panel. As I mentioned earlier, our Governor from 
South Dakota, Dennis Daugaard, is here. As Senator Lee pointed 
out, Carlos Braceras, the Executive Director of the Utah 
Department of Transportation and Secretary-Treasurer of the 
American Association of State Highway and Transportation 
Officials. Ms. Shirley Bloomfield, who is Chief Executive 
Officer at NTCA-The Rural Broadband Association in Arlington, 
Virginia. And as pointed out by my colleague Senator Nelson, 
the Honorable Philip Levine, who is the Mayor of Miami Beach, 
Florida.
    Senator Nelson. May I take a personal privilege?
    The Chairman. Yes, sir.
    Senator Nelson. The Mayor is a personal friend, one of the 
most recognized and accomplished mayors, who is dealing with 
another part of a problem of infrastructure, and that is that 
measurements over the last 40 years have shown that the 
Atlantic Ocean has risen in South Florida 5 to 8 inches.
    What happens is at the seasonal high tides, the streets of 
Miami Beach are awash in seawater. And, therefore, he has had 
to spend millions and millions of dollars in very expensive 
pumps and the raising of the roadbeds to try to fix it, a new 
kind of infrastructure investment.
    Cities in South Florida have had to move their city well 
fields further west because the heavier seawater intrudes on 
the honeycomb limestone support of Florida that is filled with 
freshwater, and as a result, they've got to get further away 
from the coast in order to tap that freshwater not being 
invaded by the seawater.
    So the Mayor is a good one to have when we talk about a 
different kind of infrastructure.
    The Chairman. Thank you, Senator Nelson. I'm going to start 
on my left, and your right, with Governor Daugaard. If our 
panelists could confine their statements to as close to 5 
minutes as possible, it will make maximize our time to ask 
questions.
    And I would also note, I think we're going to have a vote 
or two at about 10:30, and my preference would be that we roll 
through, and if we can keep a member or two here to do that, we 
will. If not, we will perhaps take a short recess. But I just 
wanted to put people on notice that that's probably going to 
occur here in the not too distant future.
    Governor Daugaard, welcome.

              STATEMENT OF HON. DENNIS DAUGAARD, 
                     GOVERNOR, SOUTH DAKOTA

    Governor Daugaard. Thank you, Chairman Thune, Senator 
Nelson, and members of the Committee. Thank you for the 
opportunity to be here this morning. I'm Dennis Daugaard, 
Governor of South Dakota. And my hope today is to offer a rural 
perspective on surface transportation infrastructure issues.
    To get right to my key points, Federal transportation 
investment in South Dakota and other rural states benefits the 
whole Nation, not just those rural states. Highways in rural 
western states enable truck movements between the West Coast 
and large cities in the Midwest and the East. We are the bridge 
between those locations. They benefit people and commerce at 
both ends of the journey and along the way.
    Rural highways and rail lines also enable agricultural 
products, energy, and natural resources, like lumber, to move 
from rural points of production to domestic markets and to the 
coasts and on to world markets. Without a well-connected 
transportation system, many of these goods could not be 
exported.
    Every year, my third point, rural highways enable tens of 
millions of visitors to reach Mount Rushmore in my state, and 
national parks, like Yellowstone. These tourism dollars are 
spent here in America boosting the economy. So there are plenty 
of great reasons for Federal surface transportation 
investments, even in a state like South Dakota and other rural 
areas.
    Second, rural states have needs for surface transportation 
investment. If Congress passes surface transportation 
infrastructure legislation, any additional funds would be put 
to good use promptly in South Dakota and other states. Any 
additional funds would create jobs and economic growth and 
enhance safety.
    However, I want to be sure that a rural state like mine 
benefits from any new infrastructure law in a meaningful way. I 
expect that any new infrastructure bill will encourage private 
sector investment and transportation infrastructure.
    However, public-private partnerships needing sizable 
private returns are not a surface transportation solution for 
rural states. Even after supplementing project revenues with 
tax credits, our low traffic volumes in rural states do not 
generate sufficient income to attract investors.
    Rural states are sparsely populated, yet they have 
extensive road networks, so the per capita costs of paying off 
principal and interest is high in rural states. That deters 
borrowing, and for a good reason. In short, any surface 
transportation infrastructure initiative that Congress crafts 
must take into account funding challenges facing rural states.
    Rural states, as well as other states, need to benefit from 
the surface transportation portion of any infrastructure 
initiative, so the legislation can't be limited to P3s as a 
solution.
    In addition, any surface transportation initiative should 
emphasize formula funding. Using the FAST Act formula-based 
distribution would ensure both rural and urban states 
participate substantially in a balanced surface transportation 
initiative.
    Now, strengthening the surface--or excuse me--strengthening 
the Highway Trust Fund is an important objective. The Highway 
Trust Fund and the programs it supports and maintains, they 
maintain and improve America's surface transportation 
infrastructure.
    But the Highway Trust Fund is in some jeopardy. Without 
legislation, after 2020, the Trust Fund will not support even 
FAST Act highway and transit program levels. In other words, it 
won't be able to support existing program levels. It won't meet 
the growing needs of the economy either. So, strengthening the 
Highway Trust Fund is worthy of consideration and action.
    Just a few more points. Today, states do not receive the 
benefits of the FAST Act due to the part-year Continuing 
Resolution. States receive less than the FY17 appropriated 
level--or, excuse me, authorized levels. For some rail and 
truck safety programs, the part-year appropriations law 
continues programs as they existed before the FAST Act reforms. 
Promptly passing legislation to fully fund the FAST Act would 
enhance infrastructure investment and transportation safety.
    Also, my prepared testimony and the map attached to it make 
clear that the draft Multimodal Freight Network, published by 
USDOT last year, leaves rural states underserved. In addition, 
stakeholders from across the Nation protested the proposed 
network. AASHTO called the highway component of that network 
insufficient, inadequate, and poorly connected. If USDOT won't 
make needed changes to that draft, I hope Congress will act to 
do so.
    I also encourage Congress to increase Federal 
transportation program flexibility and simplify and expedite 
project delivery. We want each program dollar to deliver more 
benefits.
    In closing, just two points. First, Federal investment in 
surface transportation infrastructure in rural states benefits 
the entire Nation. Second, P3s will not be an effective 
approach to improving surface transportation infrastructure in 
those rural states. So, any surface transportation 
infrastructure initiative must provide rural states meaningful 
funding from sources other than P3s so they can participate 
meaningfully in that initiative.
    Thank you very much.
    [The prepared statement of Governor Daugaard follows:]

  Prepared Statement of Hon. Dennis Daugaard, Governor of South Dakota
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee:

    The President has raised the profile of investment in 
infrastructure on the national policy agenda. I commend this committee 
for following up by holding this hearing on important infrastructure 
issues.
    Today, I'll offer a rural perspective \1\ principally on issues 
concerning our Nation's surface transportation network. The surface 
transportation network needs to effectively connect rural America with 
the entire country, for the benefit of our Nation. Let me get right to 
my key points.
---------------------------------------------------------------------------
    \1\ This prepared statement is presented not only for my own State 
of South Dakota, but also for the transportation departments of Idaho, 
Montana, North Dakota and Wyoming, who have concurred in this prepared 
statement.
---------------------------------------------------------------------------
    Significant Federal investment in the transportation network in 
rural states benefits the Nation. The entire nation gains from Federal 
surface transportation investment in rural states like ours. Those 
investments enable--

  <bullet> truck movements between the West Coast and large cities in 
        the Midwest and East, across states like South Dakota, 
        benefitting people and commerce in large metropolitan areas at 
        both ends of the journey and others along the way;

  <bullet> agricultural products, energy, and other natural resources, 
        which are largely produced in rural areas, to move by truck 
        and/or rail to national and world markets;

  <bullet> access to scenic wonders like Mount Rushmore, Yellowstone, 
        and many other national parks.

    Public Private Partnerships (P3s) and other approaches to 
infrastructure investment that depend on a project's positive revenue 
stream are not a surface transportation infrastructure solution for 
rural states. The low traffic volumes in rural states will not support 
tolls, even if one wanted to impose them. Projects in rural areas are 
unlikely to generate revenues that will attract investors to finance 
those projects--even if the revenues are supplemented by tax credits. 
While P3s could work in some parts of the country, for a surface 
transportation infrastructure initiative to be national in scope and 
have rural-urban balance, P3s are not enough. Other funding approaches 
must be part of any national surface transportation infrastructure 
initiative for rural states to be able to participate in it 
substantially.
    Further, in a recent statement, the President emphasized fixing 
existing infrastructure before building new facilities. An emphasis on 
repairing infrastructure reduces the relevance of P3s as an aid to 
surface transportation investment. Resurfacing and reconstruction of 
roads and major preservation and maintenance work on rail facilities 
rarely generate the new revenue streams a private investor would want.
    Further, recent experience shows that financing approaches do not 
translate well to rural surface transportation infrastructure. The 2009 
recovery act legislation authorized for a limited time so-called 
``Build America Bonds.'' Under that program, of the five rural states 
supporting this testimony, only one used the provision to borrow for 
transportation. And in that case it was for a program where Federal 
funds, not state funds, would be used to pay off the loan.
    Also, a recent 50 state survey by AASHTO found eight states either 
had no current use of bonds for transportation or used them only in the 
GARVEE circumstance, where Federal funds would pay back the borrowing. 
Those States are: Wyoming, Idaho, Montana, North Dakota, South Dakota, 
Iowa, Nebraska, and Tennessee.\2\
---------------------------------------------------------------------------
    \2\ Transportation Governance and Finance, AASHTO, November 2016, 
page 75.
---------------------------------------------------------------------------
    So, to provide for meaningful participation by rural states in any 
surface transportation infrastructure initiative, that initiative must 
provide the rural states meaningful funding from sources other than 
P3s.
    There are needs for surface transportation infrastructure 
investment in rural states (and in all states). If Congress passes an 
infrastructure initiative including surface transportation funds, those 
funds would be put to good use promptly in South Dakota and, I'm sure, 
other states. The states would deliver projects providing safety, 
employment, economic development, transportation efficiency, and other 
benefits.
    Using the FAST Act's predominantly formula-based approach for the 
distribution of funds would ensure that both rural and urban states 
participate in the initiative and it would deliver the benefits of an 
infrastructure initiative to the public promptly. Other aspects of the 
FAST Act are also good precedent for a surface transportation 
infrastructure initiative. For example, the current approximately 4-1 
ratio between Federal highway program funding and Federal transit 
program funding is appropriate. It is also consistent with a highly 
relevant and recent USDOT Conditions and Performance report, and should 
be continued. Further, formula programs, compared to discretionary or 
allocation programs, should continue to receive strong Federal funding 
emphasis in any Federal surface transportation infrastructure 
initiative.
    Last year, with FAST Act formula funding, South Dakota resurfaced 
or rehabilitated 1,410 miles of asphalt pavement and 94 miles of 
concrete pavement, completed 41 miles of grading, built 14 new bridges 
and 8 culverts, and repaired or rehabilitated 66 bridges and culverts. 
It is a powerful statewide success story.
    Also, we would have particular concern if, in any infrastructure 
initiative, any new transportation program elements were structured in 
a way that made it unrealistic for rural states to benefit. New program 
elements limited to extremely expensive projects likely would not be 
accessible by rural states, at least in a substantial way. That type of 
initiative may very well lack urban-rural balance.
    Strengthening the Highway Trust Fund is a very important objective. 
The Highway Trust Fund (HTF) and the programs it supports are 
critically important to success in efforts to maintain and improve 
America's surface transportation infrastructure. We deeply appreciate 
that the FAST Act provided financial support to the trust fund and its 
programs through FY 2020. Yet, past 2020 there will be no meaningful 
balance in the HTF to supplement revenues dedicated to the HTF. So, 
without legislation, after 2020, the HTF will not be able to support 
even current Federal surface transportation program levels, and will 
not meet the needs of the country that will grow as the economy grows.
    In short, as part of any infrastructure effort, Congress should 
seek opportunities to strengthen the Highway Trust Fund. Such action 
could both improve the HTF's long-term stability and enable it to at 
least support currently enacted program levels plus inflation.
    While our focus today is on funding and financial issues, we also 
encourage Congress to take steps to increase Federal program 
flexibility and to simplify and expedite program and project delivery, 
so each dollar will deliver more benefits. One way to do that would be 
to provide each state with increased flexibility to direct funds to 
their highest priorities. South Dakota and other rural states face 
different transportation challenges than those faced by more densely 
populated states. All states would benefit from flexibility.
    Many also have spoken in support of expediting the program and 
project delivery process. We agree. Reducing time and effort needed for 
regulatory and program compliance inevitably means a state DOT has more 
time and money to focus on delivering projects to the public. We do not 
address these issues in detail today, but we want to be clear, it is 
important to simplify the program, and related processes, in order to 
maximize the benefit of each program dollar.
    There have been unfortunate delays in Washington, D.C. that have 
prevented states and the public from receiving the benefits of the FAST 
Act, including funding increases and safety reforms in which this 
committee played a leading role. In the FAST Act, Congress increased 
funding for highway, transit and rail infrastructure and also for 
surface transportation safety programs. We are frustrated because while 
the Federal Government operates under a continuing resolution, funding 
levels legislated in FAST for FY 2017 are not in effect. We have a 
short construction season in South Dakota. So, a funding delay of a few 
weeks can sometimes translate to a year's delay in delivering a 
project.
    In addition, reforms of safety programs developed in large part by 
this committee are not being fully implemented. Instead of receiving 
higher FY 2017 funding levels for a reformed motor carrier safety 
assistance program, we have seven months of hard to use funding, at FY 
2016 levels, for the program that was modified or replaced by the FAST 
Act.
    Under the continuing resolution, certain funds that the FAST Act 
provided for investment in rail freight facilities are not available. 
Those funds could be applied to state owned rail track used by small 
railroads. Such investments are very important to our farmers trying to 
get crops to national and world markets. When those products can move, 
we strengthen the economy and reduce the Nation's trade deficit.
    So, Congress should appropriate full FY 2017 funding for FAST Act 
programs as quickly as possible.
    Many significant rural and other surface transportation assets were 
not recognized in USDOT's draft National Multimodal Freight Network. 
The FAST Act requires development of a National Multimodal Freight 
Network (NMFN). USDOT has not yet designated that network. However, the 
draft of that network USDOT issued for comment last year was very 
disappointing. Stakeholders nationwide complained that important 
highways and other facilities were not included in that draft network. 
AASHTO commented that the highway mileage on that draft network is 
``insufficient, inadequate, and poorly connected.''
    To illustrate the lack of connectivity in the draft NMFN, attached 
to my prepared statement is a map of the highway component of the draft 
NMFN in South Dakota and some nearby states. You will see gaps in the 
network in those states larger than some sizeable states. That does not 
promote national connectivity.
    Comments from individual states, including mine, identified 
additional shortcomings in the draft. Highway connections to grain 
terminals and agricultural shuttle train routes were left out. Also 
omitted were many rail short lines. These omissions discourage efforts 
to increase efficiency in transporting agricultural products from farms 
to national and world markets.
    In short, too many important highways and rail lines were left off 
that draft network, particularly in rural areas. Those omissions, if 
not corrected by USDOT, will leave many areas underserved. It may 
complicate planning. It will discourage public and private investment 
in the omitted roads and rail lines, slowing economic growth. Congress 
certainly could take legislative action to establish a more extensive, 
better connected national multimodal freight network.
    Public transportation provides benefits in rural states. Let me 
briefly mention public transportation, which benefits rural areas as 
well as big metropolitan areas.
    The Federal transit program includes apportionments for rural 
transit. Federal investment in rural transit helps ensure personal 
mobility, especially for senior citizens and the disabled, connecting 
them to necessary services. Transit service is often a vital link for 
citizens in small towns to get to the hospital or clinic as well as to 
work or other destinations. Also, some rural areas are experiencing an 
increase in the age of the population. Public transit helps senior 
citizens meet essential needs without moving out of their homes. Any 
transit component of an infrastructure initiative should include 
transit in rural states as well as in large metropolitan areas.
    Broadband deployment provides benefits in rural states. Let me 
briefly mention another type of infrastructure--broadband. The issues 
of broadband deployment in rural states are framed by the same 
considerations that frame transportation issues facing rural states--
relatively few people and long distances. Thus, as with highways and 
rail, the cost per capita of deploying at least some broadband assets 
can be high.
    Yet, for rural states and areas to fully participate in the 
economic and cultural life of the nation, and for the Nation to benefit 
fully from the talents and economic output rural Americans can 
contribute to the country, rural America needs broadband access. 
Clearly, there already is broadband access in many areas in rural 
states, but access to broadband can be improved, and I'm interested in 
seeing that happen. I look forward to working with the Congress on 
broadband infrastructure issues as they develop.
    Before closing, let me mention additional reasons why strong 
Federal transportation investment in rural states is appropriate and 
benefits the Nation.
    I mentioned truck movements from West Coast ports to Chicago or 
other heartland or eastern destinations. Almost 70 percent of truck 
movements in South Dakota do not have an origin or destination in the 
state, a percentage well above the national average for through truck 
traffic. This underscores that highways in rural states serve national 
commerce and provide vital connectivity.
    Federal-aid highways in rural states also--

  <bullet> have become increasingly important to the rural economy, 
        with the abandonment of many rail branch lines;

  <bullet> provide a lifeline for remotely located and economically 
        challenged citizens, such as those living on tribal 
        reservations; and

  <bullet> facilitate military readiness.

    The vast extent of Federal and tribal lands in many western states 
presents an additional challenge to improving surface transportation in 
those states. Idaho is well over 60 percent Federal and tribal lands; 
Wyoming, over 50 percent; Montana, roughly 30 percent. There are 
significant tribal lands on South Dakota's six reservations.
    Development or use of Federal or tribal lands is limited, and state 
and local governments can't tax them. Yet, the Nation's citizens and 
businesses want reasonable transportation access to and across those 
lands. Such access is an expensive proposition for sparsely populated 
states. Significant transportation investment by the Federal Government 
remains a proper response, both in terms of apportionments to low 
population density states and in terms of direct Federal programs 
generally referred to as the ``Federal Lands Programs.''
    Let me expand on the importance of the rural agricultural sector. 
In an average year, the corn, soybeans, wheat and sunflowers moved from 
South Dakota fields would fill over one million 18-wheel trucks. In 
2014, South Dakota's agricultural exports were estimated at $4.3 
billion. Wyoming produces significant grain, sheep, and cattle. North 
Dakota leads the Nation in the production of many crops, including 
barley, durum wheat, and spring wheat. Montana is a leading producer of 
wheat, peas, and other crops and in 2016 exported 80 percent of its 
nearly billion dollar wheat crop. Idaho is also a major grain producer 
and possibly billions of people around the world have consumed Idaho 
potatoes.
    Energy and other natural resources are largely located in rural 
states and areas, including oil, natural gas, or coal in Wyoming, North 
Dakota, and Montana and ethanol in South Dakota.
    The surface transportation network is essential to moving these 
agricultural and energy products to national and world markets and 
improving the U.S. economy.
    Quality transportation infrastructure in rural states helps ensure 
that American and international tourism dollars are spent in America, 
furthering national economic goals. For example, in 2016 visitors to 
Mount Rushmore totaled about three times the population of South 
Dakota. Similarly, that year there were roughly 10 million recreational 
visitors to Yellowstone, Glacier, and Grand Teton national parks. The 
entire population of Wyoming and Montana combined is approximately 1.5 
million. Other important scenic destinations are located in this 
region: the Badlands National Park in South Dakota; Devils Tower in 
Wyoming; Theodore Roosevelt National Park in North Dakota; and the 
Craters of the Moon National Monument and the Sawtooth National 
Recreation Area in Idaho.
    Rural western states have very few people to support each lane mile 
of Federal-aid highway--and preserving and maintaining this aging, 
nationally connected system is expensive. Yet, citizens from our states 
contribute to this effort significantly. Nationally, the per capita 
contribution to the Highway Account of the Highway Trust fund is 
approximately $115. The per capita contribution to the Highway Account 
attributable to rural states is much higher; in South Dakota it is 
roughly $190.
    So, any surface transportation infrastructure initiative Congress 
may develop should be structured in a way that recognizes and responds 
to, among other considerations, the challenges facing rural states.
Conclusion
    In closing, I'll emphasize two points.
    First, Federal investment in surface transportation infrastructure 
in rural states benefits the entire nation.
    Second, P3s will not be an effective approach to improving surface 
transportation infrastructure in rural states. So, any surface 
transportation infrastructure initiative must provide rural states 
meaningful funding from sources other than P3s, so that they can 
participate meaningfully in that initiative.
    Thanks for the opportunity to present testimony today.
                                 ______
                                 
    Attachment: Highway Component of draft NMFN in South Dakota and 
                        additional rural states
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Governor Daugaard. And we will 
include your entire statement with the attachments in the 
record as well.
    So, Mr. Braceras.

     STATEMENT OF HON. CARLOS M. BRACERAS, P.E., SECRETARY-
     TREASURER, AMERICAN ASSOCIATION OF STATE HIGHWAY AND 
 TRANSPORTATION OFFICIALS; EXECUTIVE DIRECTOR, UTAH DEPARTMENT 
                       OF TRANSPORTATION

    Mr. Braceras. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, thank you very much for the 
opportunity to be here today and share with you my thoughts on 
the connectivity of people, goods, and information that every 
community needs throughout our Nation.
    My name is Carlos Braceras, and I'm the Executive Director 
of the Utah DOT. I'm also the Secretary-Treasurer of AASHTO. 
That's our association for all 50 DOTs plus the Puerto Rico and 
D.C. DOTs.
    Utah is an interesting state in that we have 65 percent of 
our land owned by the Federal Government, so we're extremely 
rural, but 9 out of 10 Utahans live in an urban environment. So 
we have urban and rural issues.
    It's important to remember the fundamental purpose of 
transportation. It's to grow the economy of our cities, our 
counties, and our country. And the interstate and national 
highway system plays a critical role in connecting all of 
America, especially rural areas, to economic opportunities and 
amenities that contribute to a high quality of life.
    The safe and reliable movement of freight ensures that the 
economic vitality of our country is strong and well-maintained. 
For example, AdvancePierre. It's a food service, it has a plant 
in Oklahoma, and it ships products throughout the country. It 
relies on the interstate transportation system to access both 
domestic and international markets. It's critical that this 
system is accessible and well maintained in states such as 
Utah, where nearly a quarter of our traffic on our interstate's 
system is freight traffic, such as AdvancePierre's food 
products.
    Businesses located in my state and others rely on this 
system to move their products safely and efficiently. We need a 
strong national transportation system.
    The national transportation system also serves our Nation's 
agriculture, ethanol production, and energy industries, which 
are largely located in rural areas. It also provides accesses 
to the scenic wonders of Arches, Bryce, and Zion's National 
Park in Utah, and many other great national parks and forests 
around our country.
    Now, more than ever, it's important that we proactively 
prepare to meet users' demands and increase economic 
opportunities through investing in surface transportation and 
passenger rail service. The Federal role in investment in 
surface transportation has a successful track record in 
partnering with the states.
    As you work with President Trump to deliver a major 
infrastructure initiative, we recommend two principles. Use the 
formula-based program structure currently in place because it 
is both the most effective and efficient way to put Federal 
dollars to work, and focus on direct funding rather financing 
mechanisms because only the former can truly help deliver much 
needed products--projects in every part of our country.
    I believe that the FAST Act and Moving Ahead for America 
for Progress in the 21st Century, MAP-21, have made great 
strides in instituting major programmatic and policy reforms. 
However, there still exists further opportunity for 
improvements while still remaining responsible stewards of both 
the human and the natural environments.
    We want to build on the success of these policy reforms, 
and AASHTO is asking to improve it by simplifying the NEPA 
Assignment application and audit process. This allows states to 
assume all of the responsibilities of the USDOT with respect to 
activities relating to environmental review, consultation, and 
approval.
    Several years ago, I led an international delegation of 
U.S. experts to learn about performance measures and 
management. We visited six national--six nations and regional 
governments to learn, and one of the universal takeaways was 
that fewer high-level measures were more effective to move the 
transportation vision toward accomplishing the goals of the 
national and regional governments. AASHTO strongly supports the 
performance measures in MAP-21 and the FAST Act, but ask that 
we first get these up and running before new ones are 
introduced.
    We also suggest that Congress consider authorizing a 
consolidated funding pilot program that treats all core funding 
provided to State DOT under the National Highway Performance 
Program, Surface Transportation Program, and Highway Safety 
Improvement program as a single consolidated apportionment.
    I strongly believe that with enhanced flexibility and 
implementation performance measures, that we can achieve better 
outcomes for the public's investment and greater transparency.
    The State's DOT commend your leadership in consolidating 
the passenger rail title as part of the FAST Act. Your action 
enables many states to invest in modern passenger rail services 
that provide traveling public with more transportation choices, 
relieves highway and airport congestion.
    To protect the taxpayers' investment in passenger rail and 
to ensure high-quality, on-time train service, states have 
implemented the stakeholder agreements as per the requirements 
of the bill. And performance-based, quantifiable measures, such 
as trip times, reliability, and frequency of services, are 
included in these agreements. The rights of private railroad 
owners will be maintained thanks to these.
    We are truly at an inflexion point in transportation that 
is as significant as when the engine was merged with the horse 
and buggy. Today, it's the merger of technology and automobiles 
that's leading us toward the connected autonomous vehicle. And 
this isn't the future, this is now.
    With 94 percent of all crashes in our Nation being the 
result of human error, we have the ability now to enhance 
public safety, save lives on our roadways, and improve 
mobility. It's right at our fingertips. But in order to achieve 
these amazing outcomes, we must first find the right balance 
between regulation and innovation.
    As states, we like flexibility, but there needs to be some 
consistency so that cars traveling from Utah across this 
country can operate on a consistent basis. We need to respect 
personal privacy with the advent of more data being moving 
around. We have to address cybersecurity issues. Public 
agencies need access to appropriate data.
    The state DOTs are absolutely committed to meeting the 
transportation needs of rural America and the policies to help 
move goods, people, and information safely and efficiently 
across the United States.
    I would like to thank you for this time and this 
opportunity today.
    [The prepared statement of Mr. Braceras follows:]

    Prepared Statement of Hon. Carlos M. Braceras, P.E., Secretary-
  Treasurer, American Association of State Highway and Transportation 
                              Officials; 
         Executive Director, Utah Department of Transportation
Introduction
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for the opportunity to provide input on ensuring 
connectivity of people, goods, and information for every community 
across our Nation through infrastructure investment. My name is Carlos 
Braceras, and I serve as the Executive Director of the Utah Department 
of Transportation (UDOT) and as Secretary-Treasurer of the American 
Association of State Highway and Transportation Officials (AASHTO). 
Today, it is my honor to testify on behalf of the great state of Utah 
and AASHTO, which represents the state departments of transportation 
(State DOTs) of all 50 states, Washington, D.C., and Puerto Rico.
    I first joined UDOT as a registered professional engineer and a 
geologist. Prior to my appointment almost four years ago as the 
Executive Director, I served as the Deputy Director for twelve years 
with previous experience as Region Director, Major Project Manager, 
Chief Geotechnical Engineer and Chief Value Engineer. In addition to 
serving as AASHTO's Secretary-Treasurer, I am also the Chairman of the 
AASHTO Subcommittee on Design and the Chair of the Technical Working 
Group of the AASHTO Center for Environmental Excellence. I am also the 
current Vice Chair of the Intelligent Transportation Society of 
America.
    My testimony today will emphasize five main points:

  <bullet> Ensuring a strong Federal role and investment in surface 
        transportation;

  <bullet> Critical importance of program funding, relative to 
        financing, for rural areas;

  <bullet> Opportunities to further cut the red tape in legislative and 
        regulatory process;

  <bullet> States' visible and important role in providing passenger 
        rail service; and,

  <bullet> Preparing for and harnessing significant technological 
        advancements.
Ensuring a Strong Federal Role and Investment in Surface Transportation
    Throughout the history of our country, transportation has played an 
integral role in the success of our economy. States have done an 
admirable job of addressing transportation within their boundaries, but 
there is clearly a need for a cohesive national transportation system. 
Take for instance, AdvancePierre Food Services, whose plant in Oklahoma 
ships throughout the country to other plants and retailers. Their 
success would not be possible without an effective interstate 
transportation system. While AdvancePierre's plants may be in Oklahoma 
and other states throughout the country, Utah's transportation system 
needs to be able to support businesses such as this; nearly a quarter 
of the traffic on Utah's interstate system is commercial freight 
vehicles, carrying goods like AdancePierre's food products to Utah and 
through it. Just as AdvancePierre depends on a reliable, effective, 
well-maintained, and safe transportation system in Utah, the businesses 
located in Utah also rely on effective national transportation system 
to move its products across this country and around the world.
    This is just one example of how our entire nation--including 
residents and businesses of major metropolitan areas and rural areas 
alike--is well-served by a strong Federal investment that improves 
surface transportation infrastructure in and across a large, Western 
states like ours. It drives home the point that our Nation's 
transportation system is one of the key foundational elements necessary 
to ensure the economic vitality of our country.
    The state departments of transportations (DOTs) have the utmost 
appreciation for your Committee's leadership, along with your Senate 
and House members in partner committees to shepherd the Fixing 
America's Surface Transportation (FAST) Act in December 2015. This 
legislation ensures stability in the federally supported passenger 
rail, freight, safety, highway, and transit programs through 2020. 
While the five years authorized under the FAST Act has given us a 
temporary reprieve--thanks to over $140 billion of General Fund 
transfers since 2008--from recurring deep cuts in obligations due to 
the $15 billion annual gap between Highway Trust Fund receipts and 
outlays, the case for maintaining a strong Federal role and investment 
in transportation remains as important as ever.
    For over one hundred years, we as a nation, have enjoyed the fruits 
of the Federal Government's highly successful partnership with state 
DOTs to build and maintain our surface transportation system. From the 
Federal-aid Road Act of 1916 establishing the foundation of a 
federally-funded, state-administered highway program that has been 
well-suited to a growing and geographically diverse nation like ours, 
Federal investment in all modes of transportation have allowed states 
and their local partners to fund a wide range of projects that serve 
the interest of the Nation as a whole. The Federal surface 
transportation program's inherent flexibility defers project selection 
and investment decision-making to state and local governments based on 
extensive public input from local communities and businesses to address 
their needs and ensure goods get access to a larger market than ever 
before.
    Based on the Federal surface transportation program's track record 
of success, we recommend if you and the President deliver a significant 
infrastructure package in the coming months, any increase in Federal 
funds should flow through the existing program structure rather than 
expending scarce time and energy on untested new approaches. We are 
well-prepared to work with Congress to take advantage of our strong, 
productive partnerships with local governments to deliver on a major 
infrastructure initiative.
Critical Importance of Program Funding, Relative to Financing, for 
        Rural Areas
    As I noted, the Federal surface transportation program supports 
communities located in urban, suburban, and rural areas across our 
Nation. In rural areas, the transportation network specifically:

  <bullet> Serves as a safe and reliable route for truck and personal 
        traffic between other states and between major metropolitan 
        areas, advancing interstate commerce and mobility;

  <bullet> Serves the Nation's agriculture, ethanol production, energy 
        extraction, and wind power industries, which are located 
        largely in rural areas;

  <bullet> Provides access to scenic wonders like Arches, Bryce Canyon, 
        and Zion National Parks in Utah, and many other great national 
        parks, monuments, and forests located in rural states;

  <bullet> Is a lifeline for remotely located and economically 
        challenged citizens, such as those living on tribal 
        reservations;

  <bullet> Enables people and business to access and traverse vast 
        tracts of federally-owned land, and;

  <bullet> Facilitates military readiness.

    States with the greatest land area tend to be in the west. To 
illustrate distance, a driver traveling from Washington, D.C., to 
Boston, Massachusetts, could drive the same distance in Utah or Nevada 
and still be in the same state. Additionally, many western states are 
some of the most highly urbanized states in the nation, in fact five of 
the ten most urbanized states are in the west. In Utah, nine out of ten 
residents live in urban areas. Many other western states share those 
same characteristics with highly urbanized populations and large, 
sparsely populated rural areas in between. A strong national 
transportation network connects these urbanized areas across vast 
distances, ensuring that all communities in the United States have 
access to a safe and efficient transportation system.
    We recognize that investment dynamics for rural areas differ 
significantly and fundamentally due to vast distances, sparse 
population density, lower volume of traffic, and a large proportion of 
Federal lands, in Utah, 65 percent of our land is owned by the Federal 
Government. Under these circumstances, direct Federal funding and 
grants based on formula apportionments can best meet the mobility and 
quality-of-life needs not only throughout the West, but also in rural 
communities elsewhere in the country. And if our rural communities 
thrive, our country as a whole thrives.
    This means that financing tools that leverage existing revenue 
streams--such as user fees and taxes--are typically not viable, as the 
sole tool, in rural areas at the project level. We in Utah, and many of 
our state DOT peers, certainly appreciate the ability to access capital 
markets to help speed up the delivery of much-needed transportation 
improvements. But we also recognize the inherent limitations of 
financing; the vast spectrum of publicly-valuable transportation 
projects that nevertheless cannot generate a sufficient revenue stream 
through tolls, fares, or availability payments to service debt or 
provide return on investment to equity holders.
    The state DOTs continue to support a role for financing and 
procurement tools such as public-private partnerships (P3s) given their 
ability to not only leverage scarce dollars, but to also better 
optimize project risks between public and private sector partners best 
suited to handle them. There are limited means to monetize non-revenue 
producing assets, like what Connecticut has done through its long-term 
rest area concession. But we maintain that financing instruments in the 
form of subsidized loans like TIFIA, tax-exempt municipal and private 
activity bonds, infrastructure banks, and tax code incentives are 
simply not enough to meet most transportation infrastructure investment 
needs.
Opportunities to Further Cut the Red Tape in Legislative and Regulatory 
        Process and Requirements
    After decades of adding layers upon layers of legislative and 
regulatory oversight for transportation, thanks to your leadership, 
both the FAST Act and the Moving America for Progress in the 21st 
Century Act (MAP-21) have instituted major programmatic and policy 
reforms. However, there exists still further opportunity to improve the 
efficiency and effectiveness of transportation programs and project 
delivery while remaining responsible stewards of both human and natural 
environments.
    First, Congress should encourage the USDOT to implement provisions 
in both MAP-21 and FAST Act to remain consistent with congressional 
intent. A recent example of a problematic USDOT regulatory action is 
the onerous and unanticipated requirement regarding metropolitan 
planning organization (MPO) coordination. Although state DOTs and MPOs 
already exemplify the kinds of coordination sought, the new regulation 
is anticipated to impose costly requirements with no benefits. In 
addition, AASHTO supports implementing statutorily authorized 
performance management frameworks for highway safety, bridge and 
pavement, system performance, and freight before further measures are 
considered and added. Several years ago, I led an international 
delegation of U.S. experts where we visited with six national and 
regional governments that were considered advanced in the area of 
performance measures and management. One of the universal key takeaways 
was that fewer, high-level measures were more effective to move the 
transportation vision toward accomplishing the goals of the national or 
regional governments.
    Second, to build on the successful policy reforms in MAP-21 and 
FAST Act based on bipartisan support, AASHTO asks for the opportunity 
to continue improving the project delivery process. California, 
Florida, Ohio, Texas, and--as of the beginning of this year--my state 
of Utah are participating in the National Environmental Policy Act 
(NEPA) assignment program made available to all states in MAP-21. Based 
on our collective experience, some specific changes that will make this 
program increasingly efficient and more attractive to the states 
include simplifying the assignment application and audit process, 
allowing states to assume all of the responsibilities of USDOT with 
respect to engineering and other activities related to environmental 
review, consultation, permitting or other action required under any 
Federal environmental law for project review or approval, and allowing 
states in this program to be solely responsible for the development of 
their policies, guidance and procedures so long as Federal laws and 
USDOT requirements and guidance are met. Other expediting measures 
include decoupling fiscal constraint requirements from NEPA approval to 
allow construction-ready projects to proceed through environmental 
reviews and progress as money becomes available; ensuring that the 
statutory authority provided to adopt planning decisions in the NEPA 
process includes all of the flexibility previously provided in the 
planning regulations; and providing flexibility in developing project 
review project schedules and programmatic categorical exclusion 
agreements.
    Beyond NEPA, many opportunities exist to streamline project 
delivery through updates to the Endangered Species Act, Section 4(f) 
reviews for historic sites, the Land and Water Conservation Fund Act, 
and transportation air quality conformity under the Clean Air Act. 
AASHTO is happy to work with you to provide specific recommendations 
for improvement in any of these areas. We also look forward to 
continued collaboration with USDOT's Build America Bureau. This would 
build upon our robust existing partnership through AASHTO's Center for 
Excellence in Project Finance by closely engaging with the Bureau's 
Federal Infrastructure Permitting Dashboard that was created under your 
leadership in the FAST Act.
    Finally, to build on the current flexibility in the Federal-aid 
Highway program, Congress should consider authorizing a ``Consolidated 
Funding'' pilot program. This pilot program would build on the program 
consolidation efforts made in MAP-21 by treating all core funding 
provided to a State DOT under the National Highway Performance Program, 
Surface Transportation Program, and Highway Safety Improvement Program 
as a single, consolidated apportionment. States would only be eligible 
to participate in the program once they had an established performance 
management system that demonstrates a system of metrics and performance 
measures that assist and guide the state in the decision-making process 
to Federal program funding received through the pilot program. Under 
such a pilot program, suballocations to MPOs and other local government 
entities can remain unaffected. Utah is ready to step forward to pilot 
such a program and I am convinced that we will be able to demonstrate 
that we will be able to better meet both the transportation goals of 
this country and those of Utah, by allowing states to use the money on 
``right activity at the right time''. I also believe that it would 
allow for increased transparency, so the public can see a better 
connection between their investment and outcomes achieved. I encourage 
Congress to seek additional opportunities to continue moving the 
Federal highway and safety programs toward performance and outcome-
based programs that emphasize results rather than adherence to 
``process.''
    At the same time, I encourage Congress to restore state flexibility 
to allow limited use of Highway Safety Improvement funds to address 
driver behavior programs that improve roadway safety and help us 
achieve our shared goal Toward Zero Deaths. State DOTs engineer roads 
to be as safe as possible, and that includes providing drivers with a 
margin of error; when they make a mistake, the roadway must give them 
an opportunity to recover. However, national studies demonstrate that 
the critical cause for crashes is attributable to driver behavior in 94 
percent of crashes. While it's important that we continue to engineer 
and construct roads to be safer, states should also have some program 
flexibility to work with our safety partners to educate drivers on the 
most deadly driver behaviors.
States' Visible and Important Role in Providing Passenger Rail Service
    The state DOTs commend your leadership in consolidating the 
passenger rail title as part of the FAST Act, making this legislation a 
true surface transportation bill. Your action enables many states to 
further invest in modern passenger rail services that provide the 
traveling public with more transportation choices and relieve highway 
and airport congestion in a safe, environmentally responsible way.
    Under Section 209 of the Passenger Rail Investment and Improvement 
Act (PRIIA), a state-supported routes program now includes 18 states 
and other entities under 19 operating agreements for financial support 
of 26 short-distance routes defined as those less than 750 miles. To 
protect the taxpayer's investment in passenger rail and ensure high-
quality and on-time train service, states have diligently implemented 
the PRIIA requirement to negotiate stakeholder agreements before 
Federal funding could be released. Performance-based and quantifiable 
measures such as trip times, reliability and the frequency of service 
are included in these agreements. Because much of the passenger service 
in the United States rides on rails owned by private railroads, the 
rights of these stakeholders to continue to maintain and improve their 
own service have been incorporated into these agreements.
    In FY 2015, states' partnership with Amtrak, the Federal Railroad 
Administration (FRA), and host railroads have resulted 14.7 million 
passenger trips, with five corridors topping at more than a million 
trips. A specific example of improvements in passenger rail travel 
under this program can be seen in increasing maximum train speeds up to 
110 mph wherever possible on the Chicago-Detroit and Chicago-St. Louis 
corridors, as supported by the Illinois and Michigan DOTs. As 
additional track and signal work is completed, more segments will 
experience speed increases resulting in trip time reductions of nearly 
an hour on both corridors.
    Some obstacles remain to ensure effective support for intercity 
passenger rail between states. The FRA's System Safety Program (SSP) 
needs to be revised to disallow service sponsors from being classified 
as railroads. This is due to the fact that service sponsors are 
planning entities and thus are not organized, nor staffed, with 
railroad-qualified personnel needed to fulfill requirements of the SSP 
rule. The state DOTs believe that service sponsors do not have the 
legal authority to compel host railroads, nor Amtrak, to comply with 
the SSP rule and designating service sponsors as railroads exposes 
service sponsors to other, broader railroad operating requirements for 
which public agencies are ill-equipped. We believe determining service 
sponsors as railroads is not based on sound data nor will it in any 
meaningful way improve safety.
Preparing For and Harnessing Significant Technological Advancements
    I believe that we are at an inflection point in Transportation that 
is as significant as when the engine was merged with the horse and 
buggy, today it's the merger of technology with the car and truck as we 
know it. This will change the way we move goods, services and people on 
our roads and highways. In the future, I view data as the new asset 
that will dramatically enhance public safety, save lives on our 
roadways, improve mobility, enhance program and operational efficiency, 
and create jobs. It is important now more than ever, that we maintain 
relationships from local, state and Federal levels to ensure our 
transportation system is not a bottleneck of continued innovation.
    Governments will need to build, redesign, and adapt roads, 
highways, and bridges to the autonomous and connected vehicle. 
Traditional investments include providing better lighting, consistent 
roadway design, better signage; these investments are especially needed 
on rural roads. Spectrum for vehicle-to-infrastructure systems using 
Dedicated Short Range Communications needs to be preserved, and rural 
broadband expanded. The National Highway Traffic Safety Administration 
also must move forward with industry on the proposal to establish a 
Federal Motor Vehicle Safety Standard for vehicle-to-vehicle 
communications (V2V). Cooperative V2V and vehicle-to-infrastructure 
(V2I) safety systems are needed to support fully automated vehicles, 
supported by robust research and deployment. Institutional capacity and 
workforce skills will need to be upgraded to operate, maintain and 
secure new smart roads and intelligent vehicles.
    Promising potential abounds when it comes to the use of drones, or 
Unmanned Aerial Vehicles (UAVs). As of this past year, AASHTO 
identified 17 state DOTs conducting research regarding the use of UAVs. 
The aircraft have assisted state DOTs with bridge inspections, accident 
clearance, surveying and identifying, monitoring and mitigating risks 
posed by landslides, rockslides and flooding.
    State DOTs strongly believe that the overall benefits will be seen 
with autonomous vehicles that are also connected with other vehicles 
and the infrastructure on which they operate. AASHTO is a founding 
member of the V2I Deployment Coalition, on which I also serve, along 
with the Institute of Transportation Engineers and the Intelligent 
Transportation Society of America, and various transportation industry 
representatives. This began as a concept to create a single point of 
reference for stakeholders to meet, discuss and collaborate on V2I 
deployment related matters. And several states have already taken the 
initiative to develop policies to accelerate convergence of connected 
and autonomous vehicles and define industry interactions for full 
deployment.
    For example, in Utah, the state legislature adopted HB 373 allowing 
UDOT to conduct a connected vehicle technology testing program on its 
roadways. We partnered with Peloton Technology to test a system which 
facilitates platooning of two-tractor-trailer rigs on a stretch of I-
80. Both drivers continue to steer the trucks but an automated system 
controls acceleration, responds instantly to changes in speed of the 
front truck located 50 feet ahead, and respond to road hazards up to 
800 feet away. The efficiency of air flow results in a savings of about 
five percent for the front truck and ten percent for the rear truck. 
States such as Florida, Michigan and Nevada have taken the initiative 
of policy changes and the state level, coupled with new guidance and 
standards at the national level, to effectively prepare for 
technological advancements that will provide a greater overall public 
value in the future.
    Another area that has seen rapid gains is the use of ``big data,'' 
which refer to volume (large amounts of data), variety (different data 
being combined), and velocity (the speed at which new data is being 
produced and added to the analysis), used to analyzed computationally 
to reveal patterns, trends, and associations, especially relating to 
traffic patterns, human behavior, and interactions. A great example can 
be seen in 17 states--including Utah--partnering with the Waze, a 
popular driving app. Under its Connected Citizens Program, there has 
been increased and ongoing partnership between Waze and various 
governmental agencies to share publicly-available incident and road 
closure data to facilitate smoother movement of vehicles and people.
    An important component to advance roadway technology is the ability 
to create a digital highway with fiber optics to make our roads smarter 
and safer, benefiting surrounding communities, including underserved 
rural areas. In Utah, we believe this is best accomplished through P3s 
and streamlining Federal regulations that provide maximum flexibility 
to states, which have enabled Utah to successfully support expansion of 
service provider networks. The property value of linear highway 
corridors is a major incentive enabling P3s. These partnerships began 
in the late 1990s when a change in Federal law allowed the states to 
accommodate longitudinal access of telecommunications facilities within 
interstate rights-of-way under certain conditions. Utah changed our 
state law to allow companies to lease or barter in-kind for this 
access. These successful P3s have enabled us to significantly expand 
highway operations over large, remote expanses of the state as well as 
enabling private providers to expand their service in both urban and 
rural areas. The Utah DOT deploys conduit and fiber with every road 
project that makes sense and coordinates road projects with any 
telecommunication company that wants to partner. Through these 
partnerships Utah has realized over 2,500 combined private and public 
miles of fiber, conduit and circuit, with a total value of almost $75 
million to the public.
    Federal policies need to support P3s such as these by carefully 
considering the uniqueness of each partnership. The ability to be 
flexible is what makes these partnerships possible. Rigid regulations 
or mandates can remove the very flexibility that is needed, 
complicating implementation and adding unnecessary additional system 
costs.
Conclusion
    State DOTs are absolutely committed to meeting the transportation 
needs of rural America and the policies required to help move people, 
goods, and information safely and efficiently across the United States. 
This week, literally as I speak, hundreds of state DOT leaders from all 
corners of our country are just a couple of blocks away attending 
AASHTO's 2017 Washington Briefing. Over the next couple of days, most 
of them will be on the Hill meeting with their Congressional 
delegations advocating for the reaffirmation of a strong federal-state 
partnership to address our surface transportation investment needs.
    I want to thank you again for the opportunity to testify today, and 
I am happy to answer any questions that you may have.

    The Chairman. Thank you, Mr. Braceras.
    Ms. Bloomfield.

STATEMENT OF SHIRLEY BLOOMFIELD, CHIEF EXECUTIVE OFFICER, NTCA-
                THE RURAL BROADBAND ASSOCIATION

    Ms. Bloomfield. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, I am really delighted to be here 
today to share some thoughts with you. I'm Shirley Bloomfield, 
the CEO of NTCA-The Rural Broadband Association.
    We represent about 850 small rural businesses that are 
deploying infrastructure to provide broadband and other 
services in 46 states.
    Today, rural America really continues to be a fertile 
ground for innovation, and the deployment of broadband in so 
many ways has equaled what roads and bridges had meant in the 
past. So it is really the 21st century superhighway.
    These small broadband providers are leaders in deploying 
networks and enabling innovative communications services, but 
for all of the progress that has been made to date in deploying 
rural infrastructure, there is still a lot of work to be done. 
Even where infrastructure is in place today, we've got to 
sustain these networks to keep pace with consumer demand and 
deliver affordable services.
    It's also really important to remember what infrastructure 
actually enables. In 2016, the Hudson Institute, along with the 
Foundation for Rural Service, released a report that examined 
the economic benefits of broadband deployment. The report 
determined that investments in ongoing operations of small 
rural broadband providers, like NTCA members, contribute $21 
billion to $24 billion annually to the Nation's gross domestic 
product, with 66 percent of that benefit actually accruing to 
urban America.
    The report also found that rural broadband investment is a 
driver of economic growth, estimating that nearly 70,000 jobs 
are directly attributable to economic activity of these small 
rural broadband providers with about 54 percent of those jobs 
actually being in urban areas where some of the suppliers and 
vendors to these carriers actually reside.
    And we can see the payback of rural broadband 
infrastructure investment in the economic and other activities 
that such networks enable. We have an initiative at NTCA called 
the Smart Rural Community, where we really highlight working 
with communities that enable telemedicine, public safety, 
distance learning, teleworking, all of these applications that 
are essential to job creation and economic growth in rural 
America.
    Recognizing the benefits that flow from broadband 
infrastructure, the current administration did include 
telecommunications within the initial list of infrastructure 
priorities even prior to taking office.
    Over 100 Members of Congress have concurred in a recent 
letter urging the President to include broadband within any 
wider infrastructure initiative. NTCA applauds that consensus 
already achieved on making sure that broadband is part of that 
priority and welcomes the chance to provide thoughts on how to 
tackle this further.
    It may help to outline a few key objectives to consider in 
any broadband infrastructure initiative.
    First, a plan should account for, if not leverage, efforts 
that are already underway to promote and sustain broadband 
investments.
    Second, accountability should be demanded of those who 
receive resources through such a plan, and proven track records 
of success should actually matter.
    Third, any plan must be carefully designed and sufficiently 
sized to tackle the challenges presented. Programs should aim 
to get broadband where it is not and to sustain it where it 
already is. And plans should also need to be backed up with 
sufficient resources to actually get the job done.
    Fourth, we should look to get the best return on 
investments on infrastructure. Putting resources toward 
infrastructure that won't stand the test of time may turn out 
to be frankly a waste of resources and ultimately leave rural 
America behind.
    Fifth, a comprehensive approach to promoting broadband 
infrastructure investment must tackle deployment barriers.
    So against this backdrop, NTCA makes the following 
recommendations: Rather than reinventing the wheel, one 
promising course of action could be to leverage and to 
supplement the existing universal service program that we have 
in the High Cost arena, which is within the FCC's oversight and 
can help justify greater broadband investment.
    The FCC's USF program represents a very logical focal point 
for renewed broadband infrastructure initiative. The FCC is the 
Nation's expert agency in telecom policy and is already 
tackling broadband challenges with respect to availability and 
to affordability. Recent USF reforms adopted by the FCC 
reorient the program toward broadband, ensure funding is 
targeted to where it is most needed, and define an efficient 
level of support in each area. The reform program rules also 
compel so much accountability, they actually include reporting 
literally on a location-by-location basis.
    Particularly given USF budgets that are woefully 
underfunded, resulting in slower speeds and higher prices for 
far too many rural broadband consumers and businesses, we have 
a real opportunity to make sure that the FCC's programs can 
actually achieve their goals, as designed. And the good part of 
these programs is that they're already in place so they can hit 
the ground running without the need to start up a new program 
from scratch.
    Of course, alternative new capital infusion or tax 
incentive programs could also play a role, but all these other 
things, like capital infusion, must still be coordinated with 
the FCC's efforts. And, frankly, tax incentives may not move 
the needle significantly on investments in areas that are 
already uneconomic.
    Finally, the elimination of regulatory hurdles must be a 
critical component of any infrastructure initiative. In South 
Dakota alone, for example, the Forest Service permitting 
holdups delayed completion of a multimillion dollar fiber 
investment for more than a year.
    Efforts are already underway to address a lot of these 
concerns. For example, the MOBILE NOW legislation introduced by 
the Chairman and Ranking Member Nelson highlight the 
significance of streamlined broadband deployment.
    Similarly, the FCC Chairman, Chairman Pai, has a digital 
empowerment agenda, which contains really thoughtful 
suggestions on how to make it easier to build, maintain, and 
upgrade networks. Chairman Pai's recent announcement of a 
Broadband Deployment Advisory Committee also represents a 
really sensible roll-up-your-sleeves approach and a step toward 
action.
    So continued progress toward implementation, these ideas 
and policies, has to be seen as an essential component of a 
comprehensive broadband infrastructure initiative.
    In conclusion, small broadband innovators have made great 
progress and are really eager to continue deploying 
infrastructure and delivering these critical services to rural 
America, and, frankly, all of America needs to participate in 
this global economy.
    So the ability to recover the initial and ongoing costs of 
sustaining that infrastructure in High Cost rural areas is 
critical to this session--to this mission.
    So thank you for the opportunity to testify. We really look 
forward to working with you on a comprehensive infrastructure 
strategy that will achieve our Nation's shared broadband goals.
    Thank you.
    [The prepared statement of Ms. Bloomfield follows:]

  Prepared Statement of Shirley Bloomfield, Chief Executive Officer, 
                  NTCA-The Rural Broadband Association
Introduction
    Chairman Thune, Ranking Member Nelson, members of the Committee, 
good morning and thank you for the invitation to participate in today's 
hearing focused on infrastructure.
    I am Shirley Bloomfield, Chief Executive Officer of NTCA-The Rural 
Broadband Association (``NTCA''). NTCA represents approximately 850 
rural small businesses deploying broadband infrastructure in 46 states. 
All NTCA members are fixed voice and broadband providers, and many of 
our members also provide mobile, video, satellite and other 
communications-related services to their communities. The small telcos 
like those in NTCA's membership serve less than five percent of the 
population of the United States, but cover approximately 37 percent of 
its landmass. These companies operate in rural areas left behind by 
other service providers because the markets were too sparsely 
populated, too high cost, or just too difficult in terms of terrain.
    These small broadband providers have been leaders in deploying 
advanced communications infrastructure that responds to consumer and 
business demands and connects rural America with the rest of the world. 
For rural America, such infrastructure enables economic development and 
job creation not only in agriculture, but for any other industry or 
enterprise that requires robust connections to operate in the modern 
world. But, for all their progress to date, the job of deploying and 
operating this critical infrastructure is not done, as operators still 
face the challenges of sustaining and upgrading existing networks to 
keep pace with consumer demand, delivering affordable services, and 
extending these networks into parts of rural America still lacking 
access.
    Before turning to what policies could help promote the deployment 
and sustainability of broadband infrastructure in rural America, it is 
important to understand what benefits accrue to both rural and urban 
America when every American has reasonably comparable access to high-
quality communications services at affordable rates.
Rural Broadband Investment in Action: Economic Development and Job 
        Creation
    Small, hometown broadband providers have led and are continuing to 
lead the way in deploying high-speed, sustainable broadband that 
responds to the needs of consumers and businesses in rural America. The 
broadband infrastructure they deploy enables applications that rural 
and urban communities can leverage for education, commerce, health care 
and government services. Broadband-capable networks facilitate greater 
interconnection of community resources and enable greater participation 
in the national and global economy.
    To not have access to high-speed Internet today should be 
unimaginable, yet millions of rural Americans have limited or even no 
access to robust broadband. And while it is critical to deliver 
broadband to the unserved, it is just as critical that those already 
receiving broadband remain served. There are many places in rural 
America where networks have been built by committed companies like 
those in NTCA's membership, but the sustainability of that 
infrastructure and the affordability of services remain in question. In 
many parts of rural America, the challenges of distance and density are 
so great that they cannot sustain even one broadband network. Section 
254 of the Communications Act therefore rightly recognizes that our 
national policy is not merely about deploying infrastructure, but also 
ensuring that such infrastructure, once deployed, means something for 
the consumer--that is, ``reasonably comparable'' services at 
``reasonably comparable'' rates for urban and rural consumers alike. If 
a network is built but then becomes unsustainable, or if the services 
offered over it are unaffordable or unreliable or cannot keep pace with 
increasing consumer demand, then these outcomes deny rural Americans 
the benefits of broadband and represent a terrible waste of the 
resources that help to make broadband infrastructure available in the 
first instance.
    In April 2016, the Hudson Institute, in conjunction with the 
Foundation for Rural Service (FRS), released a report examining the 
economic benefits of rural broadband infrastructure.\1\ This report 
determined that the investments and ongoing operations of small rural 
broadband providers contribute $24.1 billion annually to the Nation's 
gross domestic product, with 66 percent ($15.9 billion) of that amount 
accruing to the benefit of urban areas.\2\ The report also found that 
rural broadband investment is an important driver of job growth, 
estimating that 69,595 jobs--54 percent of which are with vendors and 
suppliers in urban areas--can be attributed directly to economic 
activity of small rural broadband providers.\3\ These findings confirm 
that investment in rural broadband infrastructure yields returns that 
reach far beyond the confines of rural America.
---------------------------------------------------------------------------
    \1\ The Hudson Institute, ``The Economic Impact of Rural 
Broadband,'' April 2016, (``Hudson Paper''). https://s3.amazonaws.com/
media.hudson.org/files/publications/20160419KuttnerThe
EconomicImpactofRuralBroadband.pdf.
    \2\ Id., pp. 13-14.
    \3\ Id., p. 13.
---------------------------------------------------------------------------
    Finally, the study found that rural broadband supported over $100 
billion in e-commerce in 2015. Nearly $10 billion of that total 
involved retail sales, and Hudson estimates that if the broadband 
deployment in rural areas was equivalent to that in urban areas, sales 
would have been at least $1 billion higher.\4\ Such data underscore 
that not only is the widespread availability of robust affordable 
broadband important for our national economy, but the direct act of 
investing in and operating broadband infrastructure is itself a 
substantial economic driver.
---------------------------------------------------------------------------
    \4\ Id., pp. 19-20.
---------------------------------------------------------------------------
    But, there are also jobs beyond the telecom technicians, engineers, 
materials suppliers, and manufacturers that are supported by rural 
broadband infrastructure. In Sioux Center, Iowa, a major window 
manufacturer built a 260,000 square-foot plant to employ 200 people. 
The company considered more than 50 locations throughout the Midwest, 
but selected Sioux Center in part because the rural broadband provider 
enabled this plant to connect with its other locations throughout the 
U.S. using a sophisticated ``dual entrance'' system that could route 
traffic to alternate paths, ensuring that the main headquarters 250 
miles away and other facilities would remain connected. In Cloverdale, 
Indiana, a rural broadband provider met with developers and helped 
bring an industrial park to its service area. Powered by this 
provider's broadband, the facility brought more than 800 jobs to the 
area. These stories are repeated throughout NTCA member service areas, 
giving rise to the concept of the Smart Rural Community.
Rural Broadband Collaboration in Action: Smart Rural Community
    Moving beyond the economic data and looking at actual applications 
in the field, it is clear that broadband enables and fosters innovative 
economic development, commerce, health care, education, and other 
activities and capabilities that contribute to the success and well-
being of communities.
    Many of these achievements in leveraging broadband infrastructure 
for the benefits of communities have been highlighted in NTCA's Smart 
Rural Community program. This initiative recognizes top-performing 
broadband providers in rural areas, as well as sponsoring on-going 
educational events and providing matching fund ``micro-grants'' to 
stimulate collaboration among broadband providers and other community 
leaders. The premise of this program is that a smart rural community 
relies both on high-capacity broadband infrastructure and on teams of 
highly motivated and collaborative leaders--the people behind the 
technology--to make the best possible, most productive uses of that 
infrastructure. This in turn helps with the sustainability of the 
networks once built, as well as driving greater demand for broadband as 
others see the potential applications and uses in practice.
    NTCA's Smart Rural Community companies have deployed connected 
health carts in public schools whose students are challenged by 
persistent poverty; worked with local electric utilities to enable two-
way meter reading, power outage data, and voltage alerts; worked with 
U.S. border control officials to support critical security functions 
along our Nation's southern border; and enabled local firefighters to 
view reported fires and locate nearby hydrants before firefighting 
teams arrive. Our Smart Rural Community grant program has brought local 
broadband operators together with hospice facilities and public school 
districts to create broadband-enabled solutions aimed at supporting the 
needs of the elderly and our aspiring youth, for whom access to 
increased educational and entrepreneurial opportunities can only yield 
benefits for the Nation. The Smart Rural Community therefore helps to 
highlight how the ``rubber meets the road''--what the availability and 
sustainability of broadband infrastructure can mean for consumers, 
businesses, and communities in rural areas.
    In a North Dakota community of 10,000 spread across an area of 
nearly 4,000 square miles, a rural broadband provider helped a small 
college become the first ``laptop university'' in the United States, 
providing a fiber backbone to support a campus-wide Wi-Fi network that 
enables portable laptop usage by all students. In Milltown, Wisconsin, 
an NTCA member serving six villages, 15 townships, and a Native 
American Reservation community connected six hospitals across two 
states to enable telemedicine services, including the ability to share 
critical diagnostic files with a major medical center for life-saving 
decisions when specialists are not available in the rural areas.
A Holistic Approach to Broadband Infrastructure
    Broadband forms the foundation of these advancements in education, 
health care, and economic development. The critical role of this 
communications infrastructure is as necessary to these regions present 
and future needs as is electricity and other infrastructure that 
enables the ordinary course of a thriving society. The current 
administration has expressly recognized the importance of advanced 
communications networks, having included ``telecommunications'' within 
an initial list of infrastructure priorities even prior to taking 
office. The need to advance broadband infrastructure has also been 
expressly noted by over 100 members of Congress in a recent letter to 
the President urging him to include broadband within any broader 
infrastructure initiative. NTCA therefore applauds the apparent 
consensus already achieved with respect to making broadband an 
infrastructure priority, and welcomes the chance to participate in a 
further discussion on how best to tackle this priority.
    Before turning to specific thoughts on paths forward, it may make 
sense first to outline a few key objectives for consideration with 
respect to any broadband infrastructure plan:

  <bullet> First, the plan should at least account for, if not 
        specifically leverage, what is already in place and has worked 
        before. Creating new programs from scratch is not easy, and if 
        a new broadband infrastructure initiative conflicts with 
        existing efforts, that could undermine our Nation's shared 
        broadband deployment goals.

  <bullet> Second, there should be meaningful expectations of those who 
        leverage any resources made available through such an 
        initiative. Looking to providers with proven track records in 
        delivering real results makes the most sense, but whomever 
        receives any support should be required to show with 
        specificity that they used those resources to deliver better, 
        more affordable broadband that will satisfy consumer demand 
        over the life of the network in question.

  <bullet> Third, any broadband infrastructure plan needs to be 
        carefully designed and sufficiently supported to tackle the 
        challenges presented. This is a question of both program focus 
        and program scope.

    <ctr-circle> From a focus perspective, any infrastructure plan 
            should aim toward getting broadband where it is not and 
            also sustaining it where it already is; deployment of 
            duplicative infrastructure in rural areas that are 
            uneconomic--and may not even support on their own a single 
            network--will undermine the sustainability of existing 
            network assets.

    <ctr-circle> From a scope perspective, deploying and sustaining 
            rural broadband is neither cheap nor easy; we obviously 
            need to recognize that finite resources are available to 
            address any number of priorities, but any plan that calls 
            for broadband deployment--especially in high-cost rural 
            America--should match resources to the size of the problem 
            to be solved.

  <bullet> Fourth, any resources provided as part of an infrastructure 
        plan should look to get the best return on such long-term 
        investments. For networks with useful lives measured in 
        decades, this should mean the deployment of infrastructure 
        capable of meeting consumer demands not only today and 
        tomorrow, but for ten or twenty years. Putting resources toward 
        infrastructure that needs to be substantially rebuilt in only a 
        few years' time could turn out to be resources wasted--and risk 
        leaving rural America behind.

  <bullet> Fifth, while the economics of deployment are an essential 
        component of any infrastructure plan, a comprehensive approach 
        to promoting deployment is required. Barriers or impediments to 
        broadband deployment must also be addressed as part of any 
        holistic plan to promote and sustain infrastructure investment. 
        Put another way, the best-funded, best-planned networks may 
        never deliver fully on their promise if they are caught in 
        regulatory red tape and needless delay.

    Any potential path forward with respect to broadband infrastructure 
policy should be evaluated against such criteria. As one example of a 
policy with promise, and as NTCA first outlined in a December 2016 
letter to the National Governors Association when that group was 
evaluating infrastructure priorities in collaboration with the 
Presidential transition team, strong consideration should be given to 
leveraging and supplementing the existing high-cost Federal Universal 
Service Fund (``USF'') programs under the oversight of the Federal 
Communications Commission (the ``FCC'') as a primary means of 
implementing a broadband infrastructure initiative. The USF programs 
have been in place for years, and the FCC has recently reoriented them 
under a ``Connect America Fund'' (``CAF'') banner to promote broadband 
in high-cost rural areas. The high-cost USF/CAF programs are essential 
both in justifying the business case for broadband infrastructure 
investment in the first instance, and then in keeping rates for 
services affordable atop the networks once they are built.
    Unfortunately, these programs are also woefully underfunded to 
achieve their goals as designed, relegating tens of thousands of rural 
Americans to lesser broadband than their urban counterparts (or no 
broadband at all), and leaving millions of other rural Americans paying 
tens or even hundreds of dollars more per month than their urban 
counterparts do for the same broadband services. Such impacts undermine 
the benefit of building rural broadband infrastructure in the first 
instance, as well as hindering the value of broadband as a component of 
a broader economic development strategy. They put at serious risk the 
very ability of our Nation to achieve the universal service mission 
articulated by Congress in Section 254 for millions of rural consumers 
and businesses--and they will undermine the viability of a broadband 
infrastructure initiative if not addressed upfront.
    Small businesses like those within NTCA's membership have 
previously leveraged a mix of private capital, USF support, and 
entrepreneurial spirit to achieve an unparalleled track record of 
success in advancing rural broadband. NTCA members have made great 
strides in rural infrastructure investment, with our most recent 
broadband survey indicating that: (a) 71 percent of their customers 
already have access to at least 25 Mbps services; and (b) 49 percent of 
their customers already have access to ``future-proof'' fiber-to-the-
home networks. At the same time, despite this initial track record of 
success by these small companies and the USF programs essential to 
their efforts, much more remains to be done. For example, those 29 
percent of customers without access to 25 Mbps and those 51 percent of 
customers without access to fiber networks are almost certainly the 
``toughest to reach.'' And while many rural consumers and businesses 
may be fortunate enough already to have access to broadband 
infrastructure comparable in quality to urban areas, it must not be 
overlooked that the USF programs are equally important in ensuring 
affordable rates for services on those networks.
    The FCC's high-cost USF programs therefore could represent a 
logical focal point for future broadband infrastructure initiatives. 
The FCC is the Nation's expert agency in telecom policy, and it is 
already tackling the broadband challenges described above with respect 
to availability and affordability. Moreover, recent USF reforms adopted 
by the FCC have sought to: (1) reorient the programs toward broadband, 
(2) ensure funding is targeted to where it is needed (i.e., to places 
where the market does not enable service delivery on its own), and (3) 
define what the FCC considers an efficient level of support in each 
area. The reformed program rules now compel significant accountability, 
to the point that support recipients must meet specified deployment 
obligations and literally geocode every new location to which they 
deploy broadband leveraging USF support. The FCC is also working to 
finalize rules that make USF resources in wide swaths of rural America 
available for companies of all kinds--cable companies, traditional 
telcos, wireless Internet Service Providers, and satellite providers--
to leverage in making the business case for rural broadband investment 
and service delivery. Although some implementation efforts remain 
ongoing and some questions remain outstanding, and while some minor 
conforming changes would likely be needed to implement any resources 
available as part of a new broadband infrastructure initiative, it 
would seem more straightforward to coordinate any new initiative as a 
supplement to such existing programs than to stand up an entirely new 
program from scratch and then attempt ``on the back end'' to coordinate 
that new program with ongoing efforts.
    Indeed, as NTCA has recently described in filings at the FCC and 
elsewhere, additional broadband infrastructure resources, if flowed 
through the high-cost USF programs, could achieve immediate and 
compelling effects given significant and troubling current budget 
shortfalls in those programs. For example, providing additional 
resources to allow the FCC's cost models and competitive bidding 
programs to function as designed could yield measurably improved 
delivery of broadband to tens of thousands of additional locations at 
higher speeds, and help deliver service to many more who currently face 
the prospect of no broadband at all. Industry estimates show that 
71,000 more households would be the beneficiaries of better broadband 
infrastructure if the FCC's cost model were funded as designed, while 
47,000 households are currently at risk of receiving no broadband at 
all due to a lack of sufficient support.
    Meanwhile, in other rural areas, additional resources could 
mitigate the fact that millions of rural consumers are still forced to 
pay tens or even hundreds of dollars more per month for standalone 
broadband than their counterparts in urban areas--despite the fact that 
hundreds of Members of Congress wrote to the FCC in 2014 and again in 
2015 expressly asking for this concern to be resolved. Despite recent 
reforms to ostensibly fix this problem, NTCA estimates that due to USF 
controls that require more cost recovery from rural consumers, some 
consumers in Colorado could face rates as high as $300 per month for 
broadband, while some in South Dakota could be facing charges over $275 
per month. From an infrastructure perspective specifically, it is far 
harder to justify future investments in broadband networks when 
consumers face prices such as these and cannot reasonably afford the 
services once delivered. These are concerns common to many rural 
consumers, and they are particularly acute of course in areas with 
significant rural poverty levels and tribal areas.
    The FCC's various high-cost USF programs--the Connect America Fund 
2 initiative and the programs that enable service delivery in rural 
areas served by smaller businesses--therefore offer a ready-made 
platform that, with additional resources but with very little 
additional ``heavy lifting'' or process, could ``hit the ground 
running'' and yield immediate, measurable benefits for rural consumers. 
Other options could include alternative grant or capital infusion 
programs, comparable to what several States have used to address 
``market failure areas''--places where the business case for investment 
is difficult, if not impossible, to make without additional resources. 
At the same time, creating such programs would require more 
administrative effort than leveraging existing programs, and the rules 
for any such new program must still be informed by the objectives I 
first articulated above and any ``lessons learned'' from similar prior 
efforts at the Federal and State levels. For example, as a matter of 
program integrity and to ensure the most efficient possible use of 
resources, it would be necessary to ensure such a capital infusion 
program is accurately targeted to unserved areas rather than enabling 
installation of duplicative infrastructure; in effect, this means that 
any new program would still require substantial coordination with the 
existing USF programs, among other things. And although some have 
alternatively touted tax incentives as offering promise--and while 
there are certainly areas in which such incentives might help--such 
measures are unlikely to make a material impact in most rural areas 
where distance and density make it difficult, if not impossible, to 
justify a business case for infrastructure investment to start.
    Regardless of what path is chosen, one key factor that requires 
further consideration is what sorts of broadband networks any 
infrastructure investment initiative should aim to promote. NTCA 
believes that if one is paying for and building an asset intended to 
last for a few decades, that asset should be built to last a few 
decades. Of course, in a world of finite resources, there is a 
difficult tension between, on the one hand, trying to reach as many 
unserved Americans as possible with networks that may cost less upfront 
and, on the other hand, deploying more sustainable ``future-proof'' 
networks to potentially fewer locations. This is not an easy choice. 
But NTCA submits that deploying a network that may be less expensive 
upfront--but which consumers will find substandard in just a few years' 
time, or will require much more to operate and upgrade over time--makes 
little sense for either the consumers who would use those networks or 
the American ratepayers or taxpayers who would ultimately help support 
them.
    As a more traditional infrastructure analogy that may resonate: if 
one projects that car traffic is doubling every few years on a single-
lane road, one likely does not rebuild the new highway with only two 
lanes and then go back to add two more lanes a few years later and yet 
two more lanes a few years after that. Instead, given the relatively 
high costs of infrastructure deployment and the disruption involved in 
repetitious construction, one builds the highway ``the right way'' the 
first time. The same should be true of our broadband networks. We 
should certainly look for a balanced approach to reach as many 
locations as possible, but not at the societal and economic cost of 
deploying networks that in only a few years' time will look obsolescent 
and inadequate for the users consigned to them. It is therefore 
important that any rules adopted by the FCC to address distribution of 
any supplemental USF resources that may be made available through a 
broadband infrastructure initiative deliver the best, most balanced 
payback for both the American taxpayer and the users of the networks--
both in the near-term and over the life of that infrastructure.
    Finally, even given the significance of sufficient resources to 
ensure reasonably comparable services for rural and urban Americans 
alike, we must not forget the importance of streamlining and/or 
elimination of regulatory hurdles to and burdens upon deployment as 
part of any comprehensive broadband infrastructure initiative. In South 
Dakota, for example, a small rural provider's multimillion-dollar fiber 
deployment requiring Forest Service approval encountered permitting 
holdups delaying completion of the project more than a year. In Utah, 
providers have faced construction delays due to inter-agency permitting 
disagreements between the Bureau of Land Management and the U.S. 
Department of Transportation. Other NTCA members have raised concerns 
about the need for inefficient and repetitive National Environmental 
Policy Act studies. Delays can also be caused by confusion regarding 
control of the rights-of-way for State roads. Meanwhile, increased or 
unreasonable costs for franchise rights and pole attachments can turn 
already high-cost rural infrastructure projects into unjustifiable or 
unsustainable investments.
    Such roadblocks, delays, and increased costs are particularly 
problematic for NTCA members, each of which is a small business that 
operates only in rural areas where construction projects must range 
across wide swaths of land. There are, of course, many efforts already 
underway to examine and address such concerns. For example, the Mobile 
NOW legislation introduced by Chairman Thune and Ranking Member Nelson 
highlights the significance of streamlined permitting and siting in a 
national broadband deployment strategy. Similarly, FCC Chairman Ajit 
Pai's ``Digital Empowerment Agenda'' contains many thoughtful 
suggestions on how ``to make it easier for [Internet Service Providers] 
to build, maintain, and upgrade their networks,'' ranging from greater 
scrutiny of local franchising regulations to ensuring reasonableness in 
the costs for pole attachments. Chairman Pai's recent announcement of 
the formation of a Broadband Deployment Advisory Committee also 
represents a meaningful step in evaluating and taking real action on 
these issues. Continued progress in consideration and implementation of 
such ideas must be seen as an essential component of a holistic 
broadband infrastructure initiative.
Conclusion
    Small, rural broadband providers are eager to continue deploying 
infrastructure and delivering services that rural America needs to 
participate in the modern world. But the ability to justify and then 
recover the initial and ongoing costs of sustaining infrastructure 
investment in high-cost rural areas is critical to this mission's 
success.
    NTCA is excited to participate in this conversation regarding 
broadband infrastructure initiatives, and we look forward to working 
with policymakers and other stakeholders on a comprehensive 
infrastructure strategy that provides the tools and capabilities needed 
to achieve our Nation's shared broadband goals.
    Thank you for the opportunity to testify, and for the Committee's 
commitment to creating an environment conducive to broadband 
infrastructure investment in rural America.

    The Chairman. Thank you, Ms. Bloomfield.
    Mayor Levine.

            STATEMENT OF HON. PHILIP LEVINE, MAYOR, 
                      CITY OF MIAMI BEACH

    Mayor Levine. Good morning. I would like to thank, first of 
all, Chairman Thune, thank you so much, Senator Nelson, and the 
entire committee for extending this invitation to testify 
before you today.
    I am Philip Levine. I'm the Mayor of the City of Miami 
Beach, and I would like to share my unique experience and my 
knowledge on behalf of our city, where I have had the privilege 
to serve as Mayor for the past two terms.
    Miami Beach is truly one of the most diverse cities in the 
country, one of the top destinations for tourists, and a key 
link between North and South America.
    For over 40 years, I have proudly called Florida my home, 
having built a number of successful businesses in my community 
as an entrepreneur.
    In my tenure as Mayor, I believe there are three topics 
that are crucially important to improving local infrastructure, 
not just for Miami Beach and for Florida, but for communities 
across America.
    First, local communities face a challenge of resiliency. 
How can we build infrastructure that can last for future 
generations? In Florida, our Nation's third largest state, 
resiliency is a major issue. Along our shoreline, climate 
change is not just a talking point, but an immediate threat to 
communities up and down the coast. This is doubly true in South 
Florida, where the porous limestone base and low topography 
make our communities especially vulnerable to sea level rise.
    Before I took office in Miami Beach, streets were 
frequently flooded on sunny days, with saltwater surging out of 
city drains due to king tides and elevated groundwater levels. 
Until recently, it was common to see residents sandbagging 
their local businesses or taking off their shoes to wade 
through knee-high water to access their homes or places of 
work.
    With requests for Federal and State assistance frozen in 
permanent gridlock, we took bold, innovative, and immediate 
measures to protect the city and build resilience, using local 
funds to physically raise roads, install storm pumps, and build 
higher seawalls to keep our streets both dry from rain and 
tidal waters. The climate change crisis required immediate 
action and swift investments in our community, which prevented 
us from going through the often slowed Federal process.
    A second challenge our local communities face is 
connectivity. The more connected we can make our major 
metropolitan areas, the better we're able to unlock our state's 
potential and attract more visitors and businesses. Plans to 
better connect Miami and Miami Beach, where over 300,000 
vehicles go back and forth per day, have been in the works for 
decades. It was only recently that we have made some progress 
with a public transit option connecting mainland Miami and 
Miami Beach through the SMART plan, and not without a fight, 
and it is still many years in the future.
    Currently in Florida, we are finishing construction on a 
high-speed rail system, the Brightline, which will connect 
Miami-Dade with the metropolitan area of Orlando. Soon, Miami 
residents and visitors will be able to easily take a trip to 
Disney World, while Orlando residents and visitors can travel 
down to our beautiful beaches. I believe these efforts are a 
great beginning and will be a boon for our state and local 
economies.
    However, whether in building resilience or creating 
connectivity between our cities, local governments can't do it 
alone. In Miami Beach, for instance, we need our Federal 
Government to be committed partners in protecting the assets 
and private property of our residents and businesses. By the 
year 2050, 25 percent of our streets will be below the 
projected high tides. We have defined about $500 million of 
drainage improvements necessary to address flooding, but we 
still stand $300 million short to complete these upgrades.
    In the next 50 years, the U.S. Army Corps of Engineers 
estimates that Miami-Dade County will need over 23 million 
cubic yards of sand. Our beaches are a major economic engine in 
Florida, and annually draw tens of millions of tourists from 
around the world. There is no question that ignoring these 
challenges will only leave our community with losses, leaving 
residents and businesses with the suffering.
    This leads me to my final and most significant point. We 
desperately need a renewed commitment between the Federal 
Government and local governments. The future of Florida's 
resiliency in transportation will not be determined only 
through local funding and efforts, but through a partnership 
between our cities and the Federal Government in Washington, 
D.C. It's time that the Federal Government appreciates that 
Connecting Cities is the future that will define the success 
stories so many Americans are craving.
    A common refrain I hear from the mayors in Florida and 
mayors from around the country, is that the current Federal 
process, when it comes to urgent and ambitious infrastructure 
projects, is broken and frustrating. We are unable to get the 
help that we need from the Federal Government because the 
levels of analysis paralysis often slow down the opportunity 
for progress.
    So where do we go from here? How can we advance bold, 
innovative long-stalled projects at the state level? The answer 
comes down to a real emphasis on Connecting Cities. We need the 
Federal Government to connect directly with municipalities and 
empower local governments to move projects through the Federal 
Government with speed and determination. We need to accelerate 
the review process, expedite funding mechanisms, and 
collaborate on the permitting requirements.
    I understand there is, and will continue to be, a debate 
whether projects should be funded through public or private 
investment. However, I think if you asked mayors around the 
country, they would say that solutions should drive the 
discussion, and getting to yes on infrastructure investments 
must be the guiding voices.
    Bridges, tunnels, and airports are not Republican or 
Democrat. When your constituents are stuck in traffic for hours 
at the end of a long workday on a clogged causeway, they're not 
asking themselves if that new bridge, tunnel, or transit system 
is going to be funded through Federal, state, or private funds. 
They just want an easier commute so they can get home to see 
their families.
    This June, Miami Beach will be hosting the United States 
Conference of Mayors. Mayors across the country, both 
Republican and Democrat, will gather to work to solve the 
pressing issues of our communities. We have extended an 
invitation to President Trump and Vice President Mike Pence to 
speak and listen to the mayors, to learn about what frustrates 
us and what can be done together to fix our cities, and to hear 
their plans to rebuild our Nation's infrastructure post-haste.
    One of my favorite proverbs, which I often quote, comes 
from Ancient Greece. The Greeks claimed that a society can only 
grow great when it plants trees whose shade they may never see. 
In our cities today, not only are we unable to plant the trees, 
but due to excessive regulation and bureaucracy, we can't even 
dig the holes to place the seeds.
    Infrastructure is the backbone of our local and national 
economy. It determines where companies locate and where jobs 
are created. In the recent infrastructure plan submitted by 
Senator Nelson and Senate Democrats, their plan would create 15 
million new jobs around our country. I would implore the 
Committee that if we are to build better infrastructure in 
states like Florida, we must find ways to fix the process so we 
can build a brighter, more interconnected, and more sustainable 
future. Let's have our Federal Government truly connect cities 
in the 21st century.
    Thank you for this opportunity.
    [The prepared statement of Mayor Levine follows:]

    Prepared Statement of Philip Levine, Mayor, City of Miami Beach
    Good morning! I would like to thank Senator Thune, Senator Nelson 
and the entire committee for extending this invitation to testify 
before you today. I am Philip Levine, Mayor of the City of Miami Beach 
and I would like to share my unique experience and my knowledge, on 
behalf of our city, where I have had the privilege to serve as mayor 
for the past two terms. Miami Beach is truly one of the most diverse 
cities in the country, one of the top destinations for tourists and a 
key link between North and South America. For over 40 years, I have 
proudly called Florida my home, having built a number of successful 
businesses in my community as an entrepreneur.
    In my tenure as mayor, I believe that are three topics that are 
crucially important to improving local infrastructure, not just for 
Miami Beach and for Florida, but for communities across America.
    First, local communities face a challenge of resiliency: how can we 
build infrastructure that can last for future generations?
    In Florida, our Nation's third largest state, resiliency is a major 
issue. Along our shoreline, climate change is not just a talking point, 
but an immediate threat to communities up and down the coast. This is 
doubly true in South Florida, where the porous limestone base and low 
topography make our communities especially vulnerable to sea level 
rise.
    Before I took office, Miami Beach streets were frequently flooded 
on sunny days, with saltwater surging out of city drains due to king 
tides and elevated groundwater levels. Until recently, it was common to 
see residents sandbagging their local businesses, or taking off their 
shoes to wade through knee-high water to access their homes or places 
of work.
    With requests for Federal and state assistance frozen in permanent 
gridlock, we took bold, innovative and immediate measures to protect 
the city and build resilience, using local funds to physically raise 
roads, install storm pumps, and build higher sea walls to keep our 
streets dry from both rain and tidal waters. The climate change crisis 
required immediate action and swift investments in our community, which 
prevented us from going through the often-slowed Federal process.
    A second challenge our local communities face is connectivity. The 
more connected we can make our major metropolitan areas, the better we 
are able to unlock our state's potential and attract more visitors and 
businesses. Plans to better connect Miami and Miami Beach, where over 
300,000 vehicles go back and forth per day, have been in the works for 
decades. It was only recently that we have made some progress with a 
public transit option connecting mainland Miami and Miami Beach, 
through the SMART plan, and not without a fight and it is still many 
years in the future.
    Currently in Florida, we are finishing construction on a high-speed 
rail system, the Brightline, which will connect Miami-Dade with the 
metropolitan area of Orlando. Soon, Miami residents and visitors will 
be able to easily take a trip up to Disney World, while Orlando 
residents and visitors can travel down to our beautiful beaches. I 
believe these efforts are a great beginning and will be a boon for our 
state and local economies.
    However, whether in building resilience or creating connectivity 
between our cities, local governments can't do it alone. In Miami 
Beach, for instance, we need our Federal Government to be committed 
partners in protecting the assets and private property of our residents 
and businesses. By the year 2050, 25 percent of our streets will be 
below the projected high tides. We have defined about $500 million of 
drainage improvements necessary to address flooding, but we still stand 
$300 million short to complete these upgrades. In the next 50 years, 
the U.S. Army Corps of Engineers estimates that Miami-Dade County will 
need over 23 million cubic yards of sand. Our beaches are a major 
economic engine in Florida, and annually draw tens of millions of 
tourists from around the world. There is no question that ignoring 
these challenges will only leave our community with losses, leaving 
residents and businesses with the suffering.
    This leads me to my final and most significant point--we 
desperately need a renewed commitment between the Federal Government 
and local governments. The future of Florida's resiliency and 
transportation will not be determined only through local funding and 
efforts, but through a partnership between our cities and the Federal 
Government in Washington, D.C. It's time that the Federal Government 
appreciates that Connecting Cities is the future that will define the 
success stories so many Americans are craving.
    A common refrain I hear from mayors in Florida, and around the 
country, is that the current Federal process, when it comes to urgent 
and ambitious infrastructure projects, is broken and frustrating. We 
are unable to get the help that we need from the Federal Government, 
because the levels of analysis paralysis often slow down the 
opportunity for progress.
    So where do we go from here? How can we advance bold, innovative 
long-stalled projects at the state level? The answer comes down to a 
real emphasis on Connecting Cities. We need the Federal Government to 
connect directly with municipalities and empower local government to 
move projects through the Federal Government with speed and 
determination. We need to accelerate the review process, expedite 
funding mechanisms and collaborate on the permitting requirements.
    I understand there is, and will continue to be a debate whether 
projects should be funded through public or private investment. 
However, I think if you asked mayors around the country, they would say 
that solutions should drive the discussion and getting to YES on 
infrastructure investments must be the guiding voice. Bridges, tunnels, 
and airports are not Republican or Democrat. When your constituents are 
stuck in traffic for hours, at the end of a long work day, on a clogged 
causeway, they are not asking themselves if that new bridge, tunnel, or 
transit system is going to be funded through federal, state or private 
funds. They just want an easier commute so they can get home to see 
their families.
    This June, Miami Beach will be hosting the U.S. Conference of 
Mayors. Mayors from across the country, both Republican and Democrat, 
will gather to work to solve the pressing issues of our communities. We 
have extended an invitation to President Donald Trump and Vice 
President Mike Pence, to speak and listen to the Mayors, to learn about 
what frustrates us and what can be done together to fix our cities, and 
to hear their plans to rebuild our Nation's infrastructure post-haste.
    One of my favorite proverbs, which I often quote, comes from 
Ancient Greece. The Greeks claimed that a society can only grow great 
when it plants trees whose shade they may never see. In our cities 
today, not only are we are unable to plant the trees, but due to 
excessive regulation and bureaucracy, we can't even dig the holes to 
place the seeds.
    Infrastructure is the backbone of our local and national economy--
it determines where companies locate and where jobs are created. In the 
recent infrastructure plan submitted by Senator Nelson and Senate 
Democrats, their plan would create over 15 million new jobs around our 
country. I would implore the committee that if we are to build better 
infrastructure in states like Florida, we must find ways to fix the 
process so that we can build a brighter, more interconnected and more 
sustainable future. Let's have our Federal Government truly connect 
cities in the 21st Century!
    Thank you for your time.

    The Chairman. Thank you, Mayor Levine. And we appreciate 
that perspective from a city, particularly a big city, an area 
where we've got a lot of population and lots of infrastructure 
challenges and needs. So thank you for sharing that.
    We did have--the vote has been called. We're going to do 
our best to stagger this so that we can cover it. Senator Blunt 
is going to go vote and hopefully come back and be able to take 
over the gavel for a while as we try and do our best to keep 
rolling.
    So I'm going to start.
    I want to ask, Governor Daugaard, you noted that the 
programs authorized under the FAST Act ensure both rural and 
urban participation in our Nation's surface transportation 
programs. Could you elaborate on the advantages of using 
existing authorized programs under the established formula 
shares in comparison to new policy designs or to a project-
specific approach?
    Governor Daugaard. Sure. Thank you, Senator. Well, first of 
all, the existing formula under the FAST Act is established, 
and it balances urban and rural needs. I talked about how the 
states in rural areas are the bridges between the more urban 
areas. To put a number to that, almost 70 percent of the truck 
traffic on South Dakota's interstates neither originate nor 
terminate in South Dakota, so we are truly a bridge between 
places outside South Dakota. And so when you have a formula, as 
the FAST Act does, that accounts for that, that's a good way to 
be sure that urban and rural balance is achieved and that rural 
investment does indeed help the urban areas because they need 
us.
    Second, the formula system allows the state to choose the 
priority project. In discretionary funding, you've got to 
compete for grant projects. In a small state like South Dakota, 
we don't have big projects that are real sexy and get a lot of 
attention, and yet we know we have needs and we can prioritize 
those needs locally in the best way. So the formula system 
allows the state the discretion to choose the project that they 
want to attack first.
    And, third, with a system that's already in place, you can 
more quickly deploy money. There's a sense of urgency offered 
by everyone here on this panel that things need to get done. 
And new systems, new approvals, new patterns, slow that down, 
and so using the FAST Act approval process and a quicker 
established system gets the money out the door and the projects 
built more quickly.
    The Chairman. Thank you, Governor.
    Ms. Bloomfield, the 2009 stimulus bill included tens of 
billions of dollars for infrastructure, which President Obama 
promised would be shovel-ready, and before long, ``shovel-
ready'' had become kind of a punch line. But if Congress were 
to steer any additional funds toward broadband, how can we make 
sure that we do not repeat some of those mistakes and ensure 
that the taxpayers get real value from any digital 
infrastructure spending?
    Ms. Bloomfield. Senator, that's a great question. And a 
couple of things. There were definitely some projects that got 
funded through stimulus that made sense, but I think we learned 
some really important lessons from stimulus, and that was there 
were projects that were duplicating existing infrastructure.
    When you've only got resources that can go so far, you've 
really got to maximize what you have. So I think there are some 
lessons learned in terms of ensuring that you're actually 
putting money to those providers who actually know what they're 
doing.
    Broadband is actually pretty hard business. People 
underestimate until they get into the business of how complex 
it can actually be. But that's why we really think if we look 
at the universal service program, the FCC has spent the last 5 
years reforming this program, you actually have something in 
place that deals with rural areas that are served not only by 
my companies, by the larger companies, where, frankly, it is 
just simply uneconomical to provide broadband service when 
you've got 7 to 10 customers per mile of wire. Taking an 
existing program like that that has been established that 
actually also under the Connect America Fund Round 2 will 
actually be open to all providers where technology may make the 
most sense. So it may be a traditional broadband provider could 
be a satellite, it could be a wireless entity, the ability to 
kind of maximize what we have.
    So again I think the beauty is we've learned some lessons 
from the last go-round, and we have some programs that are 
simply ready to go.
    The Chairman. Thank you.
    Director Braceras, as you mentioned in your testimony, 
technological advancements are going to change the way we 
travel and how we move goods. And given Utah's leading role in 
vehicle technology, how can we, at the Federal level, best 
utilize and promote these types of innovations for the 
increased safety and efficiency of our transportation system 
and its users?
    And I would point out that last year on the highways, I 
think we lost 38,000 people. And it strikes me, at least, that 
90 percent of those, they were human error, it was driving 
under the influence or distracted driving. So some of these new 
technologies it seems to me could save a lot of lives.
    But could you talk a little bit about that and how you see 
these new technologies not only creating efficiency, but 
hopefully creating more public safety?
    Mr. Braceras. Yes. Thank you, Mr. Chairman. We're really 
excited about the opportunities, and, in fact, we feel an 
unbelievable urgency to try to be facilitators to implement the 
technology because the benefits are going to be truly amazing. 
We're going to--94 percent of all crashes are human error, and 
when you consider that in Utah last year we lost 280 people on 
our roadways, if we could eliminate human error, we would have 
had 18 deaths on our roadways. I mean, so that's what's leading 
me to feel a lot of pressure to try to help implement the new 
technologies.
    For us, we're convinced it's going to be a combination of 
not only these autonomous vehicles, but connected vehicles, so 
connecting vehicles to our infrastructure. And, in fact, we 
started a process in the 1990s of wanting to connect our 
traffic signals. And what we decided at that time is we wanted 
to have one traffic signal system in the entire state of Utah, 
not a system for every city, county, or state. And so today, we 
have 88 percent of every traffic signal connected to our fiber 
optic backbone, and not only can the state control all those 
signals, but every city and county can as well. We let everyone 
have that ability. We've done this through public-private 
partnerships with our telcoms. So we exchange value for value 
with our telcoms our right-of-way, and what we do is we've been 
able to not only connect our signal at costs that we could not 
afford, but we also have pushed fiber optic and broadband 
access into our rural communities that never would have had it 
if we did not take that approach.
    So being able to help states facilitate that type of 
partnership, working with some of the Federal regulatory 
agencies, that we have easements through a lot of properties, 
through the BLM and others, so helping work with them where we 
don't own the right-of-way, but we have easements to help them 
see that vision as well would be very helpful.
    I think it's going to be important for us to protect the 
DSRC spectrum. We call it the safety spectrum. For us to 
realize these benefits, these cars have to talk to cars, the 
cars have to talk to the bridges, they have to talk to the stop 
signs. They have to have complete interconnection between it. 
And so we're convinced that being able to protect the DSRC 
spectrum is going to be one of those tools that we're going to 
have to have in order to be able to achieve these real benefits 
in the future.
    Thank you.
    The Chairman. Thank you, Mr. Braceras.
    Senator Nelson.
    Senator Nelson. I'll ask just one question so Senator 
Klobuchar can get in a question before we go vote.
    Mr. Mayor, you're one of the superstars. The country is 
going to increase in population over the next 30 years by 
seventy--7-0--million people. Share with us the reason that 
it's important that we invest now for the future and also it's 
important for the cities.
    Mayor Levine. Thank you, Senator. You know, I only wish 
that previous administrations in South Florida had invested in 
infrastructure 30, 40 years ago, and we wouldn't be dealing 
with roads that are underwater today. And like that Greek 
proverb I said, ``the things we do today are for future 
generations, it's about making an investment.'' As an 
entrepreneur, I know that when you make investments, if you 
plan them and you think them through, they'll pay off.
    I know as a mayor, and I talk to my fellow mayors across 
the country, the big issue that they have, of course, is that 
they want to plan these projects, they want to move them 
forward, but the inability to break through the Federal 
process, which is so challenging, it's probably like the 
hardest, most challenging, most difficult SAT question in this 
history of scholastic testing. OK? No one can get the answer. 
No one can figure it out. Everyone talks the talk, but no one 
can walk the walk.
    So if the Federal Government would somehow figure out a 
system where they could I'm not saying bypass the states, but 
go directly to the communities, go directly to the mayors and 
the local municipalities, we're going to see more projects get 
done, and when it comes to transportation, whether you want to 
create an infrastructure of startups and communities and 
businesses, what do millennials, what do people want? They want 
infrastructure. They want public transportation. And this 
requires investment.
    I love public-private partnerships, I think they're 
fantastic, but it's like anything else. I don't care what 
business, who it is in a P3, show me the money, because if it 
doesn't make sense economically, there's not a P3, private 
company, in the world that's interested in getting involved. 
Someone has to pay for it.
    I'm sure when President Eisenhower came about and was going 
to do our Interstate Highway Act, he didn't say, ``Let's go 
find some private companies to go build the interstate 
highways,'' because there was no money to be made to do that 
unless you were a building contractor.
    So we have to be realistic about this. But from a mayor's 
point of view, let's invest, but let's get the Federal process 
down to a science where mayors and communities and 
municipalities can access it without being stuck in the state 
capitals. Thank you.
    The Chairman. Thank you, Senator Nelson.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you so much. And thank you, 
Senator Nelson, for giving me a few minutes of your time. And I 
also want to thank you, Senator Nelson. We've worked together 
on the 9-1-1 draft.
    Ms. Bloomfield, you know how important that will be as part 
of broadband. I chair the--co-chair the 9-1-1 Caucus, and so 
we've been working on that, and I'll ask you a question about 
that on the record.
    I just think this is a really exciting time for broadband 
because we've got the Administration putting this as a 
priority, now Secretary Ross, in this hearing, said that he 
believed it should be part of--in his nomination hearing--
infrastructure. We've got Democrats and Republicans here really 
geared up for the Broadband Caucus, we even have a logo. And I 
think that there has just been this increased interest, as 
Senator Thune knows, from the public for not just having access 
to Internet, but having high-speed Internet because they need 
it to run their businesses, as the Mayor knows.
    So just quickly, the NTCA announced the Smart Rural 
Community program. Could you just quickly describe that to me? 
And then I'll put my other questions on the record.
    Ms. Bloomfield. Senator, thank you. So I know you had a 
chance to meet with some of the broadband providers last week 
to talk about what's going on in Minnesota----
    Senator Klobuchar. And with Collin Peterson. That was--yes.
    Ms. Bloomfield. Very exciting. So our Smart Rural 
Community, you know, we have--our penetration is about 71 
percent of rural citizens that are served by my member 
companies that have access to 25/3 capability, and about 50 
percent have fiber to the home. It's not just about getting the 
broadband out there, but particularly rural constituencies, is 
teaching them how to use the broadband. Why is it more than 
just fast e-mail? You know, what can you really do to bring 
community service, economic development, jobs, opportunities?
    So with the Smart Rural Community, which we actually have a 
number of communities in Minnesota that are Smart Rural 
Communities, it is taking the entire community and bringing 
them around to, what can broadband actually facilitate? It's 
getting the local mayors involved. It's getting the local 
transportation folks, public safety, and kind of gathering 
around the applications that can be really empowering.
    So we've been able to designate it, and what we're finding 
is it's a great way to share the story of success. It's also a 
great way to make sure that people understand that when you go 
to rural America, you're not entering a backwater, you're 
entering incredibly vibrant communities, great places to raise 
your children, great infrastructure, great workforce, and it's 
a way to celebrate that.
    So even as you enter into these communities, they've got 
highway signs, ``You're entering a Smart Rural Community.'' 
When you think about locating jobs, when you think about 
bringing companies into those communities, the first thing on 
their checklist is whether you've got broadband. And we're able 
to celebrate the fact that we do, and it's important to keep 
it.
    Senator Klobuchar. Thank you so much.
    Ms. Bloomfield. Thank you.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt [presiding]. Thank you, Senator Klobuchar.
    Governor Daugaard, let's talk a little about the challenge 
that you may see, and then I think we'll go with the same 
question, a follow-up on this to Mr. Braceras, which is we 
think--what kind of obstacles would you remove for small states 
and small communities to have a better chance to share in the 
Federal money and programs that are available? Or do you feel 
like there is no obstacle there?
    Governor Daugaard. Well, I think the FAST Act improved 
things. I think with the Continuing Resolution, some of the 
funding that was intended to be accessible through the FAST Act 
is yet out of reach. And some of the improvements in safety are 
yet unavailable. But the first thing that would be most near-
term, I guess, would be to get a full budget year, get the FY17 
budget finalized. That would help.
    The concern that small states have again originates in the 
proposals that are seen in various--the President's proposal, 
others, that talk about P3s or other tax credits, or other ways 
to leverage private funding. And in small states, there's just 
not enough traffic to put a toll on and create a revenue stream 
that would repay the principal and interest required to attract 
investment. And there is just not enough local--there's not 
enough population to spread that among even the population of 
the state.
    As I mentioned earlier, almost 70 percent of the truck 
traffic through South Dakota doesn't start in South Dakota, 
doesn't end in South Dakota, we're a throughway for that, and 
that's above the national average. So we're a heavily used 
bridge between other more urban parts of the Nation.
    We also, though, are an originator of egg products. We have 
enough corn and wheat and soybeans and sunflowers to fill a 
million 18-wheelers every year. And so those 18-wheelers 
generally bring that produce to processors or to rail, and 
they're railed out from there. But we need roads to get to the 
rail because not every rail line reaches to every farmer's 
field.
    So I would say the key element that I want to emphasize 
again is the formula methodology that's employed in the FAST 
Act should be retained. The FAST Act should be put into the 
FY17 budget in final form.
    And then the Highway Trust Fund after 2020 needs to have a 
stable source of funding by some means. As Senator Thune 
mentioned in his opening remarks, we went quite a long time 
before we had a highway act, before we had the FAST Act, and we 
had multiple short-term extensions. And in a state like South 
Dakota, where we have a very short construction season, that 
made it very difficult for us to contract for projects, not 
knowing if the funding would be there.
    So those are my thoughts. Thank you for the question, sir.
    Senator Blunt. Mr. Braceras.
    Mr. Braceras. Yes, thank you, Senator. I'm not going to 
repeat what the Governor said. I would echo a lot of his 
comments. Let me start off with this thought. We hear a lot 
about the regulatory hurdles to delivering our projects, and 
let me just give you an idea of how we quantify that in Utah. 
We do an exchange program. And so what we do is where we have 
the state money available, we will exchange state money for 
Federal money, and we have local governments lining up to do 
this at 85 cents on the dollar, and we do this at a program 
level and at a project level, and this helps our local 
governments deliver projects. These local governments and rural 
communities are not doing Federal projects, you know, hundreds 
of them a year, as state DOTs do it.
    Senator Blunt. So you take some state money and allow that 
to be part of a local match?
    Mr. Braceras. We exchange it out completely. So if a local 
government had a $10 million project that was funded, we would 
give them $8,500,000 for that project. They feel they're 
getting a steal for that.
    So I'm just giving you some idea of how our communities are 
quantifying the regulatory hurdles that they have to go 
through, especially when you're not doing it, like I said, on 
hundreds of projects a year, as we are doing as a state DOT. So 
we will Federalize projects that we wouldn't do in the past. We 
tend to move that money towards fairly simple maintenance-type 
projects to limit the regulatory burden on that.
    So that gives you maybe some sense of how hard this is for 
some of our communities to deal with the Federal requirements.
    Now, I'm going to propose a thought that I'll say it--you 
can say it's a Carlos thought here, it's not representative of 
anyone behind me, but I would really like to see the Federal 
Government actually turn to states and allow states to certify 
that they've complied with all the rules and regulations as 
opposed to having to go and ask them, ``Mother, may I?''
    Let us work on a certification basis, and we could take the 
risk that we have complied properly, but I believe we can 
streamline things tremendously. And this is very similar to how 
NHTSA deals with the automobile manufacturers.
    Senator Blunt. Governor?
    Governor Daugaard. Well, I was just going to comment that 
the system that Utah uses to relieve local governments from the 
Federal regulatory burden is also used in South Dakota. That's 
a signal I think that the regulatory burden on local 
governments is too great, and just as in Utah, South Dakota 
does not give dollar-for-dollar value. We're giving essentially 
less state money than the local would get in Federal money, but 
they're happy to get less money to be relieved of the burden 
because it's too burdensome for them, too onerous, and they're 
afraid that they will make a mistake and they'll use the 
Federal dollars inappropriately or----
    Senator Blunt. So you not only help with the application 
process, but also then with the--you become the monitoring, 
part of that monitoring, of how the money is spent?
    Governor Daugaard. Well, actually, what we do is we just 
give them state dollars and we say, ``You spend this in a way 
that you believe is appropriate for safety, for traveling, for 
durability, for the standards you want to achieve in your local 
areas, and we'll take the state and the Federal dollars and 
we'll use them in ways that meet Federal regs at the state 
level.''
    So the locals are no longer even using the Federal dollars, 
they're just using State dollars, which they can deploy without 
this measurement and reporting and without all the regulatory 
burden.
    So the distributions to the locales with the Federal 
strings, they don't even want the money at that level, they'll 
just give it up at 85 percent on the dollar to the states 
because they're afraid to make mistakes in dealing with the 
Federal regs. We're doing that in South Dakota just like Utah 
is.
    Senator Blunt. And in terms of permitting, both from a 
statewide perspective, let's say like Utah, Mr. Braceras, and 
then, Mayor, from your perspective, we've done some things 
where we can expedite highway construction. The Chairman and I 
worked together to put similar language in the FAST Act for 
rail construction. But how do you see permitting as it holds 
back what otherwise your state and your community are ready to 
do? And if it's not a problem, I would be glad to hear that, 
too.
    But, Mr. Braceras.
    Mr. Braceras. Yes. We would be very happy to work with this 
committee and with your staff, Senator, on--you know, we 
believe that there are enhancements that we could make at the 
policy level, at the regulatory level, and at the statutory 
level to make improvements to that regulatory process. There 
are duplicative processes that states and local governments 
need to deal with, and we believe we can still achieve great 
outcomes, we can speed up the process, we can put more of the 
public's money out on the road to work, and spend less of it 
dealing with regulatory burdens. And I could go through a few 
details, but there are absolutely improvements we could make at 
all three of those levels that would help our local 
governments, our rural communities, be able to deploy projects 
faster and actually generate the safety and mobility benefits 
that we're trying to achieve.
    Senator Blunt. Yes.
    Mr. Braceras. At the end of the day, we need to get these 
projects out on the ground as fast as possible.
    Senator Blunt. Well, Mayor, the same thing. As you decide 
something needs to be done, do you see needless obstacles 
between that moment and actually getting started to work?
    Mayor Levine. Yes, Senator, and that's the big issue I 
think it comes down to. Local governments, I don't care how big 
the city is, it becomes so overburdensome, so--a massive wall 
that you literally can't get across because you can't figure 
out how to navigate the Federal Government. And then, for 
example, in our state, it's two separate entities.
    So you're dealing with the state, you're dealing with the 
Federal Government, and what ends up happening in local 
politics is--you all may remember--is that people have limited 
attention spans, they have limited terms. So who is going to 
start getting involved in a process and a project that's going 
to require Federal Government help and state? By the way, you 
may be long gone as mayor or commissioner or whatever it is 
that you are, you're not going to even attempt it. It's so 
overwhelming that you don't want to go there.
    And one of the suggestions I would have possibly in this 
committee, and I would invite, as the host mayor, every mayor 
in America will be pretty much down at Miami Beach June 23 to 
June 26, the U.S. Conference of Mayors we're hosting, and I 
know infrastructure is the key most important aspect to most 
mayors right now. And to have this type of setting in Miami 
Beach during the U.S. Conference of Mayors, to listen to the 
mayors and go back and forth, the amount of insight you're 
going to get from the ground up to understand the obstacles of 
getting these projects done I think will be really, really 
enlightening for the Senate.
    Ms. Bloomfield. And, Senator, if I could just interject as 
well. It's really important to broadband providers as well. And 
as folks talk about the FAST Act, and while we're not 
transportation entities, we do cross a lot of conduits.
    So right now FAST Act is set at about a $200 million level 
in terms of expediting some of that. You know, our projects are 
a lot smaller than that, so I think there needs to be some 
flexibility.
    But absolutely, as folks do their assessments on where 
they're going to do broadband builds, they're looking at what 
it's going to take, how many hurdles they're going to have to 
go through, and how do you, as all of my fellow panelists have 
said, how do you synchronize your local, your state, and your 
Federal permitting process? It is absolutely critical.
    Senator Blunt. And in terms of let's talk a little bit 
about the broadband type applications to even transportation. 
Are you beginning to look any or all of you, as you're--if 
you've got a building project, looking in the future of 
vehicles that need broadband more than they--of putting that in 
projects? Do you want to----
    Ms. Bloomfield. Carlos is jumping to jump in on that one, 
but let me just say, to do all the great Internet of Things, 
you know, the Smart Cities, the Smart Highways, you really need 
the broadband. So you kind of need that underlying 
infrastructure to do the things that I think are going to be so 
important and so innovative and critical for the economy as 
well as public safety to actually have the infrastructure out 
there.
    So I look at, for example, the folks I serve, they cover 
about 40 percent of the land mass, 5 percent of the people. So 
you've got to be willing to take that infrastructure across a 
long way. And I look at the states of Utah and South Dakota, 
you're talking about a lot of stretches where there's a lot 
more land than there are people.
    So, again, I look at my role here is we're the underlying 
infrastructure provider to do some of the applications that 
will be important.
    Mr. Braceras. Senator, I spoke a little bit about this 
earlier, but we've had since, let's say, 1997, 1998, the policy 
that we want to dig once. And so every single project we do, 
we're going to put in either fiber, we'll either try to get 
dark fiber in there, or we'll just put an empty conduit in, and 
when you're putting in empty--if you're doing a pavement job in 
the middle of the desert and you've got 200 miles between 
cities, and you're doing 10 miles, and you're putting in 
conduit, just 10 miles, and then you're capping the ends of it, 
we did that with state money, it wasn't federally eligible at 
the time.
    Well, what we have today is we have value that we've 
invested over the last 20 years that we're exchanging value for 
value with the telcoms, and we've been able to push fiber 
optic, and we did it selfishly. We did it to connect our 
traffic signal system to be more effective at moving vehicles, 
but what we've been able to do now is push broadband into rural 
parts of our community where Utah now is a very connected 
state, and through this public-private partnership.
    But we took a risk, we took an absolute risk, that fiber 
optic was still going to be the technology needed at this point 
in time, and it's paying dividends for us right now.
    Senator Blunt. Governor, you're doing the same--are you 
doing anything like that in South Dakota?
    Governor Daugaard. I can't say we're following a dig once 
policy in that sense, and we don't have any traffic like 
interconnectedness plans or effort underway.
    But I will say one thing that we also share with Utah is a 
lot of public land. And so, as was mentioned earlier, both 
getting across public land, having the permission to do that, 
through an easement, that's important, and to the extent that 
that can get tied up sometimes in bureaucracy, that's a 
limiting factor.
    And also the dollars. When you're talking about allocation 
between rural and urban states, you have to remember that in a 
lot of the rural, especially the western states, you've got 
large swaths of Federal property that can't be taxed, that 
people don't live on, or just live near, and yet we need to 
cross those lands and pay for the crossing and pay for the 
materials and the construction, and it benefits people at 
either end. So we need help in rural states just in the same 
way where a bridge in our highway system to more urban areas, 
those Federal lands act as a bridge between non-Federal areas 
and their communication needs.
    Senator Blunt. Yes. And, Mayor, on that topic of broadband, 
are you, either in your infrastructure that you're responsible 
for or in your building permit to new facilities, how are you 
dealing with that?
    Mayor Levine. Well, Senator, I could tell you that before 
we get deep into broadband, we kind of want to--we kind of have 
to drain our city a little bit because as we puncture down, we 
hit sea level rise pretty quickly. So we're more focused right 
now on making sure our streets are high and dry and putting in 
pumps on our own.
    But, of course, broadband is crucial, it's key, because all 
this interconnectivity, we all know it, this is what drives 
entrepreneurs, it drives business. This is what creates a 21st 
century society. We've done everything we can on a local level 
to make the process as easy as possible, but, once again, that 
goes up to the state, and the state has more control over these 
issues for the city.
    Senator Blunt. Yes. My last question, Ms. Bloomfield, would 
be FCC also reports to this Committee. Are there issues there 
that are particular obstacles, or are there issues that are 
being moved out of the way now by the new Chairman that we 
should know about?
    Ms. Bloomfield. We've been very impressed at how quickly 
Chairman Pai has been moving. So I think there are a few things 
to your question, Senator, and I appreciate it.
    One, a lot of members of this committee about two years ago 
had really imported the importance of actually having rural 
consumers be able to afford standalone broadband, the idea that 
if you aren't taking a voice service, you could actually at 
least be able to access affordable broadband service, we call 
it standalone.
    And one of the things that we have seen is the Universal 
Service Reform is just being completed over at the FCC. There 
are a few things that hopefully will be cleared up. And they 
put a new model in place, a lot of accountability, a lot of 
effort to ensure that there is affordability and sustainability 
in terms of broadband that's offered to consumers.
    The problem is it's like having a car that has been built, 
but not enough gas to put in the engine, because what they did 
is the program for the High Cost portion of universal service, 
which serves rural America, is actually kept at 2010 levels, 
and it has been capped, no inflationary factor. So you've built 
this new system that actually isn't fully funded.
    So when you all had expressed interest in ensuring that 
consumers could afford having just broadband service, what 
we're now finding is that is coming to about $120 to $150 a 
month at the median range for rural consumers. Well, that's not 
really very affordable. So we look at that and we think, yes, 
there are things still to be done in terms of ensuring that 
Universal Service can be fully funded.
    The other thing is I would say that in terms of the 
regulatory issues that Chairman Pai is pushing, he's really 
taking a proactive look. Your interest on permitting and making 
sure Federal easements will be a lot smoother is really a top 
priority, and we're looking forward to working with him on 
that.
    Senator Blunt. Thank you.
    The Chairman. Mr. Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Mr. Chairman. Thanks to all of you 
for being here today and for the testimony you've offered. What 
you do is critical to our Nation's infrastructure and to our 
transportation system.
    Mr. Braceras, your presence here today elevates the 
discussion because, among other things, you're from Utah, and 
Utah is a place that is really into innovation. Throughout the 
Silicon slopes, we have put a real premium on investing in new 
technology. And as you brought up in your testimony, Utah has 
positioned itself rather nicely at the intersection of 
infrastructure on the one hand, and innovation on the other.
    One example of this is in the field of autonomous and 
connected vehicles. In 2015, the Utah State Legislature, as you 
know, tasked the Utah Department of Transportation, which you 
had to study this issue, and to begin testing some of these new 
technologies on our highways. Recently, Chairman Thune and 
Senator Peters have begun to get the wheels turning on the 
Federal level, and I look forward to working with them to come 
up with any appropriate Federal measures.
    So, Mr. Braceras, what are some of the lessons that you 
have learned at UDOT at the state and local level about 
autonomous and connected vehicles that we, on the Committee, 
should keep in mind as we move forward and decide what steps 
need to be taken here?
    Mr. Braceras. Thank you, Senator, for that question. You 
know, when you're--I think everybody wants to be innovative, 
but it can sometimes be scary. So I think one of the most 
important things we need to do is we need to address the 
culture that we create in all levels of government about how 
we're going to treat people that try something that's 
innovative and may not work out the way we thought it was going 
to work out.
    And so I think that's really fundamental that you see it 
pervasive in all levels of government. We're very good at 
punishing people that do something that didn't quite work, and 
we're not very good about rewarding those people that took a 
risk. And if you think about how we treat all those people that 
are in those--that hierarchy of government, I think that's an 
important culture point we need to put forward.
    So we're convinced. We're going to almost double our 
population in Utah in the next 35 years, and that population is 
going to essentially be along the 100 mile--we call it the 
Wasatch Front, contained by mountains and lakes. And so we're 
quickly becoming very urbanized. And I tell people we're not 
going to be able to double the lane miles that we have in our 
state.
    And so for us to be able to continue to be economically 
viable and to continue to enjoy the great quality of life we 
have, we have to think about how we're going to be more mobile. 
And so we are convinced at the DOT and our legislature that 
we're going to--that the future of technology is going to allow 
us to actually improve mobility and improve the safety 
features.
    So our legislature asked us to study the future of 
autonomous vehicles. We refer to them as CAVs, connected 
autonomous vehicles. And so our role is we've been working now 
to provide that connection to infrastructure so that if a 
bridge is icing up, I can communicate that bridge is being iced 
up to cars that are half a mile away, and so that those cars 
are aware of it, and they'll slow down and they'll behave 
appropriately. Or when I have a traffic signal that's about to 
change signal timing, it's communicating that to the vehicles 
on the road.
    And so that means that we have to develop the standards for 
us to be able to communicate. So we need to have consistent 
standards for the vehicles to have that communication to our 
infrastructure and back and forth.
    Today, we're taking a grid system, and we're just doing 
this on our own, we did apply for a pilot program on the 
connected autonomous vehicle pilot, and we didn't get it, but I 
was so convinced it was a great idea, we're doing it anyhow. 
And what we're doing is we're putting DSRC units in a grid in 
our Salt Lake City traffic signal system, and we're working 
with our transit authority and communicating with our buses.
    So we know the schedule the buses are supposed to be on. We 
know how many people are on the buses. We also know how many 
vehicles are approaching on all legs of a traffic signal. And 
so now in this grid system, we're working to be able to keep 
buses on schedule. So the motivation is more people will use 
transit if they can rely that it's going to be on time.
    And so it's taking that type of approach, of having to take 
a little bit of a risk, but realizing that that benefit that 
we're going to achieve is going to be just amazing. But if we 
don't find a way to create a culture that allows us to take 
those steps forward, we don't want, as government, to 
overregulate innovation, and that's a really important point. I 
see some governments wanting to be so actively involved in this 
game of the autonomous vehicle, sometimes maybe getting 
overzealous and overregulating.
    And so we need to find just that minimum that we need to be 
able to regulate to assure that we have the safety and we have 
consistency of standards between vehicles and between states, 
but then let's back away. And I think that's really important.
    So our legislature right now has moved a bill through, it's 
on the final reading calendar in the Senate, and what it's 
going to do, it's going to create a combined task force of 
myself, representing Transportation, our Department of Public 
Safety, our Department of Insurance, and our Tax Commission, 
and we're going to be working together to try to provide 
feedback for what types of bills our state level needs to be 
doing. But we also recognize there's a huge role for the 
Federal Government here because we need to make sure that we 
connect when we cross the borders.
    Sorry for the long answer, Senator.
    Senator Lee. No, that's very helpful. My time is expired. I 
was wondering if I could ask one more question. You know, Utah 
has been very successful in helping to integrate investors with 
public works projects and helping to innovate. We've got 5G 
deployment coming down the pipeline, we've got technology 
companies that are working hard to update both wired and 
wireless connections and to expand their reach. And in our 
state, wireless providers are already estimated to be investing 
a whole lot of money, possibly hundreds of millions of dollars, 
to deploy 5G to Utahans.
    Can you explain to the Committee why it is that Utah, and 
the Utah Department of Transportation in particular, have been 
so successful in partnering with industry to deploy tech 
infrastructure often relying on private investment?
    Mr. Braceras. I would say because we are trying our hardest 
to squeeze the towel and wring every bit of efficiency we can 
for the public's dollar. We realize we have this huge challenge 
ahead with our growth and with our goal of trying to get to 
zero fatalities.
    So what we do is we try to partner with everyone. And if 
you take the approach to seek first to understand and look for 
the win-win--those are some famous Utahan Stephen Covey's 
habits--that's really the philosophy that we have. And so it's 
a very strong--it's pervasive within our organization, and it's 
a little bit to help ourselves. And we realized in order to 
help ourselves, we need to make sure that our private partners 
are successful. So there are no winner and losers, and there 
are only winners is our goal.
    Senator Lee. Excellent. Thank you very much.
    The Chairman [presiding]. Thank you, Senator Lee.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairman, thank you very much. Thank you all 
for being here today. I appreciate the conversation. I'm also 
serving on a committee that met at 10:30 this morning on 
infrastructure as well, the Environment and Public Works. So 
we're glad to see this is such a focus.
    Ms. Bloomfield, you perhaps are the unique one in this 
hearing that's not taking place in EPW, and so let me direct a 
couple of questions toward you. First of all, I appreciate the 
expertise that you bring to broadband deployment issues. I've 
experienced that, and many Kansans have benefited from your 
involvement in the public policy arena.
    In my Appropriations Committee role, I'm a member of the 
Agriculture Appropriations Subcommittee that has jurisdiction 
over the rural utility services as well as the Federal--FSGG 
Subcommittee, which has appropriations jurisdiction over the 
FCC. Those are two entities that have something to do with 
broadband deployment. There are probably others, there are 
others, and I would like for you to outline who else we deal 
with in this arena and how we might try to streamline the 
number of players that are involved.
    But particularly with those two, one of the concerns that 
I've raised numerous times is with the previous order of the 
FCC that altered the reimbursement that rural telephone 
companies would receive on broadband that's already deployed, 
they may have, and as a result, have less revenue, less return 
on that investment. And one of the problems is that the rural 
utility services is a financer of that deployment, and you have 
this conflict in which the FCC is making decisions that reduce 
the ability for an RUS loan to be repaid.
    Can you bring me up to date in that clash and where we are? 
And if you have suggestions, plus any suggestions about other 
entities that we ought to be paying--other Federal entities 
that we ought to be paying attention to that can help either 
get out of the way and make it easier for the deployment of 
broadband or help us encourage the broadband deployment?
    Ms. Bloomfield. You have painted the very complex picture, 
Senator Moran, and we have long appreciated you're willing to 
really roll up your sleeves on this.
    So, yes, you painted it perfectly. We have universal 
service reform, and I know you have worked very closely, you 
actually have. The Chairman of the FCC is from Kansas, and 
that's really wonderful to have somebody in that leadership 
role who understands what it means to serve rural America.
    So when the FCC went through their USF reform, at the end 
of the day, there is a lot more accountability, there is a lot 
of integrity in the program, a lot of effort toward--you know, 
USF is key toward sustainability and affordability for rural 
Americans, but the problem is the funding is insufficient. The 
High Cost portion of the fund is capped, and it's capped at 
2010 levels.
    So, you know, I look at now today--you know, think about 6, 
7 years ago what your broadband needs were or what your 
family's broadband needs were, and what they are today and how 
that has really just grown, and how you actually really have to 
be focused on creating future-proof networks, right?
    So you've got to be thinking about fiber, how important it 
is, regardless of where we are, because it has got that 
capacity to bring what consumers want.
    So with the USF reform that went through, because the fact 
that the funding was insufficient, you're exactly right, what 
we're seeing now, for example, on the A-CAM model that was just 
approved, which a few hundred rural companies will be taking, 
because of the fact that the budget is insufficient, there are 
over 35,000 locations that won't be getting some of the 
broadband that would be anticipated if the funding were at the 
full funded level. So you start to see speeds go down, you see 
fewer households being able to get some of those services, and 
at the same time, your primary lending entity is RUS over at 
USDA.
    RUS has not met its lending maximum for the last several 
years because of the fact that there is so much economic 
pressure that these small broadband providers can't make a 
business case to actually justify the loan, so they're not 
getting the loan approval that they need to capitalize building 
these networks. So you get caught up in a quagmire. And we've 
got a few other lending entities that are out there, RTFC and 
CoBank, but neither one of them are able to justify making a 
loan. So to that end, they're interrelated.
    And I think that is one of the important things about USF 
being fully funded and the ability to get the broadband out 
there, is folks will then be able to capitalize it using some 
of these programs, and USF will be used to ensure that rural 
residents and rural businesses will be able to have affordable 
and comparable broadband services.
    So when you mentioned those agencies, absolutely key. 
Commerce will play a role in terms of NTIA as being the adviser 
to the President on telecom issues. And the White House Office 
of Science and Technology Policy also tends to be a player in 
these discussions. But between the FCC and RUS, you've really 
hit some of the key areas.
    Senator Moran. Let me conclude by asking you to make sure I 
understand what you said. And when you said there is lack of 
resources or there is not enough money----
    Ms. Bloomfield. Right.
    Senator Moran.--what you're talking about is money within 
the USF fund and how it's allocated.
    Ms. Bloomfield. Exactly.
    Senator Moran. And it's not a congressional appropriation 
that we're missing. Now, Congress has some ability, I suppose, 
to influence the FCC and to make some decisions that would make 
RUS more capable of making loans. But the issue here is how the 
USF is managed. Is that correct?
    Ms. Bloomfield. Exactly. So whether Congress chooses to 
play a role and certainly will have a very key voice in that, 
again, the fact that that and the rural health care program are 
the two that are capped, and there are no inflationary factors, 
so you are not even able to grow to current levels.
    And, again, when I think about broadband, talk about a 
program where capacity and need are continually growing, so not 
even having the ability to keep up with what that demand is, is 
going to be really important.
    Senator Moran. Thank you for your answers.
    Ms. Bloomfield. Thank you.
    The Chairman. Very good. A complex question from a complex 
guy.
    [Laughter.]
    The Chairman. Senator Hassan is up next.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair.
    And thank you to our panelists.
    And hello, Governor. How are you? Nice to see you.
    Mr. Mayor.
    I am sorry that I missed a good deal of your testimony 
earlier. We had competing Committee hearings.
    So I wanted to start out with a question to you, Ms. 
Bloomfield, and if you've already touched on it, I apologize. 
But I want to thank you in particular for being here to help us 
grapple with the challenges that rural communities, like so 
many in my state of New Hampshire, face in getting connected to 
broadband. There has been a lot of focus for a long time on the 
digital divide, but it has persisted, and it tends to spring 
urban communities forward while rural communities are held back 
because of their lack of modern technology. I also know that 
the challenge isn't insurmountable, and we need more resources 
and some creative thinking.
    So my question for you is, should an infrastructure bill 
move forward, what would be at the top of your wish list to 
ensure that rural Americans in New Hampshire and across the 
country make strides in closing the digital divide?
    Ms. Bloomfield. Thank you for the question, Senator. And I 
would give it to you probably in about four points.
    Senator Hassan. OK.
    Ms. Bloomfield. One, you've missed a long discussion about 
universal service, but it is key in ensuring it is fully funded 
to provide the resources, number one.
    Two, is there a role for new capital infusion and tax 
incentive programs? Potentially. They would need to be 
coordinated with the FCC, but there is absolutely a role to 
look creatively at some of this.
    Third, streamlining some of the processes. Some of the 
regulatory burdens, things that come out in MOBILE NOW, things 
that will allow companies to move faster with fewer hurdles to 
jump through will definitely be--my companies on average have 
26 employees, they spend about 580 hours a year doing paperwork 
and jumping through hoops. It's a lot when you've got 26 people 
and you really want them out on the road putting that fiber 
into the ground.
    The last thing that I would say is sometimes it's 
connecting the dots, and we see that a lot. I have 850 
carriers. They're amazing. They do great things. Part of it is 
their customers are their neighbors. This is their community. 
But I think we can do a better job as a whole, as an industry, 
as a country, connecting the dots. Where are those communities 
that are unserved? How do we get to them?
    One of the things that we've just initiated with a partner 
of ours is something we kind of call broadbandmatch.com. It's 
how do you take those areas that are really looking for 
infrastructure and connect it to those providers who know what 
they're doing, who can hit the ground running, and might have 
an interest in coming in and actually helping out when they can 
make a business case to do so? So I think there are some 
interesting things we can be looking at.
    Senator Hassan. Thank you. And another question just is, as 
we see transportation systems utilizing safety and other 
technologies, how important is it for us to make sure that 
rural communities can upgrade and access supports for these 
modern transportation systems?
    Ms. Bloomfield. Well, I'm probably the least prepared to 
talk about transportation, so I will defer to my transportation 
experts here.
    Senator Hassan. Excellent. Thank you.
    Ms. Bloomfield. Thank you.
    Senator Hassan. Well done.
    Mr. Braceras. Well done. Yes, it's important that we 
provide those connections to our rural communities. Having 
spent a great deal of my youth in your state, Senator, I'm very 
familiar with New Hampshire. And in the state of Utah, I can 
tell you our rural communities are very concerned that they not 
be forgotten.
    Senator Hassan. Yes.
    Mr. Braceras. They're not as well represented in our 
legislature, they're not as well represented in the big city, 
in Salt Lake City, and so it's getting out and making sure that 
you understand what they need and listening to those 
communities.
    From a transportation perspective, we tend to prioritize 
projects based on things such as traffic and trucks. And when 
they start to see that prioritization process, they start to 
worry about, ``What's there for me?''
    And so what we've done is, we've kind of created a 
different category of prioritization for our rural communities. 
We call it a chokepoint program, and what we try to do is, we 
develop a little bit different criteria. And it's amazing, a $1 
million project in a rural community makes a huge difference, 
whereas you're in the urban area, you're in the ten, twenty, 
thirty million dollars type of a thing. And so it's recognizing 
that it's different, it's no less important, and trying to set 
up a process by which they can compete fairly is what we've 
tried to do.
    Senator Hassan. Great. Thank you. And my time is almost to 
a close, so to Mr. Mayor and the Governor, I just wanted to say 
I'll be following up a little bit because one of the things I 
also want us to focus on is whether there are existing programs 
like TIGER grants, and TIFIA that have been useful in your 
communities, both rural and urban. And part of our discussion 
as we approach this new infrastructure effort, I hope, will be 
to see if we can support existing programs and perhaps fund 
them more because they've been deeply useful in New Hampshire, 
and I assume they have been in these, too.
    The Chairman. Thank you, Senator Hassan.
    Senator Inhofe is up.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. First of all, I 
say to Mr. Braceras, it's nice to see you again since you 
testified before the Committee that I chaired. It was 2 years 
ago, almost exactly 2 years ago. And when I was Chairman in 
that position, as you well know, I was proud to spearhead a lot 
of the permitting reforms, in MAP-21 as well as in the FAST Act 
that we passed.
    In your remarks, you mentioned that there are many 
opportunities to streamline project delivery through updates in 
the Endangered Species Act. In fact, 2 weeks ago, the EPW 
Committee held a hearing on reforming the Endangered Species 
Act. In Oklahoma, we have the American burying beetle, which 
has caused substantial delays in building roads and bridges in 
spite of the numerous conservation efforts by impacted 
stakeholders. It's kind of interesting because we were talking 
about the difficulty it is to delist or reduce a listing. And 
it seems like it's easy to list but very difficult to delist, 
and this is something that we're wanting to change. Have you 
got any suggestions on what Congress can do right now in terms 
of this concern we have?
    Mr. Braceras. Thank you, Senator, for that question. Your 
comment is very on target because, you know, in government, 
it's always easy as we add to programs, but as a government, 
it's really hard to take away. And so that's something that we 
focus on internally, is we ask ourselves, what will we not do 
in order to be able to get to this priority? And, in fact, in 
the 43 years since the Endangered Species Act was enacted, 
there are over 1,600 species that have been listed, but only 47 
have been delisted. So it seems like we're maybe not making the 
progress we wanted to there.
    You know, I think one of the most important things--and 
this is speaking as a state obviously--is that Congress can 
really work to ensure that states are more actively listened to 
and can be involved. We have a good working relationship with 
our U.S. Fish and Wildlife Service, but we don't think they 
completely understand that we care as much or more so about our 
environment in Utah, and we don't need to be protected by U.S. 
Fish and Wildlife.
    Senator Inhofe. Yes, I would have to say that we went 
through the same thing in Oklahoma. In fact, it was about 4 
years ago, I guess, that the Director of Fish and Wildlife, we 
asked them to come by, and on two occasions, we had a hearing 
about that. He came back with a complete mind change, that the 
people who are the landowners have every bit as much, if not 
more concern for the environment and for all of the--and so I 
think that's an observation that's not confined to that.
    Now, also you might address not just endangered species, 
but some of the regulations, the EPA regulations. We have to 
deal with these every time we pass a bill, like we did in the 
FAST Act. What would you say about the problems that come, 
arise, from the overregulations that we are subjected to?
    Mr. Braceras. Well, you know, the people that are 
administering the laws that you passed are well-intentioned 
people. I like to remind them that it's their job to administer 
the law, it's not their job to save the planet from us.
    But some of the things I would say specifically that we 
could look at is maybe looking at transportation conformity. 
And Congress could make several changes to improve our project 
delivery by taking a look at the various cycles that we have on 
what we call our State Implementation Plans, or SIPs, and how 
that lines up with the National Ambient Quality Standards and 
require that the initial transportation conformity does not 
apply until 6 months after EPA approves the SIPs to the motor 
vehicle emission budgets.
    We would ask that you maybe consider excluding marginally 
non-attainment and attainment maintenance from transportation 
conformity requirements since they are in compliance with the 
Clean Air Act. And this is a sore point for Utah. We have some 
geography that creates a challenge for air quality. We live in 
a--most of our population lives in a basin, and so our 
atmospheric and our geography create a challenge where we are 
not in conformity on an air quality issue. We would like for 
those types of factors to be taken into account when they make 
these determinations.
    Senator Inhofe. Yes. Well, you know, I think we did that. I 
know in the FAST Act, and at that time I was chairing the 
Committee, on the Environment and Public Works Committee, and 
Senator Boxer even agreed to some of these changes and it made 
a huge difference in terms of miles that we could construct, 
and we are doing that.
    My time is about expired, and I wanted you to just get on 
record saying something about the spectrum. In your testimony, 
you highlighted the need for preserving spectrum and the need 
to expand rural broadband to support the implementation of 
autonomous vehicles. Any comments you want to make about that 
to expand on that?
    Mr. Braceras. We think we are right at the forefront right 
now of being able to realize the tremendous benefits from these 
tremendous new vehicles that we have, the autonomous and the 
connected vehicle, and the DSRC spectrum is critical for us to 
be able to allow our vehicles to talk to each other and to the 
infrastructure. So we ask that Congress protect that spectrum 
to be able to preserve this opportunity to realize these 
benefits.
    Senator Inhofe. Thank you. It's nice to have you back in 
the Committee here.
    Mr. Braceras. Thank you.
    Senator Inhofe. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Inhofe, and your good work 
on the last highway bill, which is now law.
    My neighbor to the south on Highway 83, Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman. I appreciate you 
having this hearing today.
    Ms. Bloomfield, as you know, in 2011, the FCC committed to 
create Remote Areas Fund. That was to provide broadband to 
areas of the country that are really the costliest and they are 
the most difficult to serve. And yet to date, the FCC is not 
taking what I would call substantial steps to implement the 
Remote Areas Fund.
    What's your understanding of the status of that fund at the 
FCC? And do you think that they should continue working toward 
implementing a fund? Or is this something that maybe Congress 
should look at including in an infrastructure project, a bill 
that moves forward here?
    Ms. Bloomfield. Thank you for the question, Senator. And 
your interest in rural broadband has really been critical to 
moving this. All of these programs are so--the universal 
service programs are so interrelated.
    So one of the interesting things about the Remote Areas 
Fund has been obviously, as with everything, I feel like a 
broken record, but it is lack of funding, it's lack of 
resources that are in that program. The interesting thing is 
that there is actually less of a need in some of those really 
remote areas as you--if we could fully fund some of these other 
programs, it will allow carriers to build further and further 
out into their networks and to provide services at higher 
speeds, thereby reducing the number of folks that you actually 
are going to have to meet with the Remote Area Fund, but there 
will always be parts of this country, I think there are a lot 
of these parts that our folks serve, that are already 
uneconomical. There are going to be some areas that are just 
astronomically difficult to build out to. So there will always 
be a need.
    I think that the Remote Area Fund has kind of found its way 
kind of on the bottom of some of the other reforms that have 
come through. So we remain very hopeful.
    I think, Chairman Pai again is very focused on rural areas 
and rural infrastructure. So my guess would be you'll hear next 
week probably more from him about their intentions on that 
fund. But as with everything, it's kind of like all boats rise.
    As you can kind of move some of that infrastructure out and 
build it further out, you'll get more of those citizens 
connected, and then we'll have the ability to figure out, what 
is the right size for that Remote Area Fund?
    Senator Fischer. OK, thank you. I'm going to ask you about 
another fund now.
    Ms. Bloomfield. OK.
    [Laughter.]
    Senator Fischer. The Connect America Fund.
    Ms. Bloomfield. Right.
    Senator Fischer. And we're looking at a commitment by the 
FCC of $4.5 billion per year to support the deployment in rural 
areas. Do we need all these funds? You know, when you talk 
about this fund and that fund and the overlap, and we're doing 
this, we're doing that----
    Ms. Bloomfield. Right.
    Senator Fischer.--every single one of them I think has good 
intentions, but when we're looking at shortfalls, how do we 
bring it all together to make sure that we are going to get the 
services needed?
    Ms. Bloomfield. So your point is well taken. There are a 
lot of universal service funds under the umbrella. You've got 
the High Cost Fund, which you referenced, which is part Connect 
America Fund, which primarily has gone to initially to the 
price cap carriers that are out there, which are the larger 
carriers that are not my membership. And then a portion of that 
fund is the High Cost Fund, which goes to the smaller rural 
providers. So you've got that piece of it.
    You've also got the program that provides Lifeline and Link 
Up, which is a USF program for low income. You have the E-Rate 
that will provide support to schools and libraries. You talk 
about Remote Area Funds, but there is also talk about tribal 
support. So you've got a lot of things under one umbrella that 
all do very specific things.
    When I think about the High Cost Funds, so I think about 
$4.5 billion, and that is everybody, that is from AT&T down to 
the smallest cooperative, in terms of the ability to build out 
broadband where it's affordable for rural residents, that is 
where universal service is really, really important, and when 
you----
    Senator Fischer. So we just--we--I hate to interrupt----
    Ms. Bloomfield. Oh, no, please do.
    Senator Fischer.--but I'm running out of time. So we can--
we need to make sure we have funding available.
    Ms. Bloomfield. Funding is critical.
    Senator Fischer. Because these funds are important.
    Ms. Bloomfield. Absolutely. And not to confuse one more 
thing, but there is now the CAF II fund. That one is going to 
be very interesting because that's going to go to the areas 
where carriers have chosen not to take it.
    Senator Fischer. Thank you. Thank you. And I wanted to ask 
the Director a question. I missed your comments about Utah with 
your state exchange that you have there and point out that I 
happen to have a bill, the Build USA Infrastructure Act, that 
really showcases what we're doing in Nebraska with that program 
as well, and it is successful in the states, and I think we 
need to use it at the Federal level.
    Also, I wanted to ask you that in your written testimony, 
you had stated that Utah is going to assume the Federal NEPA 
process for transportation projects. And Nebraska is also 
working with the Federal Highway Administration on that. And 
just I'm out of time, but could you just say a couple benefits 
that you have seen to your state through doing that?
    Mr. Braceras. Yes. Thank you, Senator, for the question. We 
have finally signed off with the Federal Highway Administration 
on NEPA Assignment. We're very excited about it. And we see 
this as primarily too many times as a state DOT, we would say, 
as we're doing an Environmental Impact Statement, we would say, 
``Those feds won't let us do this,'' we blame them. And so what 
I tell my folks is now we take responsibility for decisions.
    We're now the decisionmaker on NEPA Assignment. We would 
ask that--we believe there are some streamlining opportunities 
with the process that it's taken to get to this. It took over a 
year to be able to get a signed document with Federal Highway 
Administration on this. And the audit requirements that have 
been imposed are significant. But we're very excited about 
this. We believe it's going to make us more responsible, and we 
believe we're going to be able to move the process along 
faster, and we're still going to be able to protect the 
environment and our communities.
    Senator Fischer. OK. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Fischer.
    Senator Cortez Masto is up next.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. I apologize for being in 
and out. So some of what I might say may be a repeat of 
questions that have already been asked.
    But, first of all, let me just say to the Director, you 
mentioned autonomous vehicles and unmanned aerial systems. I'm 
from the great state of Nevada, and as you well know, in your 
written testimony, you highlighted what we are doing there, so 
thank you for that, that plug for the state. But I think what 
I'm getting from your comments, both written and today, is that 
you agree that the West has great potential to host research 
and testing and development and manufacturing for future 
opportunities for this type of technology to improve safety. Is 
that correct?
    Mr. Braceras. Absolutely, Senator. In fact, I attended--I 
was on a panel at the Consumer Electronics Show, down in Las 
Vegas in January, where I was participating with a gentleman 
that had a company that was 3D printing autonomous vehicles, 
and he said 40 percent of that vehicle was 3D printed, and in 
two years' time, 90 percent of it would be printed with 3--
would be 3D printed. And the point he was making is we're 
moving from a major manufacturing to micromanufacturing, and 
that manufacturing sites were going to be able to be much more 
dispersed around this country.
    The opportunities that we have in front of us with the 
technology that's happening right now is absolutely going to 
save lives. It's going to make our mobility so much better. And 
Nevada is one of the states that's leading in this area. You 
have actually licensed a driver, a handicapped driver, to use 
an autonomous vehicle in the first state in the country to do 
that.
    Senator Cortez Masto. Thank you. I appreciate that. And 
then just recently I had the opportunity to speak to some 
incredible residents from our rural communities who have 
concern about rural broadband. So, this is a question both for 
the Governor and Ms. Bloomfield. I wasn't here, and I 
understand, Governor, you talked about the challenge with 
public lands.
    In Nevada, 84 percent of our lands are public lands, and 
the challenges we have there not only with bringing the 
broadband there, but also I would like more discussion from 
you, if you would, on additional challenges that we see. I will 
tell you, one thing that they highlighted to me is just the 
fact that it is also a challenge to get the telecom equipment 
there: the translators, the towers, easements with public 
lands.
    Do you mind commenting on how we can tear down some of 
those barriers and address some of those additional issues that 
we see in rural communities? And let me just say this--she's 
going to hate that I pointed her out--but my college roommate 
lives in Elko, Nevada, and when she wants to watch a movie on 
Netflix, she has to tell everybody in the family to get off the 
Internet so they can watch a movie streaming without 
interruption.
    That's what's happening in our rural communities, and it is 
so important to bring broadband not just to grow the economy, 
but to bring telemedicine, to bring education, to bring 
behavioral services. That's one of the things why I want to 
highlight, how do we incentivize companies to come out there as 
well? Because I know P3 doesn't work in those communities, and 
private equity.
    So, I would love your thoughts on how we incentivize also 
companies to come out and help us bring those services to our 
rural communities.
    Ms. Bloomfield. All right. I'll take the first crack at 
that, Senator. Thank you very much. And you raise--you know, as 
we're talking here today and talking about Congress potentially 
doing an infrastructure package, that is where I think I look 
at, how can Congress do something that will help leverage the 
FCC and the universal service programs to actually provide 
additional resources to those areas that are very difficult to 
reach and that are underfunded? That will help in some of those 
cases.
    You also raised some of the bureaucratic issues. For 
example, in the state of Wyoming, I have a company that in the 
state of Wyoming, the Bureau of Land Management, BLM, is 
actually looking at doing--requiring bonding as you go across 
Federal land. Well, we get it, that's for oil, you know, and 
some other potential environmental disasters. For a small telco 
to have to go through that process, really onerous. Railroad 
crossings, pole attachments, local easements, all of those 
things are burdens that just make it very difficult.
    And you're in a state where Federal lands are far and wide, 
and if you're bringing a fiber optic network out there, you're 
doing a lot of crossing. And so it's not just the cost, but 
it's the regulatory burdens on top of that. So there are some 
ways that I think particularly Congress can jump in and play a 
really critical role.
    And, you know, as Carlos was talking about, you know, all 
this great infrastructure and all the great things you can do, 
and you talk about wireless, all of--you know, wireless needs 
wires, so you still need that fiber network. And as we all get 
excited about 5G, that is going to need a lot of fiber out 
there, and you're going to need to be able to cross a lot of 
land to do it, and you're going to have to be able to access 
it.
    The other challenge, for example, my guys have with fiber 
is they're last on the list. The larger carriers will be the 
first to actually have access to the equipment. And if you're 
providing services in a state like Montana or North Dakota, 
you've got a really short window where you can do some of your 
builds, so----
    Governor Daugaard. Thank you for the question, Senator. I 
don't profess to be an expert in broadband by any means. I do 
profess to be an expert in living in rural states, I've done 
that all my life, but it is a challenge in some of the remote 
rural areas of South Dakota. In the western part of our state, 
we have a lot of public lands; in the east, not so much. 
Crossing public lands and the easement and the ability to do so 
is a challenge in some areas.
    Our local telecoms, our rural co-ops, have banded together 
and created some fiber rings in South Dakota, so they've been 
attentive to economy of scale in that way. I think the 
government, both at the State level as well as Federal, can be 
a partner with creating some basic infrastructure, and then if 
we can get fiber close by some of these smaller communities, 
then it might make economic sense for some of the rural 
telecoms to invest and be able to recover their investment from 
the folks who live in those smaller communities.
    Those folks like your friend who live maybe out in the 
country by themselves, it's a bigger challenge. I'm one of 
those folks, too. I live out in the country when I'm not being 
the Governor of South Dakota, and we have I'd say OK broadband. 
It's not the best, but it's OK.
    And I'm hoping that some of the technology advancements 
will give us a jumpstart over the cost that it apparently is 
the cost that we see today to bring fiber and to bring wireless 
to some of those very remote areas. Again, I don't have any 
answers, but I know it's a challenge and I know it's something 
consumers want very much.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Moore Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman. And thank all of 
you for being here. It's really important to all of our states.
    I'm going to go to broadband first, which I know we've been 
talking a lot about it. Our state of West Virginia ranks 48th 
in the Nation in broadband deployment, with over 30 percent of 
our citizens not being able to get broadband services. And so I 
came up with a Capito Connect Plan--nice little jingle there--
to try to shine a light on this. I mean, we have a business in 
Wayne County, West Virginia, who sells--a small business, sells 
handmade and imported church goods and homemade soap products, 
the Holy Cross Monastery. They had to pay $150,000 to try to 
get their Internet to a serviceable way to provide because they 
have a large customer base. But that's not the only one. There 
is also Chef Eric Hott in Rio, West Virginia, who sells 
products, and he has now suffered loss over loss because he 
can't get the connectivity that he needs.
    So we know it has the economic development issues. As Ms. 
Bloomfield will know, Hardy Telecommunications is a good 
example of a rural telecom that's really spread its wings and 
has helped a lot in our rural areas, and I would like to see 
more significant investment in that.
    My question is--and I think Senator Klobuchar mentioned a 
Senate Broadband Caucus, Rural Broadband Caucus, and I want to 
thank--invite anybody to join. Everybody has rural areas, no 
matter how rural or urban your state is, it's very important.
    But I guess I would just like to get on the record from 
you, Ms. Bloomfield, what else, besides economic development, 
can rural broadband and can robust broadband bring to a 
community, urban or rural, in your all's opinion?
    Ms. Bloomfield. Well, Senator, in your leadership on the 
Senate broadband caucus, you know intimately well, particularly 
things like telemedicine and some of your leadership in that 
area, there are some amazingly innovative things, and there's a 
ton. We can talk about what you can do with border security 
with broadband, we can talk about public safety.
    I look at education and I look at telemedicine, and I think 
those are really--when you think about rural demographics, you 
think of a lower income population, an aging population. What 
can we do to allow people to age in place? They want to stay in 
their rural communities, but it's really hard. It's hard. I 
have elderly parents. It's hard when you're not sure, did they 
take their medications today? The ability to use broadband to 
actually be able to monitor their activities, monitor their 
health care, and bring some of these services closer to where 
people are can be revolutionary.
    We're actually trying to get a project up and running with 
VA in Kentucky to do some telemedicine with local vets in a 
small community where it's a 3-hour drive to the local VA 
center. The ability for people to not only be able to do 
diagnostic work, but to do mental health resources, to do their 
paperwork, things that we take for granted, the ability to go 
online and complete those, are huge.
    So I think there are some amazing things that can really 
not only add to the economic vibrancy of rural America, but 
really the quality of life, and that's really important.
    Senator Capito. Right. I mean, I was just at Mineral County 
Middle School and asked for a show of hands within the student 
population, there were probably 80, 80 people, 80 young 
students, fifth graders, there. Half of them--I said, ``Who has 
trouble when they go home getting service?'' and half of them 
raised their hands. So you send them home with an assignment, 
they're going to be behind.
    Ms. Bloomfield. Right.
    Senator Capito. I would like to just make a comment that I 
think is important, too, in this area, is we've heard a lot 
about the states having different regulatory issues, not just 
in broadband, but in transportation and everything. If it 
doesn't already exist, I would think that any State legislature 
would welcome--and Governors--states' best practices where you 
can really work with your power company and others to be able 
to site any kind of fiber and deployment. So if that doesn't 
exist, I would encourage either through the National Governor's 
Association or somebody to come up with this because I think 
the legislatures around the country are wanting to know how to 
best solve this problem.
    Governor, I would like to ask you a question. Just quickly, 
you mentioned again being from rural states, that the private--
this is something that has concerned me, that the private 
sector part of an infrastructure package that the President 
might be putting together could be problematic for a rural area 
because you don't have the dollars, you don't have the 
population, you don't have the paybacks. You can put a toll 
road out in the middle of nowhere when you're not going to 
generate the revenues.
    What is the solution to that? Is it further bonding by the 
states to be able to match dollars? Is it just straight-out 
Federal funding? I mean, I think that's going to be probably a 
nonstarter. You would figure that, too, as a Governor. So just 
some thoughts there.
    Governor Daugaard. Well, I think you've said it well. It is 
true that private-public partnerships probably won't work well 
in rural states, especially for highways. We just don't have 
the traffic volume to generate payback to the investors.
    Senator Capito. Right.
    Governor Daugaard. Tax credits really are about the same 
way. You're not going to have private investors looking for tax 
credits because they want investment return as well.
    Senator Capito. Right.
    Governor Daugaard. They just don't want tax credits alone. 
So I don't presume to prioritize for you where your funding is 
going to come from, but it really boils down to direct formula 
funding.
    The FAST Act is a good pattern, I think, that Congress came 
up with, and we're pleased with it in South Dakota. Getting the 
FY17 budget in place will help see some of those dollars that 
are held up by the Continuing Resolution. And we think it also 
preserves the good rural-urban balance, and that's something 
that we're afraid of if you go to discretionary funding or 
other patterns. Rural states generally don't fare well in those 
situations. We would rather have straight formulas, let the 
states prioritize the state projects. We're close to the 
ground. We know what's more important and what's secondary and 
what's tertiary, let us prioritize them.
    Senator Capito. Right.
    Governor Daugaard. And the systems for implementing and 
spending the money are already known and in place.
    Senator Capito. Right. I think--and I'll finish up here. I 
think Mr. Braceras mentioned in his comments if we could sort 
of more lump sum it down to the states rather with all the 
different pots that's created would give you the flexibility 
that you need. It sounds like a good idea to me. Thank you, 
sir.
    The Chairman. Thank you, Senator Capito.
    I have Senator Young, Senator Duckworth, Senator Johnson, 
and Senator Blumenthal.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. So thank you, Chairman. That last line of 
inquiry was a nice pivot to some questions I have. So I hail 
from the state of Indiana, the ``Crossroads of America.'' We 
are the hub of several major interstate highway systems. My 
colleagues have heard me put forward that moniker before, and 
it won't be the last time. And so we have a real interest in 
making sure we come up with sustainable ways to fund our 
surface transportation and to finance them where that's a 
possibility. And we have a diverse mix of rural and urban and 
everything in between in our state, like so many others.
    We know that the FAST Act expires in 2020, and one would 
hope that would prompt this body to consider additional 
financing options to maintain the solvency of the Highway Trust 
Funds. CBO projects the cumulative annual deficit to those 
funds will approach $140 billion by 2027. So Congress we know 
must begin this debate in earnest now to avoid our historic 
reliance on General Fund transfers.
    Mr. Braceras, the National Surface Transportation Policy 
and Review Study Commission proposed that we establish an 
independent commission similar in nature to the Postal 
Regulatory Commission to develop a national strategic plan for 
transportation investment and related revenue adjustments. 
Could you perhaps speak to the potential benefits of adopting 
this approach and having specific legislative recommendations 
come from that independent commission focused on financing and 
funding options?
    Mr. Braceras. Thank you, Senator. There have been several 
commissions that the Congress has authorized in the past----
    Senator Young. Right.
    Mr. Braceras.--that have done very good work and have 
provided, I think, some good recommendations. I am always a fan 
of bringing together smart people with a very focused goal and 
asking them to brainstorm and come back with ideas. So I think 
it can be nothing but--we can see nothing but benefit from that 
type of an approach.
    I'm a strong believer that we need to provide--you know, we 
need to know the difference between revenue and financing, and 
we need to have both, but we need to have adequate revenue and 
we need to have ongoing revenue, and I believe that needs to be 
tied, there needs to be a tie to a user base.
    For the public to be able to understand what they're 
getting, they have to understand the impacts that they're 
causing. I like to think of if we were to think about funding 
our transportation system the same way we fund utilities right 
now, I think we would have a more serious conversation about 
the actual users paying for the actual use and impacts that 
they're having. So we believe, I believe, that having an 
approach, the same approach as we have to utility funding, 
might be a useful thing to think about.
    One of the things that we're doing in the West that I think 
is important is we have, out of the 18 western states, we have 
about 11 of us now working together on what we call Western 
RUC. It's a road user charge program. So it's basically looking 
and doing pilot studies on road uses charges, paying by vehicle 
mile.
    As we see the increased vehicle efficiency, which is a 
really good thing, we want to see that----
    Senator Young. Yes.
    Mr. Braceras.--we're starting to see revenues declining. 
And so we have to establish a clear national goal. What are we 
trying to establish with our national transportation system? We 
need to--and then fund that with long-term sustainable----
    Senator Young. I'm going to interject and thank you for the 
thoughts. I think the utility sort of construct is a useful way 
to think about this.
    We also should consider, though, a model like that as 
you've got a user fee of sorts, whether there might be social 
benefits to--and therefore we should socialize the cost of some 
of these rural investments. I think that's a serious 
conversation for us to have as well.
    I'm going to pivot very quickly to a different topic. It's 
rail safety. In your testimony, Mr. Braceras, you very briefly 
discussed obstacles confronting inner-city passenger rail, also 
very important to my state. Last year, the Federal Rail 
Administration issued a regulation, it's the System Safety 
Program, which inhibits inner-city passenger rail services, 
such as the Hoosier State Rail.
    Implementation of this rule, whose impact on safety is 
debatable, could be really detrimental to the continuation of 
my state's rail line, which connects Indianapolis to the 
Chicago metropolitan area. And maybe you could speak to the 
unintended consequences of what I would perceive as a 
suboptimal rule and the impact it could have on vital rail 
corridors, such as then in my state.
    Mr. Braceras. Yes. Yes.
    Senator Young. In 30 seconds or less.
    Mr. Braceras. Thirty seconds or less. We believe that 
service sponsors need not to be classified as railroads. I 
think that's what it comes down to right now. Service sponsors 
are mostly planning organizations. They're not set up to have 
the safety oversight that FRA is asking them to do. So if there 
can be a redefinition to not allow safety--surface sponsors to 
not be classified as a railroad, we think that would go a long 
way in addressing those issues, Senator.
    Senator Young. That was very helpful. Thank you so much. 
And I will yield to my good colleague from the state of 
Massachusetts, if he would appreciate being yielded to. Mr. 
Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you. I very much appreciate the 
opportunity. Thank you all for being here.
    The E-Rate program. The E-Rate program is a program that is 
now 20 years old. I am the House author of it in the 1996 
Telecom Act. What it does is it provides $4 billion a year for 
Internet access for rural schools, for inner-city schools, for 
libraries. That's how in many instances many of these schools 
are able to be online. When that law passed, only 14 percent of 
classrooms had Internet access. And you know the communities 
that have it, the wealthier communities, right? So if you're 
going to democratize access, if you're going to close the 
digital divide, then you need programs like that.
    So, Mr. Bloomfield--Ms. Bloomfield rather, does NTCA 
support the E-Rate program?
    Ms. Bloomfield. So NTCA has long been a proponent of 
ensuring that every school and library has access to 
sustainable and affordable broadband. You know, in our 
communities, our schools are the lifeblood, and the folks who 
run my small communication providers, their kids go to those 
schools, their grandchildren go to those schools. So it's 
really, really important to ensure that that rural fiber gap is 
filled. It's really important.
    Senator Markey. Would you oppose cuts in the E-Rate 
program?
    Ms. Bloomfield. The only concern we would have, Senator, is 
when E-Rate money is used to overbuild existing fiber. So we 
look at that and say if you've already got a school, a rural 
school, that has a fiber network--in most of my communities, 
it's one of their anchor institutions. So to use that money 
that can go so much further to actually ensure affordability 
for these schools to actually build their own fiber network, we 
think that's inefficient. When you've already got that fiber 
connection, to have two fiber connections, one supported by two 
different universal service programs, I would take issue with 
that. But I think the core of the E-Rate program remains to be 
critical.
    Senator Markey. Apart from that, you would wholeheartedly 
support E-Rate?
    Ms. Bloomfield. We are----
    Senator Markey. Yes.
    Ms. Bloomfield. We are supportive.
    Senator Markey. OK. Great. Any other comments on E-Rate?
    Ms. Bloomfield. Nope. That is all I have to share with you.
    [Laughter.]
    Senator Markey. OK. Great. Thank you.
    We have more than 60 Mayors representing communities across 
the country who have sent a letter to the President and 
Congressional leaders calling for broadband investment to be a 
part of the infrastructure package. We have the letters that 
are here. And I ask unanimous consent, Mr. Chairman, that these 
letters be included in the record.
    Senator Johnson. Without objection.
    [Laughter.]
    [The information referred to follows:]

                                        Next Century Cities
                                                      March 1, 2017

Hon. Donald J. Trump

Washington, DC.

Hon. Mitch McConnell

Washington, DC.

Hon. Paul Ryan

Washington, DC.


Dear President Trump, Majority Leader McConnell, and Speaker Ryan:

    Broadband Internet access is necessary infrastructure, and key to 
prosperity. It empowers entrepreneurship and economic growth, arms our 
teachers and students for success in the classroom, and gives our 
citizens a voice in the national dialog on our future.
    That is why we, the undersigned representatives from 62 cities and 
counties across the nation, call on you to include broadband in any 
infrastructure legislation.
    We are all part of Next Century Cities, a nationwide, non-partisan 
and non-profit membership organization of mayors and local government 
leaders who are committed to achieving better, faster, more affordable 
broadband Internet access. As mayors and municipal officials, we have 
each championed access for our residents to high-quality broadband in 
ways that are right for our communities. We are eager to have the 
Federal Government take steps in an infrastructure package that will 
truly increase Internet access for millions of Americans, and do so in 
ways that recognize the importance of local leaders in making these 
lofty plans a reality in our towns and cities across America.
    Specifically, we call on you to ensure the following principles are 
included in any Federal infrastructure plan:

  <bullet> Promote Broadband Access. Seventeen percent of Americans 
        (and some 53 percent of rural Americans) lack broadband 
        access.\1\ There is an urgent need for increasing last-mile and 
        middle-mile fiber networks to bring connectivity to all 
        Americans. As such, Congress should consider preferencing 
        proposals from communities that have taken steps to facilitate 
        right of way access through policies such as One Touch Make 
        Ready and Dig Once. Similarly, Congress should consider 
        preferencing state applications for funding in states that have 
        eliminated unreasonable barriers to local Internet choice.
---------------------------------------------------------------------------
    \1\ See 2015 Broadband Progress Report at https://www.fcc.gov/
reports-research/reports/broadband-progress-reports/2015-broadband-
progress-report

  <bullet> Promote Broadband Affordability. The price of connectivity 
        strains household budgets, putting Internet access out of reach 
        for too many Americans. Competition will drive down costs, so 
        any infrastructure plan should include incentives for new 
---------------------------------------------------------------------------
        market entrants and overbuilders.

  <bullet> Promote Local Solutions for Broadband. As we show, city 
        governments have been leaders in designing their own networks, 
        implementing public-private partnerships, and leading the way 
        with new multi-provider, open-access delivery models. Any 
        infrastructure plan should include funding for these 
        arrangements. Solutions should include nonprofit models, 
        especially including telephone and electric co-ops.

    We believe the Internet is nonpartisan and that collaboration 
benefits all. As such, we encourage you to learn from local voices like 
ours, and we look forward to working with members of both parties to 
ensure policies that promote greater access and increased deployment of 
next-generation broadband in any infrastructure legislation.
            Sincerely,

 
 
 
Mayor Dana Kirkham                   Mayor Norm Yoder
Ammon, ID                            Auburn, IN
 
Mayor Steve Adler                    Mayor Ben Kessler
Austin, TX                           Bexley, OH
 
Mayor John Hamilton                  Mayor Mike Henry
Bloomington, IN                      City Manager Gary Williams
                                     Carbondale, IL
 
Mayor Paul Cutler                    Mayor Deborah Frank-Feinen
Centerville, UT                      Champaign, IL
 
Mayor Jennifer Roberts               Mayor Andy Berke
Charlotte, NC                        Chattanooga, TN
 
Town Manager Bernard Doyle           Mayor Dorothy Knauss
Chesterton, IN                       Chewelah, WA
 
Mayor Kim McMillan                   Mayor Gary McCullough
Clarksville, TN                      Dahlonega, GA
 
Mayor John Woods                     Mayor Lioneld Jordan
Davidson, NC                         Fayetteville, AR
 
Mayor John J. Collins                Mayor Don Boeder
Fountain Valley, CA                  Gaylord, MN
 
Mayor Robert Bruchey                 Mayor Barbara Delgleize
Hagerstown, MD                       Huntington Beach, CA
 
Town Manager Janet Anderson          Mayor Jerry Gist
Islesboro, ME                        Jackson, TN
 
City Councilman Steve Quinn          Mayor Mark Holland
Jefferson, GA                        Kansas City, KS
 
Mayor Sly James                      Mayor-President Joel Robideaux
Kansas City, MO                      Lafayette, LA
 
Chair of the Select Board Peter      Mayor Jim Gray
 d'Errico                            Lexington, KY
Leverett, MA
 
Mayor Greg Fischer                   Mayor John Giles
Louisville, KY                       Mesa, AZ
 
Council Vice President Hans Riemer   Mayor Rex Swanson
Montgomery County, MD                Montrose, CO
 
Mayor Gary D. Chesney                Mayor Jill Boudreau
Morristown, TN                       Mount Vernon, WA
 
Mayor David Narkewicz                Mayor Gary Fuller
Northampton, MA                      Opelika, AL
 
Mayor Greg Scharff                   Mayor James Carter
Palo Alto, CA                        Pikeville, KY
 
Mayor Ted Wheeler                    Mayor Nancy McFarlane
Portland, OR                         Raleigh, NC
 
Mayor Jim Barnes                     Mayor Rusty Bailey
Richmond, KY                         Riverside, CA
 
Chief Executive Officer Jay Orr      Mayor Sherman P. Lea, Sr.
Riverside County, CA                 Roanoke, VA
 
Town Manager Richard C. Bates        Councilman Ron Nirenberg
Select Board Chair William Chapman   San Antonio, TX
Rockport, ME
 
Mayor Edwin Lee                      Mayor Pauline Cutter
San Francisco, CA                    San Leandro, CA
 
Mayor Bill King                      Board of Supervisors Vice Chair
City Council President Jeremy         Zach Friend
 Pietzold                            Santa Cruz County, CA
Sandy, OR
 
Mayor Cynthia Chase                  Mayor Ted Winterer
Santa Cruz, CA                       Santa Monica, CA
 
Mayor Gary R. McCarthy               Mayor Ed Murray
Schenectady, NY                      Seattle, WA
 
Mayor Patricia Smith                 Mayor David Martin
South Portland, ME                   Stamford, CT
 
Mayor Stephanie Miner                Mayor Laurel Prussing
Syracuse, NY                         Urbana, IL
 
Councilmember Jack Burkman           Mayor Shari Cantor
Vancouver, WA                        West Hartford, CT
 
Mayor Kelly Pierson                  Council Vice President Brian Housh
Winthrop, MN                         Yellow Springs, OH
 

                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 
                                 ______
                                 
                  Fiber to the Home (FTTH) Council Americas
                                          McLean, VA, March 8, 2017

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    On behalf of the Fiber to the Home (FTTH) Council Americas,\1\ I 
submit these written comments in response to the Committee's March 1 
Hearing on ``Connecting America: Improving Access to Infrastructure for 
Communities Across the Country.''
---------------------------------------------------------------------------
    \1\ The FTTH Council is a not-for-profit association whose mission 
is to accelerate deployment of all-fiber access networks by 
demonstrating how fiber-enabled applications and solutions create value 
for service providers and their customers, promote economic 
development, and enhance quality of life. The more than 250 members of 
the Council represent all areas of the broadband access industry, 
including service providers of all types and hardware and software 
equipment vendors.
---------------------------------------------------------------------------
    Consumers and communities around the country understand that all-
fiber broadband networks are critical infrastructure for the 21st 
century. That is why they are rapidly leaving their slow-speed services 
and clamoring to have access to all-fiber networks. And, at the 
Council, we believe, just like you, that all Americans, the maximum 
extent, should have access to these robust, future-proof networks. 
Quite simply, consumers and communities that have all-fiber networks 
will thrive; those that do not will suffer.
    Deploying all-fiber networks, particularly in remote areas, can be 
daunting, and in areas where private investment is not sufficient, 
Federal and state governments should step in. Targeted, efficiently 
distributed subsidies, of course, are useful, but there are many other 
actions that the Federal Government can and should take to facilitate 
this investment that do not involve adding additional funding.
    The Council recommends that the Federal Government proscribe two 
actions: (1) an online broadband deployment handbook; and (2) an 
interagency broadband deployment consulting service to assist providers 
in navigating Federal permitting policies and procedures and accessing 
Federal funding resources.
    First, the Administration should develop an online Federal 
broadband deployment handbook that can serve as a one-stop shop for 
prospective broadband infrastructure projects, including at least the 
following four components:

  <bullet> A Roadmap for Accessing Federal Funding. The handbook should 
        include an easy-to-use roadmap of all Federal resources 
        available for funding different aspects of broadband 
        infrastructure deployment--from developing feasibility plans 
        through actual construction. The Council has developed a 
        similar guide as a part of its Community Toolkit, which 
        provides local communities with information about Federal 
        funding which can be used to deploy all-fiber networks.

  <bullet> Clear Instructions for Permitting. While the existing 
        Federal Dashboard contains information about permitting, this 
        information can be overwhelming for small providers and 
        communities. The handbook, therefore, should have clear 
        instructions that enable providers and local communities to 
        understand the permitting process that governs access to 
        Federal assets, such as poles, ducts, conduits, and other 
        rights of way.

  <bullet> A More Complete Broadband Map. The handbook should include a 
        more complete national broadband map that providers and local 
        communities can use when applying for funding or permits. This 
        map should denote all underserved and unserved areas, as well 
        as Federal assets that providers could use to expedite 
        deployment, such as highway conduit and Federal buildings.

  <bullet> Best Practices for Local Communities. The handbook should 
        also include a collection of best practices that local 
        communities can leverage to improve the business case for all-
        fiber deployments. The FTTH Council Community Toolkit seeks to 
        provide strategies to enable communities to lower barriers to 
        fiber deployment by gathering information about existing 
        infrastructure, assisting providers with gaining access to 
        rights of way, and facilitating permitting, construction, and 
        maintenance processes.\2\ Most importantly, creating such a 
        compilation is the work that Chairman Pai has recognized as the 
        mission of his proposed Broadband Development Advisory 
        Committee.\3\
---------------------------------------------------------------------------
    \2\ See FTTH Council, Community Toolkit, http://
toolkit.ftthcouncil.org/.
    \3\ https://www.fcc.gov/document/chairman-pai-forms-broadband-
deployment-advisory-committee
---------------------------------------------------------------------------
    Second, the Executive Branch should re-establish an interagency 
consultancy to assist communities and providers--particularly smaller 
entities--in understanding and navigating the Federal permitting 
process and available Federal funding sources for broadband 
infrastructure deployments. This consultancy will complement the online 
handbook by enabling interested parties to work with the Executive 
Branch to develop strategies and leverage Federal resources to build 
networks in a more cost-effective and timely manner. Based on their 
unique expertise in facilitating and funding broadband builds, the 
Council proposes that this consultancy be housed within either at the 
National Telecommunications and Information Administration or Rural 
Utilities Service.
    Finally, where the Federal Government decides to provide direct 
subsidies for broadband builds in unserved areas, it should ensure they 
are future proof and scalable. There is a strong undercurrent in 
today's Federal funding discussions that consumers in unserved areas 
are so desperate for broadband and will settle to for second class 
service. But, consumers in these remote areas can already receive low-
speed satellite delivered broadband. What they need is access to higher 
performance broadband that will enable them to be full participants in 
our economy and society. Accordingly, Federal agencies should be 
empowered to fund broadband that, within appropriate cost boundaries, 
providers consumers in unserved areas with the network technology that 
will give them service reasonably comparable to urban consumers over 
the longer term.
    The Council appreciates that you recognize that broadband 
infrastructure is critical to our country's economic future, 
particularly in our rural areas. As experts in such infrastructure 
deployment, we stand ready to engage with the Committee to design 
mechanisms to maximize this investment for all Americans.
            Very truly yours,
                                      Heather Burnett Gold,
                                                 President and CEO,
                                    Fiber to the Home Council Americas.
                                 ______
                                 
                                      National Urban League
                                        New York, NY, March 9, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate ,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    As President and CEO of the National Urban League, and on behalf of 
its 88 affiliates in 36 states and the District of Columbia, thank you 
for holding this important hearing on ``Connecting America: Improving 
Access to Infrastructure for Communities Across the Country.'' The 
National Urban League (NUL) approaches this issue from the lens of 
inclusion and equity, given that the employment and economic 
opportunities available in infrastructure investments are especially 
compelling for African Americans and other minorities.
    The National Urban League is committed to an infrastructure action 
plan that aims to thwart the critical economic and digital divide in 
urban and other underserved communities. In the area of surface 
transportation construction, we know that these projects provide access 
to well-paying jobs and, if accessed, can bring economic relief to the 
unemployed and under-employed. Yet, research <SUP>i</SUP> has shown 
that low-income workers, women, people with disabilities and 
communities of color are vastly underrepresented in transportation 
sector jobs when compared with their overall participation in the 
workforce. This represents a missed opportunity for connecting these 
communities to quality jobs, especially given the good wages and 
benefits that often accompany transportation work. In addition to the 
workforce perspective, the National Urban League is also committed to 
insuring that minority-owned businesses have fair and equitable access 
to the business side of any infrastructure/surface transportation 
investment plan.
---------------------------------------------------------------------------
    \i\ ``All Aboard! Making Equity and Inclusion Central to Federal 
Transportation Policy,'' by PolicyLink, 2009. Accessed at: http://
equitycaucus.org/sites/default/files/AllAboard_final_web
.pdf
---------------------------------------------------------------------------
    Given that broadband access is necessary for basic participation in 
our society and economy, and given that computer ownership and Internet 
use strongly correlate with household income and educational 
attainment, any infrastructure plan must address the broadband needs of 
all communities. For the National Urban League, ``universal broadband 
adoption'' refers to the set of broad and targeted investments, tools 
and innovations needed to fully
    deploy wired and wireless broadband; to make devices and content 
affordable, available and usable; and to support the ability of 
students and workers to utilize broadband to build their 21st century 
knowledge, skills, careers and businesses.
    As Congress and the Administration begin to grapple with 
comprehensive investments in our Nation's infrastructure, in order for 
such investments to be fair and inclusive, they must include the 
following provisions clearly written into any legislative proposal:

  (1)  Specific provisions that ensure and commit to the inclusion of 
        and meaningful participation by MINORITY BUSINESS ENTERPRISES 
        (MBEs). For far too long, too many have treated MBEs as an 
        afterthought. This must stop and it is time for Congress to 
        ensure that MBEs obtain meaningful participation in any 
        infrastructure initiative. It requires assurance of supplier 
        diversity, i.e., proactively promoting business programs that 
        encourage the use of African American owned businesses as 
        suppliers of goods and services. It includes an emphasis on the 
        creation of a diverse supply chain that ensures the inclusion 
        of diverse groups in the procurement plans for infrastructure 
        improvements and expansions.

  (2)  A specific commitment to fund JOB TRAINING and WORKFORCE 
        DEVELOPMENT as a central and essential part of any plan. 
        Provisions must focus on enabling young workers and urban 
        residents to benefit from any infrastructure plan through 
        training, pre-apprenticeships, and related approaches, 
        including Registered Apprenticeships within the 
        telecommunications and technology sectors. It must promote 
        meaningful skills development, technical training, internships 
        and job placement opportunities for African Americans and urban 
        community members. This must be fully integrated into any 
        proposal. Once again, it cannot be separate or an afterthought. 
        We loudly and forcefully champion this. Without this, the 
        benefits will not be broadly and fairly shared.

  (3)  In addition to transportation investments, we believe that any 
        comprehensive infrastructure plan must also include 
        improvements in our community facilities such as SCHOOLS, 
        PARKS, LIBRARIES, COMMUNITY CENTERS, NEIGHBORHOOD CENTERS AND 
        COMMUNITY FACILITIES. These are tools that mayors and urban 
        advocates will insist on so that the benefits will be broadly 
        and fairly shared.

  (4)  The INCLUSION OF LOCAL HIRE PROVISIONS, where at least 20 
        percent of the workers are made up of workers from the local 
        community. Many communities have employed local and targeted 
        hire provisions on projects large and small with positive 
        results for local residents and the local economy.<SUP>ii</SUP>
---------------------------------------------------------------------------
    \ii\ ``A New Day, New Legacy For Gary, Indiana,'' by Mayor Karen 
Freeman-Wilson, 2015 State of Black America Save Our Cities Education, 
Jobs +Justice, National Urban League, 2015, p.124.

  (5)  METROPOLITAN PLANNING ORGANIZATIONS (MPOs) must play a larger 
---------------------------------------------------------------------------
        role in the decision making process to fund projects.

    The National Urban League has long advocated for a major investment 
in our Nation's neglected infrastructure. Recognizing the role that 
infrastructure investment can play as a ``job-creation machine,'' the 
National Urban League called for the concept of an infrastructure bank 
when we released our blueprint for economic equality, The Opportunity 
Compact, in 2007. The Compact called for the creation of an Urban 
Infrastructure Bank to fund reinvestment in urban communities. In 2008, 
we provided written testimony to the Senate Committee on Banking, 
Housing and Urban Affairs, in support of the National Infrastructure 
Bank Act, with recommendations to improve the bill for urban 
communities. Additionally, as part of the release of our 2016 State of 
Black America report, we introduced our Main Street Marshall Plan which 
calls for a plan to fund comprehensive urban infrastructure 
investments.
    On behalf of the National Urban League, I look forward to working 
with Congress to ensure that our concerns and recommendations are fully 
integrated into any final plan to invest in our Nation's vast 
infrastructure needs.
            Very truly yours,
                                            Marc H. Morial,
                             President and Chief Executive Officer,
                                                 National Urban League.

    Senator Markey. Thank you. I appreciate it.
    And I also ask for unanimous consent to enter into the 
record a letter on the schools health, libraries, and broadband 
coalition also supporting greater broadband investment for 
schools, libraries, and health care providers. I have these 
letters here, too.
    Senator Johnson. Without objection again.
    [The information referred to follows:]

                                                      March 1, 2017
Hon. John Thune,
Chairman,
Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    On behalf of the Schools, Health & Libraries Broadband Coalition 
(SHLB Coalition), I respectfully ask that this letter and the attached 
document called ``A Rural American Broadband Connectivity Program'' be 
inserted into the record of the March 1, 2017 hearing on ``Connecting 
America: Improving Access to Infrastructure for Communities Across the 
Country''.
    The SHLB Coalition is a non-profit, 501c3 advocacy organization 
that receives financial support from the Bill & Melinda Gates 
Foundation and membership dues. Our broad-based membership includes 
schools, libraries, telehealth networks and other anchor institutions, 
broadband providers, public interest groups, state broadband officials 
and others.\1\
---------------------------------------------------------------------------
    \1\ A complete list of SHLB Coalition members is available at 
www.shlb.org/about/coalition-members.
---------------------------------------------------------------------------
    We support greater investment in public broadband infrastructure, 
especially in rural areas, to provide anchor institutions such as 
schools, libraries and health providers with open, affordable, high-
capacity broadband connections to the Internet. We also believe that 
funding for broadband infrastructure can best be awarded through an 
open, competitive application process, similar to the process used for 
the Broadband Technology Opportunities Program (BTOP). Our suggested 
approach for new broadband investment is contained in the attached 
document.
            Sincerely,
                                      John Windhausen, Jr.,
                                                Executive Director,
                Schools, Health & Libraries Broadband (SHLB) Coalition.
                               Attachment
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Markey. Thank you, Mr. Chairman.
    We already have a template for success in 2009 in western 
Massachusetts. We actually received $45 million as part of the 
Recovery Act to build 1,200 miles of fiber optic cable 
connecting 120 communities to broadband, 400,000 households and 
businesses.
    When people think of Massachusetts, they don't think rural, 
they don't understand that a third of the state is trees once 
you get past Boston and Worcester, and we have the same issues 
that any other state would have. So, we thank you for that.
    And to the Mayor of Miami Beach, climate change, 
resilience, infrastructure. We've got a problem in Boston. 
We're now talking over the next 40 years, how do we build a 
huge blockade out in Boston Harbor to stop what is happening 
with the rising tides? The Gulf of Maine, which is Boston 
Harbor, et cetera, is the fastest warming body of water in the 
world. So water expands and the tides are getting higher, the 
storms more intense, and as a result, the impact is going to be 
greater.
    Can you talk about Miami, the impact, and what you might 
expect or hope from the Federal Government in any 
infrastructure package that would help your city?
    Mayor Levine. Thank you, Senator. And I appreciate your 
Boston accent, and if I listen to you more, I'm going to get 
mine back, because I'm from Boston.
    Senator Markey. What high school?
    Mayor Levine. I actually grew up as a kid there, went to 
Edward Devotion in Brookline, Coolidge Corner.
    Senator Markey. Interesting, yes.
    Mayor Levine. I was born in Needham.
    Senator Markey. Great.
    Mayor Levine. So I hear your Boston accent and I feel very 
comfortable. And, of course----
    Senator Markey. Thank you. And let the word go forth that a 
new generation of leaders in Miami have the correct accent.
    [Laughter.]
    Mayor Levine. Of course. Of course. Of course. If you went 
into my office, you would see a lifeline mural of President 
Kennedy's inauguration with his famous words above.
    Senator Markey. Oh, yes, yes.
    Mayor Levine. And, of course, his house was right around 
the corner from mine, where I grew up.
    Senator Markey. Yes.
    Mayor Levine. Thank you for your great question. I was 
elected Mayor of Miami Beach in 2013, and at that time, some of 
our main roads were underwater constantly, and, by the way, 
during sunny days. As you can imagine, very unnerving for 
residents, for visitors, for investors. Some people get swept 
into office. I always say I got floated into office in Miami 
Beach.
    And I said we're going to come up with a plan. There's no 
book written, there's no--no city has ever tackled what we have 
done, but what we did is we assembled all our engineers 
together and we said, ``Let's get on it, whatever it may be.'' 
We began raising roads, putting in pumps, raising seawalls, and 
making sure that these areas no longer would be underwater.
    Now, under no circumstances have we declared victory 
against Mother Nature, because, as you know in Boston, it 
continues to rise. But what we've had to do is we've had to 
utilize our own funding. We raised our stormwater fees. We went 
out and raised money through bond issues. And by the way, as 
you can imagine, everyone here is a lot of elected officials, 
it's not fun to get into office and say, ``I'm going to raise 
your taxes.'' It's one of the things you did, but I said, 
``Listen, I want to be the Mayor of Miami Beach. I don't want 
to be the Mayor of Atlantis.'' OK? So we're going to do what we 
have to do.
    So the issue for us, of course, is, how do we ever get 
Federal funding? We didn't. We found the same way as when you 
want to do a light rail or transportation, the process is so 
overwhelming, so staggering, you can imagine with something 
that's happened before, but with something that's never 
happened before, like sea level rise, it was very challenging, 
and we have not received Federal funding.
    What we need is to have something in an infrastructure bill 
that allows coastal communities--Miami Beach is a poster child, 
but the fact of the matter is it's happening in Boston, like 
you, and I know my friend Mayor Walsh is dealing with it as 
well.
    We have to come up with a way to make our cities resilient 
because when you're on the coast, your future may not be 
assured. And we're learning as we go. We're not experts. But we 
think that it requires money. That's what it comes down to.
    Senator Markey. Yes. My hope is that when we do an 
infrastructure bill, that we, like broadband, think about these 
infrastructure investments as well. It's always better to start 
out where you're going to be forced to wind up anyway. It's 
always better that way, so that we make the investments so that 
in the end we're protected against the inevitable, either we 
reduce greenhouse gases or we increase the size of the walls, 
but you don't really have a choice, you have to go one way or 
the other, and in some places it's already too late, you're 
going to have to go in both directions, and Miami is the 
perfect example.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman. I want to thank 
the Chairman for holding this very important hearing.
    When I travel across Illinois, it doesn't matter whether I 
am in a blue county or red county or Chicago or the great 
metropolis of El Paso, Illinois, people want the same thing, 
infrastructure investment. And I'm hearing--we've had a long 
discussion here on broadband, and I'd like to touch on it a 
little bit more.
    Ms. Bloomfield, I would like for you to talk a little bit 
more about the CAP II program and sort of flush that out for us 
a little bit and what you think priorities from Congress could 
be.
    I met with the Mayor of Rock Falls, Illinois, just 
yesterday, and one of the things he pointed out to me was 
that--it's a rural community--they're actually floating a bond 
to raise the money in order to get broadband themselves. They 
had broadband, but it was so unaffordable by the one provider 
that would never answer his phone calls when he was trying to 
up the level of broadband because it was just over the 
threshold, but it wasn't enough to attract large companies and 
manufacturers into town, the kids were still having trouble 
doing homework.
    So he decided he was going to do this himself as a mayor. 
We have Mayors here who know exactly what that takes, that, you 
know, self-direction. They've raised the money, they're going 
to do it, and suddenly the Internet provider is now coming and 
calling him and saying, ``Hey, we can give you a better deal. 
You don't need to do this,'' the same folks who never answered 
his calls before.
    Ms. Bloomfield. Yes.
    Senator Duckworth. So remarkable what a little competition 
will do. But can you talk a little bit about the CAP II program 
and maybe just 1, 2, 3, what you think priorities could be for 
this body, to help us achieve that? It's not just rural, I know 
you're rural, but I have parts of Chicago where we can't get 
good Internet access, where kids can't do their homework 
either.
    Ms. Bloomfield. Yes. It's a great question, Senator. So 
without getting totally into the weeds of universal service 
because your eyes will start rolling into the back of your 
head, the Connect America Fund was actually a part of the High 
Cost universal service program that is directed toward those 
companies that are price cap companies, a little bit larger 
companies.
    So part of it has been to incentivize those companies to 
actually--which are not part of my membership--but to 
incentivize them to basically say, you know, we've got to give 
you motivation to build into those rural communities, because--
you know what?--we know you're facing competition in Chicago. 
How do we provide you support to bring broadband out to those 
rural communities where your rate of return is not going to be 
what it's going to be in a more urban, more densely populated 
area?
    So the Connect America Fund was established for that 
reason. The carriers have just finished that process. They are 
now choosing where those locations are that they are going to 
take that support for. So we are going to see where they're 
taking that support. Where they choose not to take the support, 
the thing that I think is interesting about that part of the 
program is that money will then go up for auction in a few 
years, so other providers, hopefully my members, for example, 
will be able to go in and say, ``Okay, you're not going to 
build into that rural community in Illinois. But you know what? 
I'm the small broadband provider nearby. I'd like to get in, 
build that, use that support, and bring service to the people 
who need it with more of a community-based kind of thought 
behind it.''
    So there is the Connect America Fund, there is the High 
Cost Fund, which the smaller carriers are under, but, again, 
the CAF II is what the FCC just actually voted some rules out 
last week, so I think we're going to see some interesting 
movement there. So I think that's one thing to be hopeful for.
    The other thing is I think you raised a really important 
point. How do you connect the dots? How do you get people to be 
thinking about where service is needed and who is willing to 
provide those services? How do we do more efforts beyond trying 
to--you know, if you can't get somebody to return your phone 
calls, and they don't see the benefit of broadband in the 
community, how do you get community leaders doing some things 
that are interesting?
    One of the things I always cite is I was in Minnesota last 
week at a broadband summit, and what the state of Minnesota has 
done is they have jumped in and said, ``You know what? We're 
going to augment USF and Federal efforts, RUS, all of these 
other programs.'' And they're actually doing a very targeted--
they actually have somebody in the State government who serves 
as their State Broadband Director, and her job 24/7 is to think 
about, who has broadband? Who doesn't have broadband? How do we 
get it out there?
    So they are in their second or third year. They are 
actually making incredible real progress on the ground 
combining Federal support programs with State funding on the 
ground. And there are communities that literally year-by-year, 
with strict accountability, are now getting broadband access.
    I think there are models like that, we've seen it in New 
York recently, that are really intriguing and are really an 
interesting partnership between what you see on the Federal 
level and what you can do on the State level.
    Senator Duckworth. Is that fund, once it goes up for 
auction, is that--who would be eligible to bid on it? Are we 
still working on the rules for that? Because if we pull ops to 
it, could--you know, is it for commercial purposes only?
    Ms. Bloomfield. You know, I'm not entirely sure, and we'll 
get back to you on that, but it will be open to all carriers, 
so it will be open to wireless, it will be open to satellite, 
it will be open to WISPs, it will be open to traditional 
broadband companies, telephone companies. It will be open to 
anybody who's interested in going and providing the service. So 
it's technology agnostic.
    The thing I would say, however, and we saw this with 
stimulus, we saw this with some of the FCC broadband 
experiments, if you've got precious resources, you really want 
it to go to somebody who knows how to get the job done.
    Providing broadband service is actually very complicated 
and it's very expensive. So to kind of throw money at a problem 
is not the answer, which is why I'm hopeful that as this money 
comes up from auctions, you will see folks who are willing to 
build future-proof networks who actually know how to get the 
job done.
    Senator Duckworth. Thank you. I yield back.
    The Chairman. Thank you, Senator Duckworth.
    Senator Johnson.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    You know, we all agree that we need to invest money into 
infrastructure. President Trump is talking about a trillion 
dollars. We had an $800 billion stimulus that I still don't 
know where it went to. The best accounting on that is maybe 
$100 billion was spent on infrastructure. The rest is just 
gone.
    We're $20 trillion in debt. The projected deficit over the 
next 30 years is $103 trillion added on top of that. So, Mr. 
Mayor, you said it comes down to money. Yes, and we're running 
out of it.
    So I want to ask you all the exact same question about 
accountability. For my briefing of this hearing, I was given a 
political investigation, it's called Wired to Fail. It was 
published in 2015 talking about the rural utility service. And 
the Administrator at the time, Jonathan Adelstein, was talking 
about a $3.5 billion program that was going to connect nearly 7 
million rural Americans.
    The investigation showed that roughly half of the nearly 
300 projects, RUS-approved as part of the 2009 Recovery Act, 
didn't drawdown the full amounts of the order. Forty of the 
projects never even got started. Even the Rural Utility Service 
admitted it was not going to provide better service to the 7 
million residents it once touted. Instead, the number is in the 
hundreds of thousands. And the representative from the 
Government Accountability Office said we are left with a 
program that spent $3 billion and we really don't know what 
became of it.
    So if you go into this project saying we'll spend $3.5 
billion, connect 7 million people, that would come down to 
about $500 bucks a person. If it's hundreds of thousands, if it 
was 300,000, that was $10,000 a person. If it was 600,000, that 
was $5,000 a person.
    How can we make sure that we hold people accountable, 
government accountable, so that if we have a trillion dollar 
infrastructure bill, we actually know they're going to be 
shovel-ready projects, the cost estimates are going to be 
accurate, and we don't waste the taxpayers' hard-earned money?
    And we'll start with you, Governor.
    Governor Daugaard. Thank you, Senator. Well, I think a 
straightforward answer would be to block grant things like that 
to the states. I think in South Dakota we're as frugal as 
you'll find. We have one of the smallest tax burdens in the 
Nation. We have one of the smallest budgets in the Nation. We 
are among the smallest of states by population. Our budget is 
balanced. We're a AAA credit-rated state. Our pension is nearly 
fully funded.
    And so we're running our ship well, I think. And I think 
states can be trusted to do what's in the best interests of 
their citizens. And the closer you get to the projects, the 
more accurately you'll be able to assess what the costs are and 
the better you'll be able to oversee them.
    Senator Johnson. So you're saying the Federal Government is 
not particularly good at attaching strings to make the spending 
efficient. So maybe block grants to the states combined with a 
private-public partnership so there are some real incentives 
there to spend the money wisely.
    Governor Daugaard. If you're talking about broadband, yes, 
I think there might be some opportunities for private 
investment, and there will be some areas where private 
investment won't go because there are just too few consumers to 
get payback. But I think a combination of block grant dollars 
or state-invested dollars, along with, in some places, private 
investment, that can work.
    Senator Johnson. Mr. Braceras.
    Mr. Braceras. Yes. I think your question is fundamentally 
so important because at the end of the day it comes down to 
what I call our most important currency that we have at the 
Utah Department of Transportation, and I think every elected 
official, it's trust. And so we have to be trusted that we're 
going to use the public's pot of gold in a way that will get 
the results that we tell them we're going to get, and so we 
take that very seriously.
    So as the Governor said, at the State level, there's a very 
direct connection between, ``Did you do what you said?'' and 
people can see whether you did it or not.
    Now, we're not a broadband provider, but we're a broadband 
facilitator, and so a lot of discussion has been about 
broadband. I would offer that you could look at opportunities 
to break down the silos within government. A lot of the 
challenges to provide broadband to our rural communities is the 
length between those communities, and a lot of that--those 
lands are owned by the Federal Government.
    There's not a great incentive right now for the different 
branches of government to work together toward a common vision. 
I think if there was a clear articulation, ``We're going to put 
a man on the Moon,'' ``We're going to accomplish this,'' and we 
expect every branch of government to work together to achieve 
it, and we ask our partners, the states, to help lead that 
effort, we can go a long ways.
    Senator Johnson. Government close to government, what a 
concept.
    Ms. Bloomfield.
    Ms. Bloomfield. So, Senator, a couple of things. Under the 
Stimulus Act, there were about 100 NTCA member companies that 
actually did get stimulus funding and--you know, but think of 
it in the context of these are existing broadband providers, 
state fiber networks, they knew what they were doing.
    So I guess that would be one of my main points. First of 
all, leverage the existing programs that you already have. Two, 
you know, go with people who know what they're doing to get the 
job done. They've got to be good stewards of Federal support, 
and that's going to be really important.
    Your point on accountability, absolutely. And that's one of 
the things I find encouraging about the FCC's recent reforms. 
You actually have to report on a location-by-location basis 
what you are doing and what you have built.
    The last thing I would say is Wisconsin is actually a role 
model in terms of some of the easements. They have something 
called Broadband Forward in the state, which is actually a 
harmonization among all of the communities and the state PUC so 
that there is a streamlined process that if you're going to 
deploy broadband, the state has already gone through and kind 
of certified what areas are broadband-ready, which I think is 
eliminating a lot of those regulatory hurdles as well.
    Senator Johnson. Again looking to the states, real quick, 
Mr. Mayor.
    Mayor Levine. Real quick. Listen, before I was the Mayor, I 
was an entrepreneur and built some very large companies, so I 
look at things more from a business perspective. I love the 
idea of P3s. The issue with P3s are, you know, if there is no 
real reason for a private company to invest in a project, 
they're not going to. We have this thing called banks, and 
banks will lend money to cities and do these projects. So for a 
P3 to be a bank, it's just a bank. It is what it is unless 
there's revenue.
    But I've learned in my life and in business, and I think, 
for example, Warren Buffett has probably noticed with Berkshire 
Hathaway and all his various companies that run somewhat 
independently, is that you've got to run from the ground up, 
you can't build from the top down.
    So the Federal Government at that level, with the amount of 
process, bureaucracy, what it takes to make these projects 
happen, it is so overwhelming, it's so ridiculous, that it 
needs to be from the bottom up.
    I like what the Director said from Utah, great idea. I want 
to move you to Florida. OK? Because the fact of the matter is 
that, why are we duplicating these services? If the state is 
going to do the same thing, let the state do it, work with the 
municipalities, but you've got to move it.
    As far as we're running out of money, hey, I understand 
that, but I've got to tell you something, we can't afford not 
to invest in infrastructure, we can't afford not to invest in 
resiliency, because then we'll really run out of money. You run 
a business----
    Senator Johnson. Yes, we can't afford to waste the money 
again. It's a pretty unanimous opinion here.
    Mayor Levine. Absolutely.
    Senator Johnson. Turn the money over to the states, hold 
them accountable.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson. And by the way, 
the two best funded retirement systems, state systems, in the 
country, are South Dakota and Wisconsin.
    Senator Johnson. Good, responsible folks.
    [Laughter.]
    The Chairman. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks. Thanks, Mr. Chairman.
    Director Braceras, I take your point about trust and 
avoiding any waste of taxpayers' pot of gold, and we all know 
resources are limited. There's no endless pot of gold. So if 
the choice were yours and you had to sacrifice road building in 
Utah and your fellow transportation officials around the state 
and the American Association of State Highways and 
Transportation Officials had to do the same, would you give up 
your roads to build a wall along the border at the cost of $20 
billion to $30 billion?
    Mr. Braceras. Well, I feel like I'm entering a political 
discussion right now.
    Senator Blumenthal. Well, that's what choices are about, 
spending taxpayer money. Correct?
    Mr. Braceras. I understand that. I'm just----
    Senator Blumenthal. They are setting priorities and making 
those choices, sometimes they're hard choices.
    Mr. Braceras. I believe strongly, Senator, that, as a 
nation, we have to establish goals and we need to prioritize 
those goals. Obviously, based on the business that I'm in right 
now, I believe strongly that infrastructure is a foundation for 
our economy and quality of life. We would not be the country we 
are today without the Transcontinental Railroad.
    Senator Blumenthal. And it's a matter of national security. 
Wouldn't you agree?
    Mr. Braceras. Without the interstate system, we would not 
be the country that we are, we would not be one country, we'd 
be a lot of different separate regions. And so I believe 
strongly that infrastructure, whether it be broadband, roads, 
transit, is critical for our Nation.
    Senator Blumenthal. And should be given priority.
    Mr. Braceras. From my perspective.
    Senator Blumenthal. Mayor Levine, how do you feel about 
that question?
    Mayor Levine. Senator, thank you for the question. I 
absolutely 100 percent believe we need a wall. We need a wall 
around the state of Florida to stop the water from coming into 
our state.
    [Laughter.]
    Mayor Levine. And I am a big believer in it. I wrote an 
article in Time Magazine about it. We need a resiliency wall, 
and it's not just about Florida, it's going to be other coastal 
communities around----
    Senator Blumenthal. I was going to say, it's not just 
Florida, it's----
    Mayor Levine. No.
    Senator Blumenthal. So my colleague from Massachusetts has 
raised the danger there. We have a coastline in Connecticut 
that----
    Mayor Levine. Absolutely.
    Senator Blumenthal.--requires resiliency support and 
funding. That's a critical infrastructure requirement. Correct?
    Mayor Levine. Absolutely. No question.
    Senator Blumenthal. Governor, how do you feel about it?
    Governor Daugaard. Well, I don't presume to tell you what 
your priorities should be at the national level----
    Senator Blumenthal. But you're a state official, and 
Senator Johnson, although he's left, has said we ought to give 
the states more say in these decisions. You're the Governor of 
a sovereign state, and the Federal Government has limited 
resources in that pot of gold, and you're here to advise us. 
Should it be the wall or should it be improving the roads and 
railroads and bridges of South Dakota?
    Governor Daugaard. Well, the statement I made and I stand 
by is that the states do a better job of spending the dollars 
that are available. And so we have limited dollars available, 
then give the states more autonomy in deciding how they should 
be prioritized, and I think we can also spend them more 
effectively.
    Senator Blumenthal. So rather than build a wall, we ought 
to give South Dakota--and I'm with you on that one--more say 
and more resources to improve its roads and rail and other 
critical building blocks for our economic future, it's not just 
this abstract term ``infrastructure.'' I hate the word because 
it's so difficult to relate to people, but it's how they 
travel, how they deliver goods, get to work, the schools, and 
ports, and, yes, the VA facilities of South Dakota. You'd 
rather have the money to do improvements there, wouldn't you?
    Governor Daugaard. Again, what I'm saying is I'd rather 
have the state make decisions about the dollars that are 
allocated to us from the Federal budget about how those dollars 
are spent and what the priorities should be and the processes 
that provide for accountability. I think the states are in a 
better position to make those judgments than the Federal 
Government is.
    Senator Blumenthal. I was a state official for 20 years, 
not in the more elevated position you have, I was just the 
Attorney General of our state, but I would have been 
advocating, just as you are, also as a member of the state 
legislature.
    So thank you all for being here today. I appreciate it. I'm 
hopeful that we can build more resiliency on our coasts and 
more roads and bridges and better behaved facilities and really 
safeguard our national security by addressing our critical 
building block needs in our Nation, and I appreciate your 
commitment and your hard work in that regard. Thank you.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. And I want to 
thank the witnesses for your testimony today. A very important 
topic.
    I want to follow up a little bit on the themes that Senator 
Johnson was focused on. I have a few examples of Federal 
Government permitting dysfunction. So we had a hearing last 
year on airport infrastructures. The Sea-Tac Airport in Seattle 
expanded a runway. It took 15 years to get the Federal 
Government's permits before they could begin construction.
    In my state of Alaska, it took almost 20 years to permit a 
gold mine, the Federal Government to permit that. It took 7 
years and $7 billion for Shell to get the permit from the 
Federal Government to drill one exploration well in 100 feet of 
water in my state. It took 14 years to permit the Gross 
Reservoir--water reservoir--in Colorado.
    A GAO study found that federally-funded highway projects 
take between 9 and 19 years from permitting to completion for 
America, 9 to 19 years. That's a GAO study. That was 10 years 
ago. I guarantee it's worse now.
    A typical EIS can take 6 years to complete and over $2 
million for cities and states like yours.
    So from my perspective, any major permitting or any major 
infrastructure initiative has to include permitting reform, or 
we're just going to waste the money, like the Obama initiative 
did, which I agree with Senator Johnson, not a lot of shovel-
ready projects when it takes 6 years on average to permit a 
bridge in America. It's lunacy.
    So we're going to be introducing, and I certainly want to 
get some of my colleagues on the other side of the aisle to 
help us with this, the Rebuild America Now Act, which will 
focus on what I think the vast, vast majority of Americans see 
as critical, Federal Government permitting reform, so we don't 
have this madness of 15 years to permit a new runway in 
Seattle.
    So I would welcome, just open it up to, any and all of your 
ideas on what additional ideas we should include in the bill 
that we're going to introduce, and, hopefully, if we have an 
infrastructure initiative, permitting reform has to be part of 
it, or we're just wasting money--the taxpayer money of all 
Americans.
    So, really, I just want to open it up for your ideas on 
what the Federal Government can do in terms of permitting to 
make it more efficient, not cut corners, but nobody in America 
thinks it makes sense to take 6 years to permit a bridge.
    Any of the witnesses. I welcome your thoughts, all of you.
    Ms. Bloomfield. I would just jump in, Senator, and say 
that's one of the reasons we've supported MOBILE NOW with a lot 
of the streamline provisions that are in there that are really 
important to get broadband deployed out in rural areas. We 
think we would be really interested in seeing what your 
legislation looks like. Completely agree.
    And I think the more you can harmonize, because it's not 
just the Federal permitting, it's then the states and then it's 
the local. How do you get all three bodies in a collaborative 
way to streamline that process? So if you get one done, it 
doesn't necessarily take care of the other two.
    The other thing I will say is that Chairman Pai over at the 
FCC is really doing this very hands-on advisory council on 
broadband where I think he's going to have folks sitting around 
the table really talking about, ``What are those obstacles? How 
do we eliminate it?'' So I expect to see some really 
interesting pieces of constructive advice coming out from that 
committee.
    Senator Sullivan. Well, if any of you want to submit ideas 
for the record to this hearing, we would certainly welcome 
those. Any other thoughts or suggestions on Federal Government 
permitting?
    Yes.
    Mr. Braceras. I'll just do this very quickly, Senator. 
There is very little incentive for the Federal agencies to step 
out and take a risk and say yes in the permitting process.
    Senator Sullivan. Yes. They love the delays.
    Mr. Braceras. There's a lot incentive because otherwise 
they're making a decision, they're taking risk on this. There 
needs to be more deference given to the lead agency that's 
leading the EIS. I've got an EIS right now, we've spent over 
$20 million on it.
    Senator Sullivan. Geez.
    Mr. Braceras. We're into this 7----
    Senator Sullivan. What was it for?
    Mr. Braceras. This is for West Davis Highway. We're into it 
7 years. We're about to issue the final EIS on this right now, 
and we're still battling some different Federal regulatory 
agencies that want to introduce another alternative after 46 
have been studied and over $20 million.
    So we need to find a way to give more deference for the 
lead agency, in this case, Federal Highway Administration, to 
be able to listen to all sides and make decisions and move on, 
not essentially have a standoff, and that's what we end up with 
a lot of times.
    Senator Sullivan. Great. And that's a great idea, by the 
way.
    Anyone else? Mr. Mayor?
    Mayor Levine. Senator, I agree with you 100 percent. We've 
seen it in Miami Beach, we've seen it in Miami, that once you 
start to go through the Federal permitting process, it's 
literally impossible. OK? I said before it's like the toughest 
SAT question you ever attempted to answer, it's literally 
impossible.
    But I think the key here, and what I'm hearing from 
everybody, is that like take the handcuffs off. OK? Take the 
Federal handcuffs off. Let the states, let the cities, let them 
forward as fast as possible. Try to remove the Federal process. 
Put more responsibility on a local level.
    And once again, I don't want to sound like a commercial, 
but Miami Beach is hosting the United States Conference of 
Mayors in June. Every mayor in the country will be here. 
President Trump is invited, and Vice President Pence. I think 
it would be amazing if there was some way that you could hold a 
committee hearing like this in front of the United States 
mayors and listen to them, get their thoughts, because they're 
going to come up with ideas and thoughts that we haven't even 
thought about today, and I think it's a wonderful venue to 
potentially have a remote committee meeting.
    Senator Sullivan. Great. Governor?
    Governor Daugaard. Another thought would be thresholds, 
dollar thresholds, below which permits are not even considered 
at the Federal level. In Mr. Braceras's previous testimony, he 
was mentioning how local governments that get Federal Highway 
dollars are essentially turning them back to the states, the 
states are paying--exchanging 85, 90 cents on the dollar, and 
the localities are happy to get fewer dollars without strings, 
and the Federal--and the states will take those Federal dollars 
and will be attentive to the strings that go with them because 
we do enough of them that we can manage through the Federal 
bureaucracy when these smaller communities, it's over their 
heads.
    Senator Sullivan. It's actually cheaper, right? Because if 
it's 40 percent increase in costs because of the permitting 
delays, it's not--it doesn't even make sense from an economic 
standpoint to accept the money.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan.
    Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman. And I want to thank 
the witnesses for being here today and the Chairman for holding 
this important hearing. And let me say, Senator Sullivan has 
been a real leader on addressing the regulatory barriers to 
infrastructure, and this is a very, very important issue. I 
think the questions and answers that just went on were helpful 
and valuable. And let me encourage the witnesses to indeed take 
those questions and go home and give it some additional 
thought. And I would encourage you to supplement your testimony 
in writing with specific ideas.
    A conversation I had with Secretary Chao about the upcoming 
infrastructure bill, which obviously the President emphasized 
last night, is that it will be wholly ineffective if that 
legislation does not include major regulatory reforms, making 
it actually possible to build roads, to build bridges, to put 
infrastructure in place, and with legislation moving through 
Congress, that is a tremendous opportunity to get reg reform 
with real teeth that could facilitate the construction of 
billions of dollars of new infrastructure. And each of you are 
dealing with these questions on the ground.
    So I would encourage you, not just the answers, the 
thoughtful answers, you gave here, but to spend some time 
creatively thinking about specific reforms that ought to be 
included in legislation that may well be moving through 
Congress this year.
    Let me shift to a related topic, which is our top priority 
I believe should be jobs and economic growth, and I think this 
hearing has focused quite rightly on jobs and economic growth.
    One opportunity that I think poses tremendous possible 
benefits is the deployment of a next generation 5G wireless 
network. Just recently, in January 2017, Accenture released a 
report that found that, ``this next generation of wireless 
technology is expected to create 3 million new jobs and boost 
annual GDP by $500 billion, driven by a projected $275 billion 
investment from telecom operators.'' And it's worth noting that 
of that $275 billion, $93 billion is expected to be spent on 
construction.
    However, realizing that economic potential is going to 
require Congress and the Federal Government to ensure that new 
spectrum is made available through FCC incentive auctions, and 
that has been a long-time focus of this committee, of the 
Chairman, a long-time focus of mine. And it's also going to 
require state and local governments to work collaboratively 
with industry because a 5G network infrastructure is going to 
involve the deployment of 10 times or even 100 times more 
antenna locations than 3G or 4G networks, which could lead to 
issues pertaining to local fees, to zoning, to rights-of-way, 
to access to government-owned infrastructure.
    And so my question to all the witnesses is, What 
opportunities are there in the development of 5G wireless 
networks? And what specific steps does the Federal Government 
need to take to make spectrum available and to remove 
regulatory barriers and to work cooperatively with state and 
local governments to create an environment where it can happen?
    Ms. Bloomfield. All right. As the telecommunications 
person, I guess I'll go first. You raised a really important 
point, and 5G really has some exciting promise. We're waiting 
for some of the standards to come out, which I think will be--
give some clarification.
    In terms of spectrum, one of the things that I think is 
always a challenge for spectrum is the way historically 
spectrum has been auctioned has been on really large plots. So 
it could be the entire state of South Dakota. So I look at a 
state like Texas, you've got a lot of rural areas, you've got a 
lot of areas where, frankly, larger carriers aren't necessarily 
interested in getting that spectrum. They may want the major 
highways. How do you make sure to bring the value of 5G to 
everywhere that you get it out there?
    So one of the things that we've historically tried to work 
on is, how do you create those opportunities where you also 
create smaller spectrum auctions? My companies can't go in and 
bid billions of dollars, but they're willing to bid to be able 
to serve their areas. Half of my member companies actually have 
spectrum, and about 25 percent offer MobilePlay.
    So we'd like to get in the game. We think it's really 
important to make sure that that farmer on the tractor has the 
same access to his ability to do GO, you know, smart 
agriculture, as anybody else. So that's one piece.
    The second piece is I think that your point on permitting, 
really important, and I think the FCC has already started a 
proceeding to get ahead of the game to start looking at, what 
is it going to take to get some of that permitting through with 
all of those tower locations?
    And the last thing I would say is the downside for 5G 
potentially in rural markets is it's a small cell initiative, 
so you're going to have to have that tower or that antenna 
every couple of hundred yards. So it's going to take a lot of 
infrastructure, it's going to take a lot of fiber, and I think 
there is going to be a need to kind of look at what makes the 
most sense as you build it out in those markets.
    Senator Cruz. Right. Mm-hmm.
    Mr. Braceras. I'll jump in real quick, Senator, on this 
one. We're not altogether on understanding what the vision is 
right now for the 5G. I can tell you I just learned that we 
have been approached over the last 6 months through my 
permitting officer. So I've got permit officers all over the 
state, and they get people coming in saying, ``We want to get 
into your right-of-way,'' and they've never heard of 5G, and 
they're now showing them plans that show antennas all over the 
place. And so they don't understand what this means, what our 
goals are as a state or as a Federal Government.
    So I think we need to do a better job articulating what our 
shared vision is for this and how we can use the shared 
resources of this United States to be able to achieve those 
goals. We kind of have I think some folks getting out ahead, 
and it's going to hurt a little bit because people are--the 
folks at the permit level will dig in to protect their area 
without understanding whether or not they're expected to work 
to achieve their goals.
    Governor Daugaard. One thing I think I would add to that 
previous two speakers is as we deploy a 5G network, I think we 
have to give a lot of attention to the security of that 
network. Dakota State University is among four that the 
National Security Agency has identified as a regional 
coordinator of intellectual capital that's being applied to 
network development and the security of the network.
    And so I don't--I really don't know enough about spectrum 
to add anything to that aspect of your question, but I do know 
that at Dakota State University, we're very concerned about the 
security of the network. And building out a network and then 
thinking about security is backwards. We need to first think 
about the security of the network, and then build it out.
    Mayor Levine. Thank you, Senator. I'm definitely not a 
telecommunications expert. As a matter of fact, this is the 
longest I've ever gone not looking at my cell phone. OK?
    [Laughter.]
    Mayor Levine. But the fact of the matter is that I think 
what you brought up earlier, which is true, whether it's 
telecommunications, whether it's bridges and tunnels and roads, 
the Congress could appropriate a trillion dollars and it could 
be sitting there in a bank waiting to go for every state and 
city in the country, but I can promise you nothing will get 
done, and the reason nothing will get done is because the 
process is absolutely broken. The permitting process is broken, 
the system is broken, there's analysis paralysis.
    It's almost like it's not even about the money. I think 
it's about the process. The process must be streamlined, I 
don't care if it's telecommunications or it's a new road, it 
needs to be--we're in a race. We're in a race with the rest of 
the world. And unfortunately in this race, it seems like we're 
all wearing handcuffs and weights on our legs, and we can't 
really compete. So I think that's, to me, priority number one. 
I see it as a mayor.
    Senator Cruz. Thank you very much.
    The Chairman. Thank you, Senator Cruz.
    And I would concur with your suggestion to the panelists, 
and that is, if you can come up with some thoughts and ideas 
that you could submit to us about how to streamline and lessen 
these regulatory hurdles and barriers that exist today, that 
would be very, very helpful. I do think that--I hope that we 
can do something in terms of a package of legislation that 
would liberate a lot of the, not only businesses, but state and 
local governments from some of these requirements. So thank 
you.
    I have one last question I need to ask and then we'll close 
this out.
    But, Ms. Bloomfield, there are in my state and across the 
country many tribes that struggle greatly from a lack of access 
to quality Internet services. And I'm wondering if there are 
any success stories your members have had in deploying on 
tribal lands from which policymakers might learn. Do you have 
any suggestions for this committee on what could be done to 
improve broadband access on tribal lands?
    Ms. Bloomfield. Thank you very much, Senator. So actually 
we've got about 10 tribal telephone companies that are within 
our membership, so we have the opportunity to see really 
intimately what they're up to. CRST, the Cheyenne River Sioux 
Tribe telecommunications cooperative in South Dakota actually 
was able to utilize our U.S. loan recently to actually build 
out their fiber network. They actually now have penetration to 
about 90 percent of the reservation. And they've also created 
some really interesting job opportunities out there.
    So the tribal entities that are actually either served by 
tribal cooperatives or those that actually cross over on tribal 
lands do have some really unique challenges. You've got a lot 
of demographic challenges. You've got a lot of economic 
challenges.
    But one of the things the FCC has also been looking at is a 
tribal fund, and again this is still kind of waiting to see 
where the funding of some of these other programs are, but 
there will be additional resources that they have designated 
that will be going to support tribal lands for those areas that 
also have not taken advantage of the existing universal service 
program.
    So we saw Gila River down in Arizona recently. They were 
purchased from Mountain Bell years ago. They've gone from a 10 
percent penetration on their tribal lands to about a 90 percent 
penetration for broadband for their residents. Broadband on 
tribal lands is going to be just as important in every other 
community, so definitely top of mind.
    The Chairman. All right. Well, listen, I appreciate 
everybody for your patience and indulgence. It has been a long 
hearing, but I think a very productive one, a lot of ground 
covered, and I thought very substantive in terms of our 
discussion and I think solutions that have been suggested. So 
thank you for your time.
    We will keep the hearing record open for 2 weeks, and if 
during that time we have Members on our Committee, and I think 
we do, who would like to submit some written questions for the 
record, we would ask that you all, as best you can, submit 
those written answers to the Committee as soon as possible.
    So, again, we thank you, and this will wrap it up and 
adjourn the hearing.
    [Whereupon, at 12:44 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of Tim Koxlien, CEO, TeleQuality Communications, 
                      Inc. (Rural Health Telecom)
    Rural Health Telecom, a subsidiary of TeleQuality Communications, 
Inc., based in San Antonio, TX, and founded in 1999, is a 
telecommunications/telecom service provider to health care facilities 
in the predominantly rural areas of 30 states.
    Our overarching concern, shared with rural telehealth providers, is 
a rapid and ubiquitous rollout of a robust and universal broadband 
infrastructure that will insure direct access to telehealth services. 
We appreciate the FCC effort to create funding that will meet its goal 
of broadband access to all Americans by 2020.
    Ancillary concerns include removing regulatory burdens on 
infrastructure deployment that is critical to project initiation and 
success, and increased funding for Universal Service Fund (USF) 
projects, specifically the Rural Health Care (RHC) program.
    USF has been widely regarded as a success since its creation under 
the Telecommunications Act of 1996. It remains vital to the expansion 
of broadband to unserved and underserved communities across the Nation. 
Yet, overall funding of USF programs is insufficient.
    This is particularly evident in the RHC Program, which is poised to 
see funding shortfalls for the first time due to the combination of a 
recent surge in funding applications, the addition of Skilled Nursing 
Facilities to the list of entities eligible to request funding, and the 
$400 million funding cap that has never been increased, nor even 
allowed to grow at the pace of inflation. Immediate action is 
essential, including a funding cap increase, to avoid loss of critical 
service to rural healthcare providers.
    With robust funding on the table, a commitment to a level playing 
field for competition and innovation is likewise imperative. Early 
signals from newly appointed FCC Chairman Ajit Pai indicate a likely 
reduction in unproductive regulations and an opening of competitive 
markets for the delivery of broadband services. Given increased funding 
and adoption of a ``lighter touch'' with respect to regulations, 
progress should be rapid.
    We urge the Committee to draft necessary legislation and build 
support and commitment among members of the Committee and the Senate at 
large on an urgent timeline in order to assure 56 million Americans who 
reside in rural areas, as well as all citizens, the benefits of 
cutting-edge telehealth services.
    We should never forget the distinct difference with respect to 
health care needs and access in rural areas versus urban communities in 
the United States. Income generally is lower in rural communities. 
Health services may be hours away. Accidents on farms and country roads 
are higher than in urban areas. Families are larger. The population is 
older. And the quality of care is sparser and often less proficient.
    We commend Chairman Thune and Ranking Member Nelson for their 
sagacious leadership in proposing and advancing legislation that will 
address the issues identified in this comment, and we stand ready and 
able, individually and in association with others, to support your 
urgent efforts to assure all Americans access to the best telehealth 
care and services in the world.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                          Hon. Dennis Daugaard
    Question. I'm pleased we are all in agreement that the state of our 
Nation's infrastructure is unacceptable and that we owe it to our 
constituents to make meaningful upgrades. In this bipartisan effort to 
improve and modernize our infrastructure, it's important to note--we 
may not need a big brand new government program to make meaningful 
change. There are some programs that work well today that we can better 
utilize to bring needed improvements home to our states. The TIGER 
grant program, for example, has been hugely successful in providing 
support for infrastructure across the country and has clear bipartisan 
support. New Hampshire's Sarah Mildred Long Bridge and Memorial Bridge 
are two projects that benefited from this program and it could do even 
more with more resources. Senate Democrats released a blueprint for 
infrastructure investment that suggests increasing funding for this 
successful program over ten years could improve infrastructure and 
create 130,000 jobs. Do you agree that we should consider expanding 
existing successful programs like TIGER, to deliver infrastructure 
benefits to our home states in the fastest, most efficient way 
possible? Are there other successful programs that you believe we could 
better utilize to bring benefits to our communities?
    Answer. South Dakota supports increasing the formula funding 
programs authorized under the FAST Act as the primary focus of any 
increased infrastructure funding. Formula based programs allow states 
to quickly respond when funds are made available and deliver projects 
that are progressing in the planning pipeline. Formula programs also 
facilitate long-range planning and the implementation of plans because 
the funding levels are more certain.
    Using the FAST Act's predominantly formula-based approach for the 
distribution of funds also would ensure that both rural and urban 
states participate in additional funding and it would deliver the 
benefits of an infrastructure initiative to the public promptly. 
Formula programs, compared to discretionary or allocation programs, 
should continue to receive strong Federal funding emphasis in any 
Federal surface transportation infrastructure initiative. South Dakota 
has received TIGER funding in the past and we are appreciative. 
However, there is no guarantee we or any other state would receive 
discretionary funding in the future. That is why a strong emphasis on a 
formula-based approach is critical to implementing a state's long-range 
planning.
    Also, to increase the reliability of the formula programs, 
strengthening the Highway Trust Fund is a very important objective. The 
Highway Trust Fund (HTF) programs are critically important to efforts 
to maintain and improve America's surface transportation 
infrastructure. We deeply appreciate that the FAST Act provided 
financial support to the trust fund and its programs through FY 2020. 
Past 2020 there will be no meaningful balance in the HTF and 
legislation will be needed to provide funding to support even the 
current Federal surface transportation program level, as well as any 
increase in program levels.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                        to Hon. Dennis Daugaard
    Question 1. In my state of Nevada, we are focused on constructing a 
future Interstate 11 that is designated to run from Phoenix to Las 
Vegas, and then further north to help relieve and manage the widespread 
growth in the southwest. Are there new projects in your state that are 
being developed, or ready, that require a significant Federal 
investment? And in your opinion, what is the balance between investing 
in new infrastructure, and repairing the old?
    Answer. Deciding the proper balance between new projects and 
preservation is best left to each individual state so its decision-
makers, who are closest to the facts and issues, can respond 
appropriately to its unique circumstances. In South Dakota, we also 
have areas that need new projects and highways and we try to serve 
those needs, but limited funding is a constraint. However, we continue 
to focus our funding primarily on preservation of our existing 
transportation system because of the current funding levels.

    Question 2. Like you, I'm from a state with a focus on renewable 
energy. Can you tell us about how the renewable energy sectors in your 
state are integrating with the electrical grids to get the power to 
customers? From your perspective, is that something you see as needing 
significant Federal investment?
    Answer. South Dakota has two major sources of renewable energy that 
are used to generate electricity. The first major source is 
hydroelectric dams that are situated along the Missouri River. 
Extensive infrastructure exists to transmit and distribute the energy 
produced by the dams. The Western Area Power Administration is 
responsible for the administration of the hydrogenation and its 
distribution, and it owns transmission lines to distribute the power. 
It goes without saying that the construction of the Missouri River 
hydroelectric dams required major Federal investments and the dams have 
shaped energy generation in the region for more than 6 decades.
    The second major source of renewable energy in South Dakota is wind 
energy. South Dakota has tremendous wind power potential. We are seeing 
utilities construct large wind projects in South Dakota and tying those 
resources to distributable natural gas plants. South Dakota's wind 
industry growth is limited by the lack of transmission lines to densely 
populated metropolitan areas. However, progress is being made. 
Construction of the CAPX2020 transmission project is currently underway 
in South Dakota, Minnesota, North Dakota, and Wisconsin. When completed 
the project will represent 2 billion dollars of new investment in 
transmission lines that can move clean wind energy from South Dakota to 
more populated metropolitan areas. The CAPX2020 project was funding 
primarily through private funds, but some Federal money was used in the 
project.
    The model used to fund the CAPX2020 project is one that can be used 
to fund and build new transmission lines in other locations where wind 
and solar are available, but are not connected to major areas of energy 
demand by existing transmission lines.
    Finally, certain incentives from the Federal Government have 
allowed wind energy development to take hold. Without those incentives, 
we likely would not have seen as much development of this renewable 
resource.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                       to Hon. Carlos M. Braceras
    Question 1. In my state of Nevada, we are focused on constructing a 
future Interstate 11 that is designated to run from Phoenix to Las 
Vegas, and then further north to help relieve and manage the widespread 
growth in the southwest. Are there new projects in your state that are 
being developed, or ready, that require a significant Federal 
investment? And in your opinion, what is the balance between investing 
in new infrastructure, and repairing the old?
    Answer. The appropriate balance is different in every state, and 
neither preservation nor new construction is truly a priority over the 
other; both are essential. Each state must create its own strategy, 
performance measures, and performance tracking system to achieve the 
needed outcomes in a transparent way. Clear national goals are also 
crucial because they provide a framework for states to work within 
while also allowing flexibility for states to tailor their efforts to 
fit the unique needs and challenges they face.
    Utah and Nevada are the number one and number two fastest growing 
states in the country (based on U.S. Census Bureau data for percentage 
growth 2015 to 2016). In Utah, we expect to almost double our 
population within the next 35 years. That means we face an incredible 
opportunity and challenge to keep pace with the expected increased 
demand on capacity, which will be virtually impossible to meet through 
new construction only. In Utah, we have adopted a philosophy that we 
must invest in improved mobility, operations and safety to accommodate 
for growth as efficiently and effectively as possible.
    The construction of new capacity also remains an important part of 
our overall strategy for addressing increasing demands on our 
transportation system. Here in Utah, we too are implementing new 
freeway-like facilities; however, we are funding these projects with 
state dollars, choosing to utilize Federal dollars instead for 
maintenance and preservation work. In Utah, we have found this to be a 
more effective approach to deliver projects. We are able to streamline 
budgets and schedules on our larger, more complicated projects by using 
state funds, which have fewer associated regulations and requirements. 
Federal funds are most effectively used on projects with simpler 
scopes--such as maintenance and preservation--in which where the 
requirements for use are less onerous. The exact strategies for 
preservation have varied as the conditions of our system, the size of 
our budget and the needs of our population have changed over time.

    Question 2. Like you, I'm from a state with a focus on renewable 
energy. Can you tell us about how the renewable energy sectors in your 
state are integrating with the electrical grids to get the power to 
customers? From your perspective, is that something you see as needing 
significant Federal investment?
    Utah does not anticipate an immediate need for significant Federal 
investment to support or expand renewable energy implementation in our 
state. Partnering between public and private sectors will be essential, 
and market forces will primarily drive the speed and direction of 
implementation. Incentives can play a role in early stage deployment, 
but can pose challenges if held long-term.
    Currently, costs for wind and solar have declined substantially and 
they are increasingly competitive with conventional resources, implying 
that incentives may not need to play the role they have in the past; 
however, modifying incentives is problematic once an industry becomes 
accustomed to the incentives profile. For that reason, we favor a more 
organic approach driven by natural market forces.
    It's also important to recognize that Utah is an ``all-of-the-
above'' state as it relates to energy, and we recognize the importance 
of a diverse energy portfolio for providing resilient, affordable, 
sustainable energy. Integration of intermediate resources, such as wind 
and solar, must be considered in the context of storage of other 
resources on the system and transmission system capacity. Public-
private partnerships can provide a more deliberate approach to planning 
and integration than straightforward incentives.
    Finally, we support encouraging responsible energy development 
across resources as the best path to realize our energy and 
environmental goals.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                           Shirley Bloomfield
    Question. As co-chair of the Next Generation 9-1-1 Caucus, I know 
our Nation's 9-1-1 system is in urgent need of upgrades. On February 
28, I attended a Next Generation 9-1-1 technology showcase and 
announced new draft legislation with Senator Nelson. The Next 
Generation 9-1-1 Act of 2017 would provide billions of dollars of 
Federal funding through the existing 9-1-1 grant program to assist 
states and localities in upgrading to Next Generation 9-1-1.
    Ms. Bloomfield, Next Generation 9-1-1 relies on high-speed 
broadband. If there is not widespread broadband access in rural areas 
is there a danger of a rural--urban divide in terms of public safety?
    Answer. As Carriers of Last Resort, NTCA's members provide 
essential telecommunications services in rural areas of the country, 
providing necessary communications links to end users and Public Safety 
Answering Points (``PSAPs'') alike. Among other things, these carriers 
ensure that rural consumers, no matter where they live, are able to 
place a voice call and connect with 9-1-1 (``911'') public safety 
services. In addition, rural telecommunications operators provide 
critical communications services for PSAPs and other community anchor 
institutions. However, as you noted, broadband is the next 
communications frontier, and without access to high-speed broadband, 
rural areas will be left behind the digital revolution, with inferior 
services to those available to their urban counterparts. Although rural 
citizens may reside in remote areas of the country, their need for 
access to emergency services is no less important.
    In regard to public safety, the transition from traditional 911 to 
Next-Generation 9-1-1 (``NG911'') will enable a variety of new 
capabilities and services that benefit public safety, first responders, 
and, ultimately, the end user. NG911 will allow the general public to 
communicate with PSAPs via real-time voice, video, and/or text, from 
any wired, wireless or IP-based device. In addition, NG911 will allow 
the public safety community to leverage advanced call delivery 
applications and seamless data transfers across 911 and first responder 
systems. NG911 encompasses new hardware, software, policies, procedures 
and training, and is predicated upon the availability and adoption of 
broadband by the entirety of the 911 community--including end users and 
PSAPs.
    The transition to NG911 will require the acquisition of substantial 
capital assets by PSAPs, including new equipment and the 
reconfiguration of networks and terminating facilities. As such, this 
technological and service transformation will require significant 
resources derived from a consistent and adequate funding mechanism. As 
such, NTCA supports mechanisms that will ensure that rural communities 
have access both to the underlying broadband infrastructure needed in 
the first instance to make effective use of services like NG911 and to 
the additional technical and financial assistance required to fully and 
specifically participate in the NG911 transition.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                           Shirley Bloomfield
    Question. I'm pleased we are all in agreement that the state of our 
Nation's infrastructure is unacceptable and that we owe it to our 
constituents to make meaningful upgrades. In this bipartisan effort to 
improve and modernize our infrastructure, it's important to note--we 
may not need a big brand new government program to make meaningful 
change. There are some programs that work well today that we can better 
utilize to bring needed improvements home to our states. The TIGER 
grant program, for example, has been hugely successful in providing 
support for infrastructure across the country and has clear bipartisan 
support. New Hampshire's Sarah Mildred Long Bridge and Memorial Bridge 
are two projects that benefited from this program and it could do even 
more with more resources. Senate Democrats released a blueprint for 
infrastructure investment that suggests increasing funding for this 
successful program over ten years could improve infrastructure and 
create 130,000 jobs. Do you agree that we should consider expanding 
existing successful programs like TIGER, to deliver infrastructure 
benefits to our home states in the fastest, most efficient way 
possible? Are there other successful programs that you believe we could 
better utilize to bring benefits to our communities?
    Answer. We could not agree more that, many times, a brand new 
government program is not needed to make meaningful change. Instead, 
more effective use of programs already in place--especially where the 
primary problem with those programs has been a lack of sufficient 
resources--can offer more immediate promise and results than standing 
up new programs from scratch.
    An example of a program that has been very successful, but needs 
additional support to complete its mission, is the Federal Universal 
Service Fund (USF). In rural areas, the High-Cost portion of the USF is 
intended to ensure rural consumers have access to affordable and 
comparable voice and broadband services like their urban counterparts. 
USF needs to be fully funded to operate as intended to meet the 
broadband needs of rural consumers, and today it is not.
    NTCA has previously asked the FCC to fully fund USF support as 
originally designed--which would require another $250 million in 2017 
($110 million for model-based support and $140 million for non-model 
support) and likely comparable amounts in subsequent years to cover the 
budget shortfalls for the USF programs for small rural carriers that 
are the only communications option for the most rural 35 percent of the 
U.S. landmass. This underfunding means many rural locations will not 
get served as designed and/or that broadband rates for those rural 
consumers fortunate enough to receive broadband will be hundreds or 
even thousands of dollars higher per year than what an urban consumer 
would pay for the same service.
    Providing sufficient funding is essential to comply with statutory 
universal service provisions, fulfill the will of Congress in writing 
to the FCC in 2014 and 2015, and achieve the intended goals of the 
FCC's reforms--to enable small rural carriers to continue investing 
responsibly in advanced communications networks and to enable rural 
consumers to pay broadband rates reasonably comparable to those 
available in urban areas. NTCA believes there can be no more effective 
way to tackle broadband challenges in the most rural parts of our 
country than to make better use of a sufficient High-Cost universal 
service mechanism.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Shirley Bloomfield
    Question 1. What kinds of Universal Service Fund reforms could help 
alter the outlook for a company interested in deploying broadband? And, 
beyond siting matters, what specific challenges have your members faced 
in Nevada to initiate or improve broadband service in the state?
    Answer. For a small, rural broadband company interested in 
deploying broadband, NTCA believes the Universal Service Fund (USF) 
must be fully funded to operate as designed and as required by law to 
meet the broadband needs of rural consumers.
    NTCA has previously asked the FCC to fully fund USF support as 
originally designed--which would require another $250 million in 2017 
($110 million for model-based support and $140 million for non-model 
support) and likely comparable amounts in subsequent years to cover the 
budget shortfalls for the USF programs for small rural carriers that 
are the only communications option for the most rural 35 percent of the 
U.S. landmass. This underfunding means many rural locations will not 
get served as designed and/or that broadband rates for those rural 
consumers fortunate enough to receive broadband will be hundreds or 
even thousands of dollars higher per year than what an urban consumer 
would pay for the same service. The impact of these funding shortfalls 
will certainly be found in Nevada which has a mix of model-based and 
non-model supported rural carriers that are challenged by large remote 
serving areas.
    Providing sufficient funding is essential to comply with statutory 
universal service provisions, fulfill the will of Congress in writing 
to the FCC in 2014 and 2015, and achieve the intended goals of the 
FCC's reforms--to enable small rural carriers to continue investing 
responsibly in advanced communications networks and to enable rural 
consumers to pay broadband rates reasonably comparable to those 
available in urban areas. NTCA believes there can be no more effective 
way to tackle broadband challenges in the most rural parts of our 
country than to make better use of a sufficient High-Cost universal 
service mechanism.
    Turning to deployment challenges, small broadband providers in 
Nevada and in other states are often forced to devote staff to costly 
and sometimes redundant approval processes while multi-million dollar 
investments are put on hold. Rights-of-way applications, for example, 
can be complicated by a multi-agency effort at the Federal level that 
requires navigating different processes. In terms of rights-of-way and 
access to other critical inputs such as pole attachments and conduits, 
policies and procedures must enable providers to operate on an equal 
footing in terms of cost and timing of access.
    But going beyond siting matters, NTCA members face other challenges 
in deploying and operating broadband networks. For example, substantial 
costs are incurred in providing sufficient ``middle mile'' capacity to 
connect rural Nevada to the rest of the world. Specifically, to meet 
broadband obligations, providers in Nevada and other rural areas are 
incurring greater and greater middle mile and bandwidth costs due to 
over the top services, which also has the effect of reducing IPTV and 
even landline voice telephony revenue.

    Question 2. With the challenges of siting broadband projects on 
Federal public and tribal lands, would you favor an interagency working 
group that coordinates agencies like the Federal Communications 
Commission, the Bureau of Land Management, Bureau of Indian Affairs, 
and National Telecommunications & Information Administration to come up 
with streamlined solutions to barriers denying rural Nevadans quality 
Internet access? Who are the other stakeholders or Federal agencies 
would need to be represented in these discussions to ensure we close 
the digital divide?
    Answer. Yes. An interagency working group could be helpful for 
interagency coordination purposes. In addition, creating standard 
procedures across multiple agencies to the maximum extent possible 
would be highly beneficial. In fact, government at all levels--state 
and local, counties, tribal lands, and Federal--should work 
collaboratively to harmonize processes to reduce the transaction costs 
of broadband deployment and expedite placement of facilities.
    Other stakeholders or Federal agencies that should be represented 
in these discussions include: the Rural Utilities Service and the 
United States Forest Service from the U.S. Department of Agriculture.

    Question 3. From the American Recovery and Reinvestment Act (ARRA) 
Nevada received 12 awards totaling $66.7 million, can you give me your 
insights on the performance of those investments, and of the overall 
seven-plus billion dollars that was invested in broadband through ARRA? 
And in other words, what worked and didn't work? Were there elements of 
your broadband deployment objectives that went well or were lacking in 
that legislation and its implementation?
    Answer. The ARRA allowed many companies to do many great things. It 
helped many NTCA members and their state fiber networks extend 
previously unavailable broadband deeper into rural areas. However, it 
was also a rushed set of programs that didn't always take good stock of 
the lay of the land in terms of identifying where true broadband 
challenges resided. Thus, even as the ARRA enabled deployment in areas 
like those served by NTCA members where broadband was still needed, the 
ARRA also led at times to deployment to locations where existing 
providers already had fiber in place. There also appear to be cases in 
which companies formed on the fly quickly to chase the stimulus 
opportunity, only to find that they weren't really capable of 
delivering on big promises in the time required.
    So in terms of ``lessons learned'' testimony, NTCA would suggest 
looking to leverage experience in two specific ways: First, look to 
leverage existing providers who have a track record. If you want it 
done right, get the right people for the job. Experience matters. 
Second, look to leverage processes put into place in the FCC's 
Universal Service Fund/Connect America Fund program and efforts at the 
state level like those in Minnesota and New York that look to target 
funding to where it is needed to enable deployment or upgrades.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                           Hon. Philip Levine
    Question. I'm pleased we are all in agreement that the state of our 
Nation's infrastructure is unacceptable and that we owe it to our 
constituents to make meaningful upgrades. In this bipartisan effort to 
improve and modernize our infrastructure, it's important to note--we 
may not need a big brand new government program to make meaningful 
change. There are some programs that work well today that we can better 
utilize to bring needed improvements home to our states. The TIGER 
grant program, for example, has been hugely successful in providing 
support for infrastructure across the country and has clear bipartisan 
support. New Hampshire's Sarah Mildred Long Bridge and Memorial Bridge 
are two projects that benefited from this program and it could do even 
more with more resources. Senate Democrats released a blueprint for 
infrastructure investment that suggests increasing funding for this 
successful program over ten years could improve infrastructure and 
create 130,000 jobs. Do you agree that we should consider expanding 
existing successful programs like TIGER, to deliver infrastructure 
benefits to our home states in the fastest, most efficient way? Are 
there other successful programs that you believe we could better 
utilize to bring benefits to our communities?
    Answer. Senator Hassan, I agree that we should consider expansion, 
or at a minimum, the continuation of the highly successful TIGER grant 
program. Under this program ``shovel-ready'' public infrastructure 
projects were built nationwide; without this critical TIGER Grant 
program, these projects would have continued to languish as passive 
paper documents.
    In addition, the City relies on the State Transportation 
Enhancement Funds, derived from Federal sources. Over the last 2 years, 
the City has used over $1.5M in Transportation Enhancement Funds to 
implement critically needed transportation infrastructure repair and 
replacement--ranging from reconstruction of heavily-traversed bridges, 
to growing our Safe Routes to School network, to expanding heavily used 
citywide trolley service that provides a critical mobility service for 
our senior citizens.
    As our region struggles with increasing traffic congestion, with 
the resulting economic costs, we will continue to rely more heavily on 
the Federal Transit Administration's Capital Investment Grant Program 
(CIG) in the Fixing America's Surface Transportation (FAST) Act, which 
authorized $2.3 Billion annually for CIG grants through FY 2020.

                                  <all>
</pre></body></html>
